<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2019</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2019

                              ----------                              


                         WEDNESDAY, MAY 9, 2018

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:01 a.m. in room SD-192, Dirksen 
Senate Office Building, Hon. Richard C. Shelby (chairman) 
presiding.
    Present: Senators Shelby, Alexander, Murkowski, Blunt, 
Daines, Moran, Hoeven, Durbin, Leahy, Murray, Tester, Udall, 
Schatz, and Baldwin.

                         DEPARTMENT OF DEFENSE

                        Office of the Secretary

STATEMENT OF HON. JAMES N. MATTIS, SECRETARY
ACCOMPANIED BY DAVID NORQUIST, UNDER SECRETARY OF 
            DEFENSE (COMPTROLLER) AND CHIEF FINANCIAL OFFICER


             opening statement of senator richard c. shelby


    Senator Shelby. Subcommittee will come to order.
    We're pleased to welcome today our distinguished panel to 
review the fiscal year 2019 budget request of the Department of 
Defense. Today, the committee will hear from the Honorable 
James Mattis, Secretary of Defense, and General Joseph Dunford, 
Chairman of the Joint Chiefs of Staff.
    We know that you've got a lot of ground to cover, Mr. 
Secretary. I'd like for my opening statement to be part of the 
record, where we could get to your statement and we could get 
to our questions.
    [The statement follows:]
            Prepared Statement of Senator Richard C. Shelby
    The Subcommittee will come to order. I am pleased to welcome our 
distinguished panel to review the fiscal year 2019 budget request for 
the Department of Defense.
    Today the committee will hear from: The Honorable James Mattis, 
Secretary of Defense, and General Joseph Dunford, Chairman of the Joint 
Chiefs of Staff.
    It is an honor to have you both back before the Subcommittee this 
morning, and we look forward to hearing more about your priorities.
    The world is a complex and dangerous place, and as we consider the 
appropriate funding level for the Department in 2019, we remain 
interested in the Department's work to restore military readiness, and 
improve our national security.
    I now turn to the Vice Chairman, Senator Durbin, for his opening 
remarks.

    Senator Shelby. Senator Durbin.

                 STATEMENT OF SENATOR RICHARD J. DURBIN

    Senator Durbin. I ask unanimous consent that my opening 
statement also be included in the record, and defer to our 
witnesses.
    Senator Shelby. Without objection.
    [The statement follows:]
            Prepared Statement of Senator Richard J. Durbin
    Mr. Chairman, I am pleased to join you in welcoming the Secretary 
of Defense, the Honorable James Mattis, and the Chairman of the Joint 
Chiefs of Staff, General Joseph Dunford, to our hearing to review the 
Department of Defense's budget request for fiscal year 2019.
                           a dangerous world
    Secretary Mattis, Chairman Dunford, we thank you for being here 
today to discuss the fiscal year 2019 defense budget and the 
increasingly dangerous world environment you help our country navigate.
    Some of those challenges are enduring, such as the threat of North 
Korea's nuclear program, and transnational terrorist groups like Al 
Qaeda and ISIS.
    Other challenges are entirely of our own making, despite the best 
efforts of many thoughtful individuals including the two of you.
    Here I would cite the President's decision to withdraw from the 
Iran agreement, as well as his continual denigration of our allies.
    On Iran, the U.S. has put itself in violation of the agreement 
despite the fact that it's working as intended to limit Iran's nuclear 
program and guarantee unprecedented on-the-ground access for inspectors 
to verify every bit of it.
    On this issue and so many others, the Administration's policy has 
made it harder--not easier--to accomplish our goals. We must find a 
better way to protect the U.S. and our allies from the challenges we 
face around the world, and I look forward to your recommendations.
    We also know that our allies have a hard time understanding which 
way the United States is heading. The President approved a sweeping 
national security strategy in December 2017, but many would question 
whether that document has translated into policies that our country is 
carrying out.
    For example, are we staying in Syria, or not? Are we staying in 
Afghanistan, or not? Are we staying in South Korea, or not?
    These questions matter to the American people, our allies, and 
above all, the women and men who serve in these distant places.
    I hope you can bring clarity to these matters, especially as to 
your views on the balance of responsibilities between the Department of 
Defense and Department of State, as you address the complex threats 
facing our country.
                   spending defense increases wisely
    Secretary Mattis, I appreciate your emphasis on spending the 
defense spending increases in fiscal years 2018 and 2019 wisely. In 
prior defense buildups, we saw how the push to spend large amounts of 
money quickly led to $700 hammers . . .  not to mention the billions 
spent on R&D programs that were never fielded.
    We must remember that this budget deal will be over before we know 
it. The 2020 defense budget would face cuts of $71 billion without 
another deal to relieve sequestration.
    And given the increasing deficit, simply maintaining the current 
level of defense budget is not guaranteed.
                           valuing our people
    I am also concerned about our people. I know you both will agree 
with me that we have the best military and civilian personnel in the 
world. I leave every visit to a military installation or DoD agency 
impressed with the quality and dedication of our people.
    Moreover, in an era when it is harder to find qualified people that 
want to do this work, I worry that we are choosing to turn away capable 
people because of their naturalization status or gender identity.
    Mr. Secretary, I know you have spent a lot of thoughtful time on 
these issues and programs, and I want to make sure I fully understand 
their status, your thinking, and their potential impact.
                               conclusion
    Mr. Chairman, thank you for convening this important hearing, and I 
want to thank our witnesses again for your testimony today, as we are 
glad to have you in these positions. You have a lot on your plates in 
very trying times, and your dedication to the defense of our country 
over many decades is greatly appreciated.

    Senator Shelby. Your statement will made be made part of 
the record in its entirety. You proceed as you wish.

               SUMMARY STATEMENT OF HON. JAMES N. MATTIS

    Secretary Mattis. Well, thank you, Chairman Shelby, Ranking 
Member Durbin, and distinguished members of the committee. And 
I appreciate the opportunity to testify in support of the 
President's budget request for fiscal year 2019, joined by the 
Chairman, General Dunford, but also the Department's 
Comptroller, Chief Financial Officer, Mr. David Norquist. And 
thank you for accepting my written statement for the record.
    I'm now in my second year as Secretary of Defense. And, 
with this committee's help, we have made steady progress during 
the past 15 months. I must also note that this is my first time 
to testify before you as Chairman, Chairman Shelby, and it--
congratulations on that leadership position--and the Pentagon 
sent a note of confidence through our ranks. Thank you.
    Yesterday, President Trump announced the administration's 
decision to withdraw from the Joint Comprehensive Plan of 
Action, terminating U.S. participation and reimposing sanctions 
on the Iranian regime. We will continue to work alongside our 
allies and partners to ensure that Iran can never acquire a 
nuclear weapon, and we'll work with others to address the range 
of Iran's malign influence. This administration remains 
committed to putting the safety, interests, and well-being of 
our citizens first.
    In January, the Department published the 2018 National 
Defense Strategy, the first in a decade. Framed within 
President Trump's National Security Strategy, the 2018 National 
Defense Strategy provides clear direction for America's 
military to restore its competitive edge in an era of 
reemerging long-term great-power competition. The Department 
next released the 2018 Nuclear Posture Review, which calls for 
America's military to provide a safe, secure, and effective 
nuclear deterrent that is modern, robust, flexible, resilient, 
ready, and appropriately tailored to deter 21st-century threats 
and to reassure our allies.
    In South Asia and Afghanistan, uncertainty in the region 
has been replaced by the certainty of the administration's 
South Asia Strategy. Concurrently, in the Middle East, we have 
dramatically reduced ISIS (Islamic State in Iraq and Syria) 
physical caliphate using a coordinated whole-of-government 
approach that worked by, with, and through our allies and 
partners to crush ISIS claim of invincibility and to deny them 
a geographic haven from which to plot murder.
    Two months ago, thanks to the bipartisan support and the 
political courage of Congress and the dedication of this 
committee, President Trump signed the omnibus spending bill 
that funds the government for the remainder of the fiscal year. 
This law, along with the 2-year budget agreement passed as part 
of February's Budget Bipartisan Act, finally freed us from the 
inefficient and damaging continuing resolution funding process 
and is now providing the predictable and sufficient funding 
needed to continue implementing the 2018 National Defense 
Strategy.
    Our fiscal year 2019 budget requests the resources 
necessary to fulfill the Department's enduring mission to 
provide the combat-credible military forces needed to deter war 
and, if deterrence fails, to win in any conflict. These forces 
reinforce America's traditional tools of diplomacy, ensuring 
that the President and our diplomats negotiate from a position 
of strength.
    To restore our Nation's competitive military advantage, the 
fiscal year 2019 budget funds our National Defense Strategy's 
three overarching lines of effort: to build a more lethal 
force; second, to strengthen our traditional alliances while 
building new partnerships; and third, to reform the 
Department's business practices for performance and 
affordability.
    In regard to our first line of effort, to build a more 
lethal force, all our Department's polices, expenditures, and 
training must contribute to the lethality of our military. We 
cannot expect success fighting tomorrow's conflicts with 
yesterday's thinking, yesterday's weapons, or yesterday's 
equipment. As President Washington said during his first State 
of the Union Address, ``To be prepared for war is one of the 
most effectual means of preserving peace.'' So, today, members 
of the committee, our lethal military arm is designed to 
enhance our diplomats' persuasiveness.
    The paradox of war is that an adversary will always move 
against any perceived weakness, so we cannot adopt a single 
preclusive form of warfare. We must be able to fight across the 
entire spectrum of combat. The Nation must field sufficient, 
capable forces to deter conflict. If deterrence fails, we must 
win. Following this logic, we must maintain a credible nuclear 
deterrent so these weapons are never used, and a decisive 
conventional force that includes irregular warfare 
capabilities.
    Preserving the full range of our Nation's deterrent options 
requires the recapitalization of our Cold War legacy nuclear 
deterrent forces as initiated during the previous 
administration. Modernizing the Nation's nuclear delivery 
systems and our nuclear command and control is our Department's 
top priority, and these programs are fully funded in the 2019 
budget. That budget funds enhancements to the U.S. missile 
defense capability to defend the homeland, defend our deployed 
forces, allies, and partners against an increasingly complex 
missile threat. In accordance with the soon-to-be-released 2018 
Missile Defense Review, this budget request continued robust 
support for missile defense capability and the capability that 
will keep pace with advancing threats.
    The proposed budget will modestly increase the end strength 
of the Army, Navy, Air Force, and Marine Corps to restore 
readiness, adding a total of 25,900 to the Active and Reserve 
force. The budget will also continue to invest in the 
military's most important asset, its warfighters, with a 2.6 
percent military pay increase. And the 2019 budget continues 
increased procurement of preferred and advanced munitions, a 
necessity due to the ongoing operations in the Middle East and 
due to the need for war reserves.
    Ten combat ships and eight support ships are funded, 
arresting the downward trajectory of our Navy's size and 
lethality. We will continue production of 77 F-35s and 24 F/A-
18 aircraft, evaluating the performance of both to determine 
the most appropriate mix, moving forward.
    The budget request funds systems to enhance communications 
and resiliency in space, addressing overhead persistent 
infrared capabilities and also positioning navigation and 
timing.
    Our 2018 National Defense Strategy also prioritizes 
investing in technological innovation to increase lethality. 
Specifically, cyber, advanced computing, big-data analytics, 
artificial intelligence, autonomy, robotics, miniaturization, 
additive manufacturing, directed energy, and hypersonics are 
the very technology we need to fight and win wars of the 
future.
    Every investment in the strategy-driven fiscal year 2019 
budget is designed to contribute to the lethality of our 
military, ensuring that subsequent Secretaries of Defense 
inherit a military force that is fit for its time. Those 
seeking to threaten America's experiment in democracy should 
know that, ``If you challenge us, it will be your longest and 
worst day.''
    Our 2018 National Defense Strategy's second line of effort 
remains to strengthen traditional alliances while building new 
partnerships. In the past, I had the privilege of fighting many 
times in defense of the United States, but I never fought in a 
solely American formation. It was always alongside foreign 
troops. Easier said than done, Winston Churchill noted, ``The 
only thing harder than fighting with allies is fighting without 
them.'' But, history proves that we are stronger when we stand 
united with others. Accordingly, our military will be designed, 
trained, and ready to fight alongside allies.
    Working by, with, and through allies and partners who carry 
their fair share remains a source of strength for the United 
States. Since the costly victory in World War II, Americans 
have carried a disproportionate share of the global defense 
burden while others recovered. Today, the growing economic 
strength of allies and partners has enabled them to step up, as 
demonstrated by the 74 nations and international organizations 
participating in the Defeat ISIS Campaign and again in the 41 
nations now standing shoulder to shoulder in NATO's (North 
Atlantic Treaty Organization) Resolute Support Mission in 
Afghanistan. This year, every NATO ally has increased defense 
spending, and 15 NATO allies are increasing their defense 
budgets as a share of gross domestic product, giving credence 
to the value of democracies standing together. Further, our 
Pacific partners are also strengthening their defenses.
    Our third line of effort is the urgent reform of the 
Department's business practices to provide both solvency and 
security to the Nation. We will continue to establish a culture 
of performance where results and accountability matter on every 
expenditure to gain full strength from every single taxpayer 
dollar spent on defense. We are committed to exercising the 
utmost degree of financial stewardship and budget discipline 
within the Department. In this regard, this year we will 
deliver our Department's first full financial audit in our 
history. We will find problems and then take swift action to 
correct our deficiencies, thereby earning the trust of Congress 
and the American people. I am confident we have the right 
leaders in place to make meaningful reform a reality: Pat 
Shanahan, as Deputy Secretary of Defense; John Gibson, as the 
Chief Management Officer; Ellen Lord, as Under Secretary of 
Defense for Acquisitions and Sustainment; Michael Griffin, as 
Under Secretary of Defense for Research and Engineering; Bob 
Daigle, as Director of Cost Assessment and Program Evaluation; 
and David Norquist, who joins us here today, as the 
Department's Comptroller Chief Financial Officer. Each brings 
the intellect, energy, and experience required to implement and 
sustain meaningful reform, ensuring the Department provides 
performance and affordability for the American taxpayer.
    The Department is transitioning to a culture of performance 
and affordability that operates at the speed of relevance. We 
will prioritize speed of delivery, continuous adaptation, and 
frequent modular upgrades. With your continued critical 
support, we will shed outdated management and acquisition 
processes while adopting American industry's best practices. 
Our management structure and processes are not engraved in 
stone, they are a means to an end. If current structures 
inhibit our pursuit of lethality, I have directed service 
secretaries and agency heads to consolidate, eliminate, or 
restructure to achieve their mission.
    The 2018 National Defense Strategy's three primary lines of 
effort a more lethal force, strengthening our alliances, and 
reforming the Department's business practices will restore our 
competitive military advantage, ensuring we are prepared to 
fight across the full spectrum of combat, both now and in the 
future.
    I want to thank this committee for your strong spirit of 
bipartisan collaboration. While our trajectory is going in the 
right direction, our work has just begun. This is a year of 
opportunity and a chance to continue to work together, building 
on a strong start as we turn the 2018 National Defense Strategy 
into action.
    The point I need to emphasize in today's hearing are that 
the budget, which is designed to execute this strategy of 
building a more lethal force, restoring current and future 
readiness, and modernizing our nuclear deterrent forces, also 
must build for the future by improving our military's 
technological competitive edge and reforming the Department's 
business processes to establish that culture of performance and 
affordability that will ensure security and solvency. The 
strategy is the guidepost for all our actions, including this 
year's strategy-driven budget request, driving meaningful 
reform to establish an enduring culture of performance, 
affordability, and agility.
    I cannot appear before you, Mr. Chairman, without 
expressing my gratitude to the men and women of the Department 
of Defense. They are the ones who must ultimately turn the 
National Defense Strategy into action. Every day, more than 2 
million servicemembers and nearly 1 million civilians do their 
duty, honoring previous generations of veterans and civil 
servants who have sacrificed for their country. It is a 
privilege to serve alongside them, and I thank them for their 
tireless efforts and unyielding standards in defense of our 
Nation.
    General Dunford is prepared to discuss the military 
dimensions of this budget request.
    [The statement follows:]
               Prepared Statement of Hon. James N. Mattis
    Chairman Shelby, Ranking Member Durbin, distinguished members of 
the committee; I appreciate the opportunity to testify in support of 
the President's budget request for fiscal year 2019. I am joined by 
Chairman of the Joint Chiefs, General Dunford, and the Department's 
Comptroller/Chief Financial Officer, Mr. David Norquist.
    I am now in my second year as Secretary of Defense. With your help, 
we have made steady progress during the past 15 months. I must also 
note that this is my first time to testify before Chairman Shelby--
congratulations, sir, on your new leadership position.
    In January, the Department published the 2018 National Defense 
Strategy--the first national defense strategy in a decade. Framed 
within President Trump's National Security Strategy, the 2018 National 
Defense Strategy provides clear direction for America's military to 
restore its competitive edge in an era of reemerging long-term 
strategic competition. The Department next released the 2018 Nuclear 
Posture Review which calls for America's military to provide a safe, 
secure, and effective nuclear deterrent that is ``modern, robust, 
flexible, resilient, ready, and appropriately tailored to deter 21st 
century threats and reassure allies.''
    In South Asia and Afghanistan, uncertainty in the region has been 
replaced by the certainty of the Administration's South Asia Strategy. 
Concurrently in the Middle East, we have dramatically reduced ISIS' 
physical caliphate, using a coordinated, whole-of- government approach 
that works ``by, with, and through'' our allies and partners to crush 
ISIS' claim of invincibility and deny them a geographic haven from 
which to plot murder.
    Two months ago, thanks to the bipartisan support and political 
courage of Congress--and the dedication of this committee--President 
Trump signed an omnibus spending bill that funds the government for the 
remainder of the fiscal year. This law--along with the 2-year budget 
agreement passed as part of February's Bipartisan Budget Act--finally 
freed us from the inefficient and damaging continuing resolution in 
2018, providing the funding needed to start implementing the 2018 
National Defense Strategy. We in the Department of Defense (DoD) are 
grateful to the American people for their sacrifices on behalf of 
military readiness and for the priority given the military at a time 
when numerous competing demands must be met by our government. We 
recognize and embrace our responsibility to gain full value from every 
taxpayer dollar spent on defense. As such, every decision we make will 
focus on lethality and affordability as we rebuild readiness and 
provide the combat capabilities required for our Nation's security.
    While our trajectory is going in the right direction, our work has 
just begun. This is a year of opportunity and a chance to build on a 
strong start as we turn the 2018 National Defense Strategy into action. 
Continuing our close collaboration will address our security 
challenges, thereby enhancing the protection of our way of life. 
Initiatives such as codifying reform efforts to further streamline the 
defense acquisition process and employing feedback loops to reduce the 
number of Congressionally-mandated annual reports are areas that need 
our combined attention.
                         strategy-driven budget
    The DoD's fiscal year 2019 budget is the second complete budget 
request from President Trump's administration. This budget provides the 
resources necessary to fulfill DoD's requirements to meet the National 
Security Strategy's four vital national interests:
  --Protect the American people, the Homeland, and the American way of 
        life,
  --Promote American prosperity,
  --Preserve peace through strength, and
  --Advance American influence.
    The DoD fiscal year 2019 base budget requests the resources 
necessary to fulfill the Department's enduring mission to provide the 
combat-credible military forces needed to deter war and, if deterrence 
fails, win in the event of conflict. Our armed forces reinforce 
America's traditional tools of diplomacy, ensuring that the President 
and our diplomats negotiate from a position of strength.
    The 2018 National Defense Strategy provides clear strategic 
direction for America's military to reclaim an era of strategic 
purpose. Although the Department continues to prosecute the campaign 
against terrorists, long-term strategic competition--not terrorism--is 
now the primary focus of U.S. national security.
    Nations as different as China and Russia have chosen to be 
strategic competitors as they seek to create a world consistent with 
their authoritarian models and pursue veto power over other nations' 
economic, diplomatic, and security decisions. Rogue regimes like North 
Korea and Iran persist in taking outlaw actions that undermine and 
threaten regional and global stability. Additionally and despite our 
successes against ISIS's physical caliphate, violent extremist 
organizations continue to sow hatred, incite violence, and murder 
innocents.
    Due to our open, multi-cultural, democratic society and 
strengthening economy--more than any other nation--America can expand 
the competitive space, challenging our competitors where we possess 
advantages and they lack depth. In order to restore our competitive 
military edge, the fiscal year 2019 budget funds our defense strategy's 
three overarching lines of effort to:
  --build a more lethal force,
  --strengthen traditional alliances while building new partnerships, 
        and
  --reform the Department's business practices for performance and 
        affordability.
Build a More Lethal Force
    The Department's policies, expenditures, and training must 
contribute to the lethality of our military. We cannot expect success 
fighting tomorrow's conflicts with yesterday's thinking, weapons, or 
equipment. As General Washington said during his first State of the 
Union address, ``to be prepared for war is one of the most effectual 
means of preserving peace,'' and a lethal military arm will enhance our 
diplomat's persuasiveness.
    The paradox of war is that an adversary will move against any 
perceived weakness, so we cannot adopt a single, preclusive form of 
warfare. Rather, we must be able to fight across the entire spectrum of 
combat. This means the size and composition of our force matters, and 
the Nation must field sufficient, capable forces to deter conflict. If 
deterrence fails, we must win. In today's environment we are determined 
to maintain a credible nuclear deterrent so these weapons are never 
used, and a decisive conventional force that includes irregular warfare 
capability.
    Our military remains capable, but our competitive edge has eroded 
in every domain of warfare--air, land, sea, space, and cyber. The 
combination of rapidly changing technology, the negative impact on 
military readiness resulting from the longest continuous period of 
combat in our Nation's history, and a prolonged period of unpredictable 
and insufficient funding, created an overstretched and under-resourced 
military. The fiscal year 2017 Request for Additional Appropriations 
and fiscal year 2018 Omnibus Appropriation provided the funding needed 
to address immediate readiness shortfalls and accelerate modernization 
programs in a sustained effort to solidify our competitive advantage. 
As indicated below in Figure 1, America can afford survival. The fiscal 
year 2019 strategy-based budget is affordable and will continue to 
enhance U.S. military capabilities, but the budget can only be fully 
effective if passed on time, not later than October 1st.
    [The figure 1 follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    The National Defense Strategy prioritizes major power competition 
and, in particular, reversing the erosion of U.S. military advantage in 
relation to China and Russia. The fiscal year 2019 budget request 
invests in key capabilities to implement the National Defense Strategy 
through:
  --modernization of nuclear deterrence forces and nuclear command, 
        control and communications (NC3) capabilities;
  --additional missile defense capabilities;
  --modest increases in end strength for Army, Navy, Air Force, and 
        Marine Corps;
  --a 2.6 percent military pay raise;
  --continuing increased procurement of certain preferred and advanced 
        munitions;
  --acquisition of 10 combat ships and 8 support ships;
  --continued production of F-35 and F/A-18 aircraft;
  --increasing funds to enhance communications and resiliency in space, 
        and;
  --investment in technological innovation to increase lethality, 
        including research into advanced autonomous systems, artificial 
        intelligence, and hypersonics.
    As noted earlier, one of the key elements of the 2018 National 
Defense Strategy is to ensure America's military provides a safe, 
secure, and effective nuclear deterrent that is fit for our time.
    The global situation is sobering. Russia is modernizing its full 
range of nuclear systems while espousing a theory of nuclear escalation 
in military conflict. China, too, is modernizing and expanding its 
already considerable nuclear forces, pursuing entirely new 
capabilities. China is also modernizing its conventional military 
forces to a degree that will challenge U.S. military superiority. While 
recent events have given rise to a sense of positive movement, North 
Korea's nuclear provocations threaten regional and global peace and 
have garnered universal condemnation by the United Nations. Iran's 
nuclear ambitions also remain an unresolved concern. Globally, nuclear 
terrorism remains a tangible threat.
    The recently completed 2018 Nuclear Posture Review reaffirms the 
findings of previous reviews that the nuclear triad--comprised of silo-
based intercontinental ballistic missiles, bomber aircraft, and 
nuclear-armed submarines--is the most strategically sound means of 
nuclear deterrence. Given the range of potential adversaries, their 
capabilities and strategic objectives, the review calls for a nuclear 
deterrent fit for its time--a tailored and diverse set of nuclear 
deterrent capabilities that provides a flexible, tailored approach to 
deterring one or more potential adversaries.
    Deterrence exists in the mind of an adversary. Given today's 
complex security environment and the dynamics of deterrence, our 
Nuclear Posture Review introduces two supplemental nuclear capabilities 
to strengthen our deterrent stance. Both capabilities deny any 
adversary the confidence that limited nuclear use can provide an 
advantage.
    First is the near-term modification of a small number of existing 
submarine-launched ballistic missile warheads to reduce their yield. 
From submarines this provides a survivable capability to credibly hold 
at risk heavily-defended targets, which an adversary might believe 
could be successfully defended against current air-delivered nuclear 
weapons. This is consistent with the New START Treaty and does not 
increase the number of deployed U.S. strategic nuclear weapons. It 
counters any misconception on the part of Russia that they could 
escalate a conventional war through the use of a low yield weapon and 
we could only respond with a high yield weapon, which they calculate we 
would not do. In terms of deterrence, this submarine-launched low yield 
weapon gives us an option other than surrender or suicide, thus 
strengthening our deterrence to adversary use of nuclear weapons.
    Second is the pursuit of a nuclear sea-launched cruise missile. 
This is not a new or novel capability. The U.S. had these weapons for 
decades before dismantling them after the Cold War. If we subsequently 
choose to go into full production, this INF Treaty-compliant capability 
will close a capability gap. Currently this effort is meant to 
incentivize Russia to return to compliance with its obligations under 
the INF Treaty.
    These capabilities do not lower the nuclear threshold. Rather, by 
convincing adversaries that even limited use of nuclear weapons will be 
more costly than they can tolerate, it raises that threshold.
    Preserving this range of options requires the recapitalization of 
our Cold War legacy nuclear deterrent forces as initiated during the 
previous Administration. Modernizing the Nation's nuclear deterrent 
delivery systems, including our nuclear command and control, is the 
Department's top priority, and these programs are fully funded in the 
fiscal year 2019 budget. Most of the Nation's nuclear deterrence 
delivery systems, built in the 1980's or earlier, reach the end of 
their service life between 2025 and 2035, with all currently-fielded 
systems extended well beyond their original service lives. Replacement 
programs are underway to ensure there are no gaps in capability when 
the legacy systems age out.
    Investments include the Ground Based Strategic Deterrent system; 
COLUMBIA-class ballistic missile submarine; Trident II submarine-
launched ballistic missile service life extension program; B-21 Raider 
strategic bomber; replacing the air-launched cruise missile with the 
Long-Range Standoff weapon; and B61 Mod 12 life extension program to 
consolidate four legacy B61 variants into a single variant for carriage 
on heavy bombers and dual-capable aircraft.
    Our modernization estimates align with a recent Congressional 
Budget Office report that estimated $1.2 trillion to (1) modernize and 
(2) operate our nuclear deterrent forces over 30 years when combined 
with the costs incurred by the Department of Energy to develop and 
sustain the warheads. However, the cost of our nuclear modernization 
program is significantly less than the cost of failing to deter war by 
underinvesting in these capabilities.
    Nuclear deterrent forces, along with our conventional forces and 
other instruments of national power, help deter aggression and preserve 
peace. Our goal is to convince adversaries they have nothing to gain 
and everything to lose from the use of nuclear weapons. I note again 
that our deterrent stance does not lower the nuclear threshold, and it 
remains U.S. policy to consider employing nuclear weapons only in 
extreme circumstances to defend the vital interests of the United 
States, its allies, and partners.
    The 2018 Nuclear Posture Review reaffirms the mutually reinforcing 
role of nuclear deterrence in a complex and dynamic security 
environment and continued U.S. commitment to non-proliferation, 
counter-nuclear terrorism, and arms control. The United States remains 
committed to its global leadership role to reduce the number of nuclear 
weapons, and to fulfill existing treaty and arms control obligations, 
including the New START Treaty. While Russia and U.S. both met their 
agreed New START strategic weapons reduction requirement on time, 
Moscow has violated the Intermediate Nuclear Forces (INF) Treaty over 
the past several years. While our intent is to bring Russia back into 
compliance, the duration of Russia's INF violation illustrates the 
challenging environment for progress in arms control efforts and 
undermines U.S. confidence in Russia as a reliable treaty partner.
    The fiscal year 2019 budget funds enhancements to U.S. missile 
defense capabilities to defend the homeland, deployed forces, allies, 
and partners against an increasingly complex ballistic missile threat. 
In accordance with the soon-to-be-released 2018 Missile Defense Review, 
this budget requests continued robust support for missile defense 
capacity and capability to keep pace with advancing threats. The budget 
includes $12.9 billion for missile defense, including $9.9 billion for 
the Missile Defense Agency. The Department will develop an additional 
missile field in Alaska and increase the number of operational deployed 
Ground-Based Interceptors to 64 missiles as early as fiscal year 2023. 
While our efforts remain focused on increasing interceptor capacity in 
Alaska, the Department has completed environmental impact studies for 
four possible ballistic missile defense sites on the East Coast should 
the Iranian ICBM threat materialize.
    The fiscal year 2019 request will continue development of the 
Redesigned Kill Vehicle to address the evolving threat along with 
development of a 2nd/3rd-stage booster selectable capability to expand 
battlespace for ground-based interceptor engagements for homeland 
defense. The budget also uses available technology to improve existing 
sensors, battle management, fire control, and kill vehicle capabilities 
to include a Long-Range Discrimination Radar in Alaska, a Homeland 
Defense Radar in Hawaii, and an additional Medium Range Discrimination 
Radar in the Pacific.
    For regional missile defense capabilities, the fiscal year 2019 
budget request supports improved missile defense capability on the 
Korean peninsula; provides funding for development of advanced missile 
defense technologies to counter future threats; supports the Aegis 
Ashore site in Romania and deployment of a second site in Poland as 
part of NATO's Ballistic Missile Defense architecture; increases BMD 
capability and capacity of the Aegis fleet; integrates SM-3 Block IIA 
into the Aegis weapon system; provides funding for Terminal High 
Altitude Area Defense (THAAD) development efforts and software 
upgrades; and continues support for Israeli Cooperative BMD Programs, 
including the Iron Dome system to defeat short-range missiles and 
rockets, and co-development/co- production of the David's Sling Weapon 
System and Arrow-3 System.
    Modest increases in end strength for the Army, Navy, Air Force and 
Marine Corps are critical to restoring readiness. DoD's fiscal year 
2019 budget funds a total end strength increase of 25,900 as depicted 
in figures 2 (Active Force) and 3 (Reserve Force) below.
    [The figures 2 and 3 follow:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Our joint culture remains one of our military's greatest strengths, 
and a force multiplier on the battlefield. Each service's manpower 
needs remain unique to their specific missions. For example, the Army 
will continue to rebuild manpower readiness with a new ``Sustainable 
Readiness'' force generation model, making greater use of Reserve 
forces, updating the force structure model, and providing greater home 
station training against a broad range of threats. The Navy will ensure 
Sailors with the right skills are assigned to the most appropriate 
jobs, using the increase in end strength to reduce identified gaps in 
critical manning areas. The Marine Corps will implement a 1:2 deploy-
to-dwell ratio for active duty forces, providing more recovery time 
between deployments and for home station training. The Air Force is 
closing gaps in aircrew and skilled maintenance personnel, targeting 
their increased personnel to get more planes in the air.
    Increasing lethality requires us to change our approach to talent 
management. We must reinvigorate our military education and training, 
and hone our civilian workforce's expertise. The creativity and talent 
of the Department is our deepest wellspring of strength and warrants 
greater investment. The fiscal year 2019 budget will continue to invest 
in the military's most important asset--its warfighters--with a 2.6 
percent military pay increase. This pay raise and the increase in 
manpower will improve readiness and lethality by reducing personnel 
tempo and retaining skillsets like cyber, electronic warfare, and 
special operations. With changes to our forces' posture, we will 
prioritize for warfighting readiness in major combat, making us more 
strategically predictable and reliable for our allies but operationally 
unpredictable to any adversary.
    The U.S. Military's predominant mission is to be prepared to fight 
and win our Nation's wars. No human endeavor is more demanding 
physically, mentally, and emotionally than the life and death struggle 
of battle. High standards for military service are designed to ensure 
our military remains the most professional and lethal force in the 
world. While not everyone in the military sees combat, every Soldier, 
Sailor, Airman and Marine must be physically and mentally qualified and 
prepared to endure the hardship of war, for the U.S. military to carry 
out its demanding missions.
    Acknowledging that infantry units take over 80 percent of combat 
casualties, the Department's Close Combat Lethality Task Force is 
integrating human factors and technology to ensure our forces retain 
their hard won superiority in battle. We will expose troops to as many 
simulated tactical and ethical challenges possible before they see 
combat, ensuring that their first time in combat doesn't feel like 
their first time in combat. The Task Force will also provide 
recommendations regarding the fundamentals of performance, including 
physical fitness and nutrition standards. The end result is to ensure 
that U.S. close quarters battle is conducted in a way that ferociously 
destroys the enemy's spirit and brings back as many as possible in top 
physical and mental shape.
    To ensure the most lethal and effective fighting force in the 
world, the Department maintains high mental, physical, and behavioral 
standards. These necessarily high standards mean that 71 percent of 
young Americans (ages 17-24) are ineligible to join the military 
without a waiver. The Department's detailed 44-page report thoroughly 
explains why and under what circumstances transgender persons without 
gender dysphoria can serve, and why transgender persons with gender 
dysphoria cannot, except in limited circumstances. I'm confident that 
my recommendation to the President is in the best interests of the 
military and is consistent with the Constitution. The report also 
explains why transgender persons who entered under the prior 
administration's policy will be retained. The Department will continue 
to comply with the court orders that require the accession and 
retention of transgender persons until this issue is fully resolved, 
and I must remain careful with my comments on this matter while it is 
in active litigation.
    Continued increased procurement of preferred and advanced munitions 
is necessary due to ongoing operations in the Middle East and the need 
for war reserves. Specifically, the DoD has expended a significant 
number of munitions, primarily to defeat Islamic State of Iraq and 
Syria (ISIS). Many preferred munitions are precision-guided, low-
collateral damage munitions, used by all Services and by U.S. allies. 
Addressing the Department's need to maintain critical munition 
inventories, the fiscal year 2017 and fiscal year 2018 funds you 
provided have strengthened the Department's lethal posture, enabling 
our industrial base to increase production capacities. The fiscal year 
2019 budget provides $4.4 billion to continue to procure munitions at 
maximum production capacity, lowering the price for each unit and 
ensuring greater buying power for those munitions as we rebuild our war 
reserve.
    The United States remains the world's preeminent maritime power. 
During peacetime and in times of conflict, Sailors and Marines are 
deployed at sea, enabling forces to arrive sooner and remain longer, 
while bringing everything they need with them. These forces reassure 
allies and temper adversaries' designs. The U.S. Constitution vests 
Congress with the authority to ``provide and maintain a Navy,'' and the 
fiscal year 2019 budget provides $23.7 billion to fund 10 combat ships 
and 8 support ships. These funds arrest the downward trajectory of the 
Navy's size and lethality. Consistent with the National Defense 
Strategy, the Fleet will continue to grow to meet capabilities needed 
in the future and to maintain an industrial base healthy enough to 
adapt and evolve in a dynamic environment. The fiscal year 2019 budget 
provides for a deployable battle force of 280 ships growing to 355, 
supporting the requirements to respond to persistent and emerging 
threats. We are also increasing near-term capacity by investing in 
service life extension programs for six guided missile cruisers (adding 
5 years of service life) and one Los Angeles-class submarine (extending 
service life by 11 years). We are committed to expanding the Navy while 
making it fit for operations in the face of future threats.
    Along with shipbuilding, the fiscal year 2019 budget prioritizes 
capabilities to enhance air and sea power through the continued 
production of F-35 and F/A-18 aircraft. The F-35 program is developing, 
producing, and fielding three variants of the F-35 to support the needs 
of the U.S. Air Force, Marine Corps, and Navy. The budget requests 77 
F-35s and 24 additional F/A-18 Super Hornets in fiscal year 2019, 
increasing the readiness of the Navy's fighter fleet and relieving 
pressure on its aging, legacy F/A-18A-D aircraft. It remains imperative 
that our air fleet deliver performance, affordability, and capability. 
The F-35 aircraft is performing well, but the contractor is not 
delivering the affordability that keeps solvency and security as our 
guideposts. We are working with the contractor to reduce the costs 
associated with purchasing and sustaining the F-35. We will evaluate 
the performance of both F-35s and F/A-18s to determine the most 
appropriate mix of aircraft as we move forward.
    The fiscal year 2019 budget request provides $9.3 billion for space 
and space-based systems to enhance communications and resiliency in 
space, addressing needs for overhead persistent infrared capabilities; 
positioning, navigation, and timing (PNT); and space launch systems. 
The Department will sustain existing systems, while developing follow- 
on capabilities to support operations in a contested space environment.
    The Air Force will continue the production of space-based infrared 
systems (SBIRS) and advanced extremely high frequency space vehicles 
currently in production to meet military satellite communication needs. 
Facing rising threats to our space capabilities, however, the fiscal 
year 2019 budget request transitioned the SBIRS space vehicles 7 and 8 
procurements to the Next Generation Overhead Persistent Infrared effort 
in order to field rapidly a more survivable system by the mid-2020s. 
The Air Force will incorporate a technology refresh of the sensor to 
assure missile warning capabilities equal to or greater than today's 
SBIRS, taking advantage of sensor technology improvements.
    The fiscal year 2019 budget request supports resiliency 
improvements in the PNT mission, incorporating military protection 
capability into the next generation global positioning system (GPS) III 
constellation. This enhancement assures PNT capabilities in contested 
environments and funds improvements to the GPS ground segment to 
improve anti- jamming and secure access of military GPS signals.
    Successful implementation of the 2018 National Defense Strategy 
includes investing in technological innovation to increase lethality. 
Rapid technological change includes developments in advanced computing, 
big data analytics, artificial intelligence, autonomy, robotics, 
miniaturization, additive manufacturing, directed energy, and 
hypersonics--the very technologies that ensure we will be able to fight 
and win wars of the future. Ultimately, these technologies will change 
the character of war, a reality embraced by DoD.
    The Department's fiscal year 2019 Science and Technology (S&T) 
program invests in and develops capabilities that advance the 
technological superiority of the U.S. military to counter new and 
emerging threats. The Congressionally-directed split of my office's 
Undersecretary of Defense (Acquisition, Technology and Logistics) into 
two portfolios (Acquisitions and Sustainment, and Research and 
Engineering) has enabled a stronger focus on urgently needed 
innovation, aligned with our defense strategy.
    The fiscal year 2019 budget request for science and technology is 
$13.7 billion, focusing on innovation to advance DoD's military 
dominance for the 21st century. Highlights include: a robust basic 
research program of $2.3 billion; funding the Defense Advanced Research 
Projects Agency budget of $3.4 billion to develop technologies for 
revolutionary, high- payoff military capabilities; and continuing to 
leverage commercial research and development to provide leading edge 
capabilities to the Department while encouraging emerging non-
traditional technology companies to focus on DoD-specific problems.
    The 2018 National Defense Strategy recognizes cyberspace as an 
increasingly contested warfighting domain, where malevolent cyber 
incidents and attacks present significant risks to national security. 
Long-term strategic competitors like Russia, China, North Korea, and 
Iran are using increasingly aggressive methods and levels of 
sophistication to conduct malicious activities. The challenge facing 
the Department is equally applicable to public and private networks 
across the United States, networks that are already held at risk.
    In terms of cyber as a contested domain, the Department of Defense 
has two broad portfolios: First is DoD's requirement to defend its 
networks, weapons, infrastructure, and information while providing 
integrated offensive cyber capabilities as options if needed. Second is 
our responsibility to Defend the Nation, which we perform by defending 
forward against significant cyber threats, and by supporting the 
Department of Homeland Security (DHS) which has the lead responsibility 
for integrating various governmental roles, missions, and 
responsibilities. Because DoD has offensive and defensive cyber 
capabilities in U.S. Cyber Command (Title 10) and the National Security 
Agency (Title 50) on a scale and scope not available through other 
agencies and departments, we have a responsibility to the President and 
the Secretary of DHS for effectively aligning our capabilities to 
support cyber deterrence and responses to malicious cyber actions as 
part of a whole of government approach. Further, protection of our 
Nation's economy is fundamental to protecting our open society's way of 
life and ultimately to maintaining our military power. There are 
critical sectors (e.g., energy/electricity, finance, communications) 
vulnerable to disruption which must be reflected in our Nation's 
strategy and DoD's role.
    The fiscal year 2019 budget provides $8.6 billion to build and 
maintain offensive and defensive capabilities for cyberspace 
operations. This funding also provides the resources needed to 
organize, train, and equip the 133 Cyber Mission Force teams whose 
purpose it is to perform DoD's cyber missions. This budget further 
provides the resources to elevate U.S. Cyber Command to a 4-star level 
command as required by the 2017 NDAA, to ensure DoD's organization 
accounts for the new threats facing our Nation.
    Across manpower, research, procurement, operations and maintenance, 
and construction--every investment in the fiscal year 2019 budget is 
designed to contribute to the lethality of our military as we adapt the 
size and composition of our force to address the current international 
situation while adjusting our stance to account for an evolving future. 
The enduring departmental theme is derived from our National Defense 
Strategy and Congressional intent: that we field forces sufficient and 
capable of deterring conflict or dominating the battlefield if we must 
fight and win. This year's budget reinforces a message to those seeking 
to threaten America's experiment in democracy: if you challenge us, it 
will be your longest and worst day.
Strengthen Traditional Alliances While Building New Partnerships
    The 2018 National Defense Strategy's second line of effort is to 
strengthen traditional alliances while building new partnerships.
    In the past, I had the privilege of fighting many times in defense 
of the United States, but I never fought in a solely American 
formation; it was always alongside foreign troops. Easier said than 
done. Winston Churchill noted that the only thing harder than fighting 
with allies is fighting without them. History proves that we are 
stronger when we stand united with others. Accordingly, our military 
will be designed, trained, and ready to fight alongside allies.
    Acknowledging the lessons of World War II, the Greatest Generation 
invested in this approach to security, and our Nation's resulting 
prosperity helped much of the world develop. Working by, with, and 
through allies who carry their fair share remains a source of strength 
for the U.S. Since the costly victory in World War II, Americans have 
carried a disproportionate share of the global defense burden while 
others recovered.
    Today, the growing economic strength of allies and partners has 
enabled them to step up, as demonstrated by the 74 nations and 
international organizations participating in the Defeat-ISIS campaign, 
and again in the 41 nations standing shoulder-to-shoulder in NATO's 
Resolute Support Mission in Afghanistan. This year, every NATO ally has 
increased their defense spending, and 15 NATO allies are also 
increasing their defense budgets as a share of gross domestic product, 
giving credence to the value of democracies standing together. Our 
Pacific partners are also doing so.
    To strengthen and work jointly with more allies, our organizations, 
processes, and procedures will be ally friendly. The Department will do 
more than just listen to other nations' ideas--we will be willing to be 
persuaded by our partners, recognizing that not all good ideas come 
from the country with the most aircraft carriers. This line of effort 
will bolster an extended network of like-minded nations capable of 
promptly and prudently meeting the challenges of our time.
    The fiscal year 2019 budget prioritizes investment where it is 
needed today and tomorrow. In the Middle East, we will work with 
responsive governments to ensure a more stable and secure region that 
denies safe haven to terrorists; is not dominated by any power hostile 
to the United States; and that contributes to stable global energy 
markets and secure trade routes. The $69 billion requested for the 
Overseas Contingency Operations account maintains our regional presence 
to protect the homeland, allies, and partners from terrorist threats. 
The budget request supports U.S. forces in Afghanistan as part of the 
Administration's South Asia Strategy; continues operations to prevent 
the resurgence of ISIS; and continues our security partnership with 
Iraqi Security Forces to support Iraq's long-term stability and 
independence.
    NATO remains our key security alliance. The Overseas Contingency 
Operations request also provides $6.5 billion for the European 
Deterrence Initiative (EDI). Established in 2015, the EDI supports a 
strong and free Europe, reaffirms America's commitment to the security 
and territorial commitment of NATO member states, and enhances 
activities in Eastern Europe to deter Russian aggression such as we 
have observed in Georgia and Crimea/Ukraine. This initiative also 
increases bilateral and multilateral exercises and training with allies 
and partners to ensure our deterrent stance is built on a strong, joint 
military capability.
    A free and open Indo-Pacific region provides prosperity and 
security for all. We will continue to strengthen our alliances and 
partnerships in the Indo-Pacific to a networked security architecture 
capable of deterring aggression, maintaining stability, and ensuring 
free access to common domains. With key countries in the region, we 
will bring together bilateral and multilateral security relationships 
to preserve the free and open international system.
    In our own hemisphere, the Canadian-American North American Air 
Defense Command is a long-standing, allied effort to protect both our 
nations. We maintain mature relations with both Canadian and Mexican 
militaries with a high degree of quiet collaboration. Further South we 
work jointly with Latin American nations on counter-narcotics and other 
operations and training efforts.
    Our efforts in Africa are largely focused on assisting nations 
facing violent terrorists to develop their own capability to provide 
internal security and mutual support against insurgents and terror 
groups. Ethical use of force is inherent in all training we provide.
Reform the Department's Business Practices for Performance and 
        Affordability
    As we take proactive steps to ensure our military is ready to fight 
today and in the future, we must urgently reform the business practices 
of the Department to provide both solvency and security. We will 
continue to establish a culture of performance where results and 
accountability matter on every expenditure, thereby gaining full 
benefit from every single taxpayer dollar spent on defense. We also 
have a commitment to exercise the utmost degree of financial 
stewardship and budget discipline within the Department, and we will 
deliver our Department's full financial audit this year. We also have 
the right leaders in place to make meaningful reform a reality: Pat 
Shanahan as Deputy Secretary of Defense; Jay Gibson as Chief Management 
Officer; Ellen Lord as Undersecretary of Defense for Acquisitions and 
Sustainment; Michael Griffin as Undersecretary of Defense for Research 
and Engineering; Bob Daigle as Director of Cost Assessment and Program 
Evaluation; and David Norquist as the Department's Comptroller/Chief 
Financial Officer. Each brings the intellect and energy required to 
implement and sustain meaningful reform, ensuring the Department 
provides performance and affordability for the American taxpayer.
    The Department began a consolidated financial statement audit in 
fiscal year 2018. For the first time, the Department will complete an 
independent and full audit across its business processes and systems, 
as required by law. A financial statement audit is comprehensive, 
occurs annually, and covers more than just financial management. During 
a financial statement audit, an independent public accounting firm or 
the DoD Office of Inspector General examines the Department's books and 
records. Financial statement audits give management independent 
validation and feedback on the effectiveness of each reporting entity's 
business systems and internal processes and controls. The financial 
statement audit helps drive enterprise-wide improvements to standardize 
our business processes and improve the quality of our data. Audits also 
ensure Department leaders have visibility over the counts, locations, 
and conditions of DoD property to inform current readiness and inform 
future programming, budgeting, and investment decisions. While we fully 
expect to find deficiencies, we will take swift action to correct them, 
thereby earning the trust of Congress and the American people.
    Remediating audit findings is at the center of our financial 
improvement strategy. The Department owes accountability to the 
American people. The taxpayers deserve a level of confidence that the 
Department's financial statements present a true and accurate picture 
of its financial condition and operations. Transparency, 
accountability, and business process reform are some of the benefits 
the Department will receive from the financial statement audit even 
before achieving a positive opinion.
    The Department is transitioning to a culture of performance and 
affordability that operates at the speed of relevance. We will 
prioritize speed of delivery, continuous adaptation, and frequent 
modular upgrades. With your continued, critical support, we will shed 
outdated management and acquisition processes while adopting American 
industries' best practices. Our management structure and processes are 
not engraved in stone. They are a means to an end--empowering the 
warfighter with the knowledge, equipment, and support needed to fight 
and win. If current structures inhibit our pursuit of lethality, I have 
directed Service Secretaries and Agency Heads to consolidate, 
eliminate, or restructure to achieve the mission.
    Here I will note that I have also issued direction about a 
particular cancer in our ranks--sexual assault. Unit cohesion built on 
trust and mutual respect is what holds us together under stress and 
keeps our forces combat effective against daunting odds. This 
department is committed to assertively preventing and swiftly 
responding to any sexual assault in our ranks. While battlefield 
casualties are a reality of war, we will accept no casualties due to 
sexual assault in our military family. I personally discussed this with 
all senior department leaders. Earlier this month, I issued a memo 
making this clear to all members of the Department. I ask that it also 
be submitted for the record.
    Deputy Secretary of Defense Shanahan has established the Reform 
Management Group (RMG), which relies on cross-functional teams to drive 
efficiency by using shared, centralized services throughout the 
Department with the goal of making each area maximally effective and 
improving our performance. The RMG's central goal is to leverage best 
practices, centers of excellence, and private sector sources to 
benchmark and best align business operations. Improved performance in 
the Department's business operations leads to a more effective force, 
and savings will be reinvested to increase lethality.
    Initial Reform Teams are focused on evaluating operations in the 
following areas:
  --Information Technology,
  --Healthcare,
  --Real Property,
  --Human Resources,
  --Financial Management,
  --Contracted Services and Goods,
  --Logistics and Supply Chain,
  --Community Services, and
  --Testing and Evaluation.
    Goals and performance metrics are crucial to measuring the benefit-
to-cost and value generated as business processes are optimized. Key to 
this reform effort is generating relevant, accurate, and timely data. 
Displaying this data will ensure that all decision makers have access 
to the best information on a real-time basis. As reform efforts are 
underway, the longer-term objective is to institutionalize the behavior 
of continuous improvement throughout the culture of the Department.
    As the Department implements reform initiatives that reduce the 
operating costs of institutional activities, those resources will be 
reallocated to readiness, modernization, and recapitalization. The 
Department is ensuring that the savings associated with better business 
practices from previous Presidents' Budgets are implemented fully, 
including streamlining major headquarters activities and eliminating 
redundancy. This effort includes a systemic review of past Inspector 
Generals' findings to ensure remedial action has been fully 
implemented.
    There are several efforts currently underway to improve the 
Department's ability to acquire and field products and services that 
provide for significant increases in mission capability and operational 
support in the most cost effective and schedule efficient manner 
possible.
    A Defense Acquisition System that facilitates speed and agility in 
support of mission accomplishment is key. The Department is engaging 
with the independent advisory panel on streamlining and codifying 
acquisition regulations established by section 809 of the fiscal year 
2016 NDAA and amended by section 863 of the fiscal year 2017 NDAA. This 
effort also includes potential recommendations for new statutes as well 
as amendments or repeal of existing statutes.
    The Department looks forward to working with the Congress to 
provide the right capabilities to the warfighters when needed and at an 
affordable cost. A Defense Acquisition System that facilitates speed 
and agility in support of the aforementioned objective is key in this 
regard.
Current Issues Update
    Syria.--Syria's civil war began in 2011 and now spans two 
administrations, providing ISIS an ungoverned space from which to 
commit murder and oppression, fomenting attacks globally. Our chosen 
strategy is to act by, with, and through allies and partners, 
diplomatically and militarily. The reason we have troops in Syria is 
solely to surround and annihilate ISIS as part of the 70-nation Defeat-
ISIS Coalition. No military solution is possible in the Syrian civil 
war, and we continue to support a diplomatic solution as part of the 
U.N.-led peace process, led by U.N. Special Envoy to Syria Steffan de 
Mistura, who I met with last week. The 13 April use of military force 
was a distinct military operation exercised in the face of compelling 
evidence that chemical weapons were used in Duma and, as U.N. Secretary 
General Stoltenberg stated the following day, our ``response to Syria's 
use of chemical weapons was targeted, measured, and appropriate.'' This 
proportional response, conducted under President Trumps Article II 
Constitutional authority, does not signal an escalation in the ongoing 
conflict in Syria.
    Aviation Mishaps/Deaths.--Recent aviation mishaps across each of 
the Services are tragic and troubling, with 142 service members killed 
over a 5-year period. I am concerned that these recent mishaps 
represent lagging indicators, a tragic manifestation of readiness 
degraded by 17 years of war and made worse by budget cuts and fiscal 
instability. The 2-year Bipartisan Budget Act and 2018 Omnibus 
appropriation will begin restoring the flight hours, equipment, and 
manpower needed to regain readiness, but it took us years to get to 
this point and measurable improvements will take time.
    Border Security Support.--In support of the Department of Homeland 
Security, and as directed by the President, I have authorized use of up 
to 4,000 National Guardsmen in Title 32 duty status. They will be 
assigned supporting roles requested by DHS along our southern border 
region under the command of their respective governors. Current 
requested support is for aviation, surveillance, intelligence analysis, 
and planning support in priority sectors. I anticipate additional 
requests for construction and logistical support. National Guard 
personnel will not perform law enforcement duties or interact with 
migrants. Previously employed Title 10 forces (approximately 195) 
conducting ongoing counter-narcotics support missions remain under U.S. 
Northern Command's control. We have nearly completed our fiscal year 
2018 baseline that would allow us to request your approval to reprogram 
funds and are quickly initiating the full mid-year review to examine 
execution, emerging requirements, program performance and year-of-
execution realities. We will work closely with Congress to identify 
assets and sources to protect readiness as we pay for National Guard 
support for the Southwest Border.
    Cancellation of Joint Surveillance Target Attack Radar System 
(JSTARS) Recapitalization and Space-Based Infrared Systems.--The Air 
Force has proposed replacing JSTARS--the aircraft that performs battle 
management, command and control, and ground moving target sensing--with 
a network of sensors, fusing information from space, air, ground, and 
sea sensors. In a contested environment with integrated air defenses, 
the currently planned JSTARS replacement would be unable to get close 
enough to the fight to accomplish its mission, leaving our forces 
potentially blind to enemy activity. These functions must be adapted if 
they are to survive in the changed threat environment. We will move 
swiftly to Advanced Battle Management and Surveillance, and the Next 
Generation Overhead Persistent Infrared procurements, rapidly fielding 
capabilities with more survivability.
    Niger Incident and Loss of Four Soldiers.--This incident and 
contributing factors have been extensively investigated by U.S. Africa 
Command. I have completed my review of the investigation and the 
Department has completed notification to the families of our fallen 
Soldiers. Briefings to Congressional leadership began this week, and 
the Department will hold a press conference once all Congressional 
briefings are complete.
    Countering America's Adversaries Through Sanctions Act (CAATSA).--
President Trump signed CAATSA into law on August 2, 2017, imposing new 
sanctions to counter aggressive actions from Iran, Russia, and North 
Korea. I look forward to working with Congress to address the national 
security implications created by this act. It is important for us to 
have a flexible waiver authority, otherwise we prevent ourselves from 
acting in our own best interest and place an undue burden on our allies 
or partners.
    Transition to the Cloud.--DoD must remain on the cutting edge of 
advanced computing capabilities to support warfighting and lethality. 
Our cloud initiative simplifies the ability to provide enterprise-wide 
access to information and improves security to safeguard critical 
information. Despite what you have heard in the media, the contract is 
not a sole source contract. The contract, which will have a 2-year base 
period, will follow a fair and open competition with the ultimate 
decision made based on performance and affordability. We are pursuing 
this path to ensure cloud providers are competitive and responsive to 
DoD needs.
                               conclusion
    Again, thank you for your bipartisan support and strong spirit of 
collaboration between this committee and our Department.
    The 2018 National Defense Strategy's three primary lines of 
effort--building a more lethal force, strengthening traditional 
alliances while building new partnerships, and reforming the 
Department's business practices for performance and affordability--will 
restore our competitive military advantage, ensuring we are prepared to 
fight across the full spectrum of combat now and into the future.
    Department of Defense readiness degraded over the course of many 
years. It will take continued budgetary stability to rebuild the 
readiness and increase the lethality required to expand the American 
military's competitive space. Now that we have a strategy-driven 
budget, the fiscal year 2019 budget request needs a timely 
appropriation enacted before October 1st to deliver the best return on 
readiness and modernization programs.
    This budget request requires each and every one of us in the 
Department to be good stewards of every taxpayer dollar spent on 
defense. This budget also holds me accountable to the men and women of 
the Department of Defense, for they are the ones that must ultimately 
turn the 2018 National Defense Strategy into action. Every day, more 
than two million Service members and nearly one million civilians do 
their duty, honoring previous generations of veterans and civil 
servants who have sacrificed for their country. I am reminded every day 
of the privilege I have to serve alongside them, and I thank them for 
their tireless efforts and unyielding standards in defense of our 
Nation.

    Senator Shelby. Thank you, Mr. Secretary.
    General Dunford.
STATEMENT OF GENERAL JOSEPH F. DUNFORD, U.S. MARINE 
            CORPS, CHAIRMAN, JOINT CHIEFS OF STAFF
    General Dunford. Chairman Shelby, Vice Chairman Durbin, 
distinguished members of the committee, thank you for the 
opportunity to join Secretary Mattis and Under Secretary 
Norquist. It's an honor to represent your men and women in 
uniform.
    While we're here for a candid discussion of the challenges 
we face, I want to begin by assuring you that the U.S. military 
has a competitive advantage over any potential adversary today. 
I'm confident we can deter a nuclear attack, defend the 
homeland, meet our alliance commitments, and prevail in any 
conflict. But, as we have previously discussed, after years of 
sustained operational commitments, budgetary instability, and 
advances by our adversaries, our competitive advantage has 
eroded and our readiness has degraded.
    Driven by the National Defense Strategy and building on the 
fiscal year 2017 and 2018 appropriations, the 2019 budget 
submission supports rebuilding the lethal and ready force that 
the Nation needs. The Secretary has addressed our defense 
strategy that recognizes Russia and China as the priority while 
also meeting the immediate challenges posed by rogue regimes 
and violent extremist organizations.
    China and Russia continue to invest across the full range 
of nuclear, cyber, space, and conventional capabilities. Both 
states are focused on limiting our ability to project power and 
undermining the credibility of our alliances. They are also 
increasingly adept at advancing their interests through 
coercive competitive activity below the threshold of armed 
conflict.
    North Korea has been on the relentless pursuit of nuclear 
and missile capability, and they've been clear that these 
capabilities are intended to threaten the United States and our 
allies in the region.
    Iran continues to spread malign influence and create 
instability across the Middle East. And, while we have made a 
great deal of progress--and the Secretary outlined that in his 
remarks--we are still grappling with the challenges of violent 
extremism, including ISIS, al Qaeda, and associated movements.
    Defending our homeland and our allies and advancing our 
interests in the context of these and other challenges requires 
us to maintain a balanced force of ready, lethal, and flexible 
forces that are relevant across the range of military 
operations. Fortunately, with your support, we've begun to 
arrest the erosion of our competitive advantage, and we're on a 
path towards developing a force that the Nation needs. This 
year's budget, again, builds on the readiness recovery that we 
started in fiscal year 2017, and accelerates our efforts to 
develop the capabilities we need for both today and tomorrow.
    In requesting your support for this year's budget, I, along 
with all the uniformed leaders in the Department, commit to you 
that we'll make every dollar count. We fully support the 
auditing initiative led by Secretary Norquist, and we'll 
maintain an ongoing dialogue with you about the return on your 
investment.
    To restore our competitive advantage and ensure our men and 
women never find themselves in an unfair fight, the U.S. 
military requires sustained, sufficient, and predictable 
funding. The funding in this budget is sufficient, and I look 
forward to working with the Congress to make sure that it's 
sustained and predictable in the future.
    Thank you again for your support and the opportunity to be 
here today.
    [The statement follows:]
          Prepared Statement of General Joseph F. Dunford, Jr.
    Chairman Shelby, Vice Chairman Durbin, distinguished members of 
this committee, thank you for the opportunity to join Secretary Mattis 
and Under Secretary Norquist in appearing before you today. It is an 
honor to represent the men and women of the United States military.
    Today, the U.S. Armed Forces have a competitive advantage over any 
potential adversary. We are capable of meeting all the requirements 
associated with defending the homeland and our way of life, and we can 
meet every one of our alliance commitments. I am confident we can 
prevail in any armed conflict. That said, one of my greatest concerns 
as Chairman is the erosion of our competitive advantage over time.
    Last summer, I testified that after years of sustained operational 
commitments, budgetary instability, and advances by our adversaries, 
our competitive advantage was eroding. I assessed that, without 
sustained, sufficient, and predictable funding, within 5 years, the 
U.S. military would lose its advantage in power projection--the basis 
for how we defend the homeland, advance U.S. interests, and meet our 
alliance commitments.
    I estimated that arresting the erosion of our competitive advantage 
required real budget growth of at least 3 percent above inflation 
across the Future Years Defense Plan (FYDP), and restoring it would 
cost more. This figure represented the minimum investment necessary to 
rebuild readiness and modernize key warfighting systems while 
continuing to meet operational requirements.
    Driven by the National Defense Strategy (NDS), the fiscal year 2019 
Budget Request builds on the fiscal year 2017 and fiscal year 2018 
budgets and supports rebuilding the U.S. military into the lethal and 
ready Joint Force the Nation needs. However, we cannot reverse a 
decade-plus of erosion in one fiscal year. The Department must continue 
to receive sufficient, sustained, and predictable funding for the 
foreseeable future to restore our competitive advantage and ensure we 
never send our sons and daughters into a fair fight.
                         strategic environment
    The 2018 NDS recognizes that ``The central challenge to U.S. 
prosperity and security is the reemergence of long-term, strategic 
competition by . . .  revisionist powers.'' The Joint Force must face 
this long-term threat while still managing the immediate challenges 
posed by rogue regimes and terrorists. With China and Russia as the 
priority, we continue to use North Korea, Iran, and violent extremist 
organizations to inform our planning, force design, force development, 
and risk assessments.
    Our adversaries--particularly China and Russia--continue to develop 
concepts and invest in capabilities specifically designed to counter 
our advantages. The United States military is in a fierce competition 
to harness the benefits of emerging technologies--including 
hypersonics, artificial intelligence, directed energy, and 
biotechnology--as these developments will fundamentally change the 
character of war. China and Russia are also increasingly active and 
adept at what we call ``competition short of armed conflict'': 
integrating economic coercion, political influence, criminal activity, 
military posturing, unconventional warfare, and information and cyber 
operations to coerce opponents, advance their interests, and create 
strategic advantages without triggering a conventional armed response.
    China intends to become a global military power and is building the 
capability to do so. Militarily, China seeks to limit our access and 
undermine our important alliances in the Indo-Pacific. They are 
developing a full range of air, maritime, space, and cyber capabilities 
while modernizing their nuclear enterprise. Their continued 
militarization of the South and East China Seas reflects their 
disregard for a rules-based international order. They are increasing 
their diplomatic and economic influence through the Belt and Road 
Initiative, and their military interests have followed this enterprise 
into South Asia, the Indian Ocean, and beyond. We continue to seek 
Chinese cooperation on a number of fronts, especially with respect to 
North Korea, but their ``strong- rule-the-weak'' foreign policy 
approach is incompatible with U.S. interests.
    Russia also continues to modernize and invest across the full range 
of military capability, including new aircraft, submarines, armor, 
counter-space, air defense systems, and conventional and nuclear strike 
capabilities. These investments and activities are specifically 
designed to limit our power projection capability and undermine the 
credibility of U.S. alliances, especially NATO.
    While modernizing and preparing for long-term competition and 
potential armed conflict with these revisionist powers, we must also 
manage the ongoing challenges of rogue regimes and violent extremist 
organizations.
    Although I remain cautiously optimistic about the potential for 
talks in the near future, North Korea's reckless pursuit of nuclear and 
missile capability is perhaps the most immediate threat to the security 
of the United States and our Allies. In 2017, North Korea conducted an 
unprecedented 17 ballistic missile test events, two of which overflew 
our treaty Ally, Japan. Last year also saw North Korea's first 
successful tests of Intercontinental Ballistic Missiles (ICBMs) capable 
of ranging the continental United States--and they tested a nuclear 
device designed for ICBM delivery. I have testified to Congress several 
times in recent months about Pyongyang's accelerated capability 
development and the threats it poses to U.S. interests, to our Allies 
in the Pacific, and to the homeland.
    Iran continues to project malign influence and threaten freedom of 
navigation in the Middle East. They are also modernizing their space, 
cyber, missile, and conventional maritime capabilities, which pose a 
direct threat to our Allies and our interests in the region.
    We continue to grapple with the challenge of violent extremism, 
including ISIS, a resurgent al Qaida, and associated movements. Our 
strategy remains focused on cutting the flow of finances, foreign 
fighters, and their disruptive narrative, while working by, with, and 
through local partners to sustain pressure on their networks, disrupt 
attacks, and dismantle their capabilities.
    Defending our homeland, our Allies, and our interests in the near-
term while restoring our competitive advantage and building lethality 
will require a focused and sustained effort over many years.
                           where we are today
    Fortunately, with your support, we have begun to arrest the erosion 
of our competitive advantage. The additional appropriation in fiscal 
year 2017 supported immediate investments in readiness, including 
increases to end strength, funding for critical training, initial 
restoration of ammunition stocks, and continued modernization of 
critical systems.
    PB18 builds on the readiness recovery started in fiscal year 2017 
and begins to balance the program. It allows the Department to meet 
operational requirements, begin rebuilding mid- and long-term 
readiness, and restore warfighting capability and capacity.
    While we are grateful for the fiscal year 2018 appropriation, we 
spent the first 6 months of fiscal year 2018 with fiscal year 2017 
funding levels. The flexibility provided in recent legislation will 
enable the Department to execute the fiscal year 2018 budget 
responsibly. This includes easing the 80/20 rule (that prevents 
obligating more than 20 percent of a 1 year appropriation in the last 2 
months of the fiscal year) and raising the Below Threshold 
Reprogramming amounts. Though these measures will help the Department 
utilize fiscal year 2018 funds effectively, we need predictable funding 
in fiscal year 2019 and beyond to restore our competitive military 
advantage.
    The Department's fiscal year 2019 budget funds ongoing operations, 
builds on fiscal year 2018 readiness improvements, and supports the NDS 
by investing in modernization for high-end competition against near-
peer adversaries.
    Operations.--Our first budget priority is to provide our deployed 
servicemembers the resources they need to effectively accomplish their 
missions--whether in active contingencies, deterring adversaries, 
assuring Allies, or building partner capacity.
    PB19 supports deterrence and assurance efforts around the world. In 
the Pacific theater, this budget accelerates substantial construction 
projects to improve the infrastructure that facilitates power 
projection in the region. It funds prepositioning of critical 
munitions, increased intelligence activity, and increased rotational 
troop presence. PB19 also improves missile defense by deploying 20 
additional Ground Based Interceptors, with redesigned kill vehicles, at 
Fort Greely, Alaska across the FYDP. To deter Russian aggression, this 
budget fully funds the European Deterrence Initiative, increasing the 
number and quality of exercises with our NATO Allies, deploying key 
U.S.-based enablers, and modernizing prepositioned stocks. It also 
recapitalizes the Integrated Undersea Surveillance System, enhancing 
our ability to detect Russian submarines.
    This budget provides $69 billion for Overseas Contingency 
Operations (OCO), the bulk of which funds operations in Afghanistan, 
Iraq, and Syria. In Afghanistan, we are working toward a sustainable 
approach to stabilizing the Afghan government and denying terrorist 
sanctuary. In Iraq and Syria, we remain committed to eliminating the 
remnants of ISIS and setting the conditions to ensure ISIS cannot 
return. OCO funding also supports Operation ENDURING FREEDOM-Horn of 
Africa and counterterrorism efforts in northwest Africa and the 
Philippines.
    The fiscal year 2019 funding for ongoing operations not only 
ensures our deployed servicemembers have what they need to execute 
missions in Iraq, Syria, and Afghanistan, but also makes conflict less 
likely by assuring Allies and deterring aggression in key strategic 
theaters.
    Readiness.--Ensuring our forces are able to meet current 
operational requirements and rebuild the readiness required for great 
power competition requires significant, continued investment in 
readiness. PB19 builds on the readiness gains of PB18 by adding end 
strength, accelerating training, and increasing capacity to extend our 
readiness focus to the mid- and long-term.
    This budget adds modest end strength to each of the services, 
allowing them to fill gaps in existing combat formations, address 
critical shortfalls in aviation maintenance, and increase manning in 
cyber and information warfare. The Air Force will address pilot 
shortages by adding two new training squadrons, enabling the production 
of 125 additional new pilots per year.
    PB19 funds flight hour programs and ground combat training accounts 
to near-maximum executable levels. The Air Force upgrades training 
ranges and funds weapons system sustainment, while the Army funds an 
unprecedented 20 Combat Training Center rotations for Brigade Combat 
Teams.
    PB19 also increases available capacity for all of the Services. The 
Navy funds service life extensions for six cruisers, as well as 
infrastructure, spares, and ship depot maintenance. The Army will 
create a 16th Armored Brigade Combat Team while accelerating fielding 
of four Security Force Assistance Brigades. This budget also adds 
necessary capacity in air defense, mobile rocket artillery, and 
operational command and control in Europe. PB19 also funds munitions 
inventory levels sufficient to meet multiple demands across theaters.
    Finally, we will improve readiness by refining our global force 
management processes to achieve strategic flexibility and freedom of 
action. As directed by the NDS, Dynamic Force Employment will allow us 
to proactively shape the environment through scalable military presence 
and quickly deploy forces for emerging requirements while preserving 
long-term warfighting readiness.
    PB19's investments in readiness build on the gains made in the past 
2 years and are foundational to ensuring the U.S. military is ready to 
meet the challenges of today and tomorrow.
                            what we must do
    The competitive military advantage we enjoy today is the result of 
capabilities developed by our Services in an era of unchallenged 
technological dominance. That era has now passed. Seventeen years of 
combat and 7 years of budget instability have forced us to postpone 
modernization investments for the sake of near-term readiness. 
Meanwhile, our adversaries' investments in modernization have outpaced 
our own. As a result, the distinction between readiness and 
modernization has grown harder to discern. We must modernize now in 
order to be ready.
    Restoring our competitive advantage in an era of great power 
competition will require a joint approach to concept and capability 
development, an ability to leverage cutting edge technology and 
asymmetric solutions, and sustained and predictable budgets. PB19 
begins this restoration through targeted investments that develop the 
lethal, agile, and innovative Joint Force demanded by the threats of 
2025 and beyond.
    The Service Chiefs recently briefed you on their investments in the 
lethality of their individual Services. The following are priority 
investment areas for joint warfighting.
    Nuclear.--A safe, secure, and effective nuclear deterrent is 
essential to defending the homeland. Starting in the early 1990s, the 
Joint Force deemphasized the role of nuclear weapons, reducing our 
nuclear forces in both weapon types and overall size, and trading 
nuclear strength for arms control. Other nuclear- armed states did not 
follow our lead, choosing instead to embark on modernization and 
expansion efforts.
    In accordance with the recently published Nuclear Posture Review, 
we will invest $24 billion in fiscal year 2019 to sustain and 
recapitalize the nuclear enterprise. This is a significant step in a 
23-year program to recapitalize the all three legs of our aging 
strategic triad, our non-strategic nuclear forces, and our command and 
control systems. Initial delivery of modernized bombers and dual-
capable aircraft (F-35s) is slated for the mid-2020s; we will achieve 
initial operating capability of modernized ground-based missiles in 
2029; and the first modernized ballistic missile submarine will be 
operational in 2031. Nuclear deterrence is the highest priority mission 
for the Joint Force, and a truly joint enterprise. There is no margin 
remaining in the modernization schedule--we must deliver these critical 
programs on the established timelines.
    Space.--Unlike previous eras, when space was considered a benign 
and unchallenged environment, space is now a contested domain. The U.S. 
military depends on space-based capabilities to enable successful joint 
warfighting--specifically for intelligence collection; missile warning; 
weather monitoring; global communications; and precision positioning, 
navigation, and timing.
    Potential adversaries understand the advantages space provides, and 
they view our reliance on this domain as a vulnerability they can 
exploit. Our near-peer competitors are increasingly challenging our 
competitive advantage in space.
    We must bolster our space sensor architecture to improve our 
ability to characterize new and future threats. This budget builds on 
fiscal year 2018 investments with a focus on space resiliency and 
mission assurance. It accelerates procurement of the next generation of 
space-based infrared systems to field a modernized, resilient space-
based missile warning capability. Other investments focus on resilient 
systems for navigation, communications, and situational awareness. 
Given rapid advances in our adversaries' capabilities, the space domain 
will require continuous investment in future years.
    Cyberspace.--Cyberattacks threaten our military, our economy, and 
our society. Although China and Russia remain the greatest threats to 
U.S. security, Iran,
    North Korea, and violent extremist organizations have all increased 
their capabilities and are aggressively conducting malicious activities 
in cyberspace. Most of these occur below the threshold of open warfare, 
but they are injurious nonetheless, and their implications for armed 
conflict are clear. fiscal year 2019 cyber investments continue to 
prioritize defense of DoD information networks while improving 
offensive and defensive operations, building Cyber Mission Forces, and 
maturing command and control.
    Electronic Warfare (EW).--From voice and data communication to 
surveillance and targeting, every Joint Force operation today relies on 
access to the electromagnetic spectrum. As with space and cyber, 
potential adversaries see this reliance as a vulnerability they can 
exploit. The proliferation of technology has made electronic attacks 
both cheaper and more effective. To preserve our advantage in EW, PB19 
invests in both offensive and defensive systems while exploring new 
concepts to maximize the effectiveness of our multi-domain EW 
capabilities.
    Missile Defense.--Our missile defense systems serve to protect the 
homeland, assure our Allies and partners, and deter adversaries. But 
the breadth of missile threats facing the Joint Force continues to 
increase in complexity and scope. Russia, China, North Korea, and Iran 
are all extending their operational reach and fielding larger and more 
capable arsenals. Their systems are increasingly mobile and resilient, 
with increased range and accuracy, expanding the risks they pose around 
the globe. Furthermore, they continue to develop means of complicating 
our missile defense operations. Among other investments and activities 
to counter this threat, we are increasing the number of Ground Based 
Interceptors and investing in additional Terminal High Altitude Area 
Defense and SM-3 interceptors.
    While developing and refining the capabilities that will restore 
our advantage in competitive areas like these, we must accelerate 
research and development and experimentation in important fields with 
military implications. PB19 will see increased investments in 
technologies such as hypersonics, artificial intelligence, directed 
energy, and biotechnology. We will also continue to refine our 
acquisition systems to enable rapid fielding of new capabilities.
    Across the Joint Force, PB19 starts, accelerates, or continues 
funding for critical modernization efforts. These programs will require 
years of sustained funding to deliver material results, but they are 
all vital to ensuring the future force is capable of defending the 
homeland and advancing U.S. interests in the competitive security 
environment to come.
                               conclusion
    To implement the National Defense Strategy, the Joint Force 
requires sustained, sufficient, and predictable funding. The funding 
levels in the recent Bipartisan Budget Agreement are sufficient; I look 
forward to working with Congress to make our funding sustained and 
predictable so we can fully restore our competitive military advantage.
    PB19 represents a significant investment in the lethal Joint Force 
the United States will need to prevail in future conflicts. We are 
committed to the responsible, disciplined, and transparent use of that 
investment. With your continued help and commitment, we will ensure we 
never send America's sons and daughters into a fair fight.

                          IRAN AND NORTH KOREA

    Senator Shelby. Mr. Secretary, first of all, I have a 
number of questions, but I'd like to submit them for the 
record, where we can move on.
    But, I'd like for you to discuss what you can in this 
setting, as a public setting, dealing with Iran and also North 
Korea, as you--what you can do.
    Secretary Mattis. Yes, sir.
    In regards to Iran, they continue their malign activities 
across the region. Assad is still in power today, still 
murdering his own people, and still creating refugee flows that 
we've not seen before, based on the support out of Iran. 
Without it, he would have fallen to his own people's revolt 
against him.
    At the same time, we see Iran's activities, from Yemen to 
Bahrain, Saudi Arabia, obviously up into Lebanon, and it 
continues apace. There have--we have not seen any drawdown or 
reduction in Iran's malicious activities and malign activities 
across the region. At the same time, we have walked away from 
the JCPOA (Joint Comprehensive Plan of Action), because we 
found it was inadequate for the long-term effort. And this was 
something that was probably noted by the Senate several years 
ago, when the Senate did not endorse it as a treaty. So, we 
will work with our allies and try to bring Iran back into more 
responsible behavior, at the same time addressing all five of 
the threats that Iran constitutes, the nuclear issue, which is 
foremost, certainly the terrorism issue that I just cited, the 
ballistic missile efforts they have, cyberattacks they've been 
conducting, and then the threats to international commerce, 
whether it be out of the Red Sea, where we have seen it most 
recently, or back up in the Persian Gulf, where it has relented 
over the last several months. So, that's basically where we're 
at, vis-a-vis Iran.
    Senator Shelby. What's the upside of breaking out of the 
agreement with Iran? And what's the downside, as you see it?
    Secretary Mattis. Yes, sir. I believe what's happened is, 
the President could not affirm, as required, that this 
agreement was being lived up to and in the best interests in 
all aspects of what was supposed to be happening under the 
JCPOA. In that regard, it was a bona fide as you know, it was 
not a hasty decision. The administration has been in place for 
over a year, and for over a year, we have attempted to work 
with allies to address the shortcomings on it. So, I think we 
now have the opportunity to move forward to address those 
shortcomings and make it more compelling. So, that effort is 
underway already with Secretary of State, Secretary of 
Treasury, and others working the issue.
    Senator Shelby. You want to get into North Korea?
    Secretary Mattis. With North Korea, sir, certainly their 
capability concerns us on the military side. However, we see 
there is some reason for optimism. We've said all along this 
was a diplomatically-led effort backed up by military force. 
But, for right now, Secretary Pompeo is airborne, bringing home 
the three released American citizens as we speak. They've 
launched out of Pyongyang on their way back to the United 
States. And I think there is reason for some optimism that 
these talks could be fruitful.
    Senator Shelby. Senator Durbin.

                           IRAN NUCLEAR DEAL

    Senator Durbin. First, thanks, to you, Secretary Mattis and 
General Dunford and all of those who have gathered with you 
today, for your service to our country. We're lucky to have 
you. And thank you for all the sacrifices you're making 
personally to make certain that we are a safe Nation.
    Let me say at the outside that--outset that President 
Trump's decision yesterday to, basically, exit the United 
States from this Iran nuclear agreement I believe is not only 
wrong, but reckless. We are in a situation where we have had, 
under this agreement, inspectors on the ground who have 
reported to us directly and personally in the United States 
Senate the success of their inspection regime to make certain 
that Iran does not develop a nuclear weapon. By walking away 
from this agreement, we are forsaking the opportunity to 
continue to monitor in detail the work done by Iran to make 
certain that they live up to its terms.
    Equally important--and you've acknowledged it--our allies 
are important to us around the world. Our allies joined us in 
sticking their necks out--France, Germany, U.K., the European 
Union--China and Russia joining us--to make certain that this 
agreement had a kind of universal support beyond Iran. And now 
the United States is walking away from it. That, I cannot 
believe will inspire any confidence among our allies about our 
word and our reliability in the future when it comes to these 
agreements. And I know you've commented on this already. I'd--I 
won't call on you to do it again, unless you wish.
    The second point I'd like to make is, you're about to make 
history this year and again next year. It'll be--you'll have 
the largest budget of any department ever in the history of the 
United States of America. The largest. And you'll see an 
increase this year, and another next year, that is virtually 
unprecedented. That gives you a great opportunity to do great 
things, but, as you have noted in your testimony, it also 
invites some unwelcome consequences, whether we're talking 
about waste of taxpayers' dollars, fraud or misuse of those 
dollars, which could damage the reputation of your mission and 
the men and women who are dedicated to it. I know you are 
personally committed to avoid that and are talking about things 
like procurement reform as part of it, but I think you have a 
special burden. There was a burden when you had too few 
dollars. There will be an additional burden when you have so 
many dollars coming in so quickly.
    The third point I'd like to ask a question about is one 
that we've talked about last year and I wanted to revisit. You 
referred, in your testimony, to the certainty of the 
administration's South Asian Strategy. And I would like to 
focus in on what is happening in Afghanistan. The President's 
new South Asian Strategy increases U.S. military personnel to 
15,000, takes a tougher line with Pakistan, and increases our 
outreach to India. Meanwhile, suicide bombs continue to savage 
Kabul, and the new Special Inspector General for Afghanistan 
Reconstruction issues a report that paints a very bleak picture 
about the future of our involvement in what has become the 
longest war in the history of the United States of America.
    A few statistics. After $126 billion U.S. relief and 
reconstruction investment over the last 20 years, Afghanistan 
ranks 183rd among nations in the world where one would want to 
do business. Less than a third of the people of Afghanistan are 
connected to the power grid. The number of bombs dropped by the 
western coalition in Afghanistan in early 2018 was the highest 
number since the year 2013, and the number of direct Taliban 
attacks declined over the winter. However, only 65 percent of 
the population presently lives under Afghan government control 
after direct U.S. expenditures to Afghan Security Forces of $78 
billion. This report that I refer to projects that the overall 
trend for the insurgency is rising. Suicide attacks in 
Afghanistan up 50 percent in 2017. Casualties from complex 
attacks and suicide bombing steadily rising. Sectarian attacks 
tripled in 2017. Recent media reports indicate the first 
security forces assistance brigade deployed to Afghanistan in 
March is facing serious delays due to problems vetting Afghan 
National Army personnel, despite all of our efforts at 
training, and despite the massive investment by the United 
States.
    Last year, I asked you for an assessment of the civilian 
and military situation in this Afghan war. And today, by the 
Inspector General's report, all of the indicators that he gives 
are negative. When is it reasonable for the United States of 
America to expect that the administration's certainty, as you 
call it, in their South Asian Strategy will actually show 
success?

                                 BUDGET

    Secretary Mattis. Yes. Senator Durbin, first, on the amount 
of money we've been given, it's sobering as we look at the 
sacrifice of money that could be used elsewhere in our society. 
It's sobering to realize this much sacrifice is providing us 
the budget certainty. But, that also means that solvency and 
security have got to go hand in hand. And I would just tell you 
that the financial audit that we have going on is going to 
happen this year, first time in 70 years we are going to find 
the problems. I'm going to celebrate every one of them. We're 
going to fix them. And when we get done, we're going to show 
you that we can spend this money wisely. I'm not out for 
perfection, but, in this regard, sir, I'm going to be both 
impatient and intolerant of any misbehavior with the public 
money. And I will work with you, we'll be open with what we 
find, and I know you'll be forthcoming to me when you find 
problems, and we'll work on it.

                          SOUTH ASIAN STRATEGY

    On Afghanistan, this goes to the very heart of the world we 
live in today. The certainty was one where we were realigning 
our forces to purely advisory duties, with the exception of a 
few counterterrorism strike forces, which continue their 
mission, and ensuring that we also had more allies coming with 
us. We've gone from 50 allies down to 39. We've restored two. 
And both those are Muslim nations, by the way. We're up to 41. 
The realignment and the reinforcement, U.S. and other nations 
basically, raising their numbers by 35 percent at the same 
time. It's not going to all be carried by us.
    Going through India, on my way into Afghanistan on one of 
my first trips, Prime Minister Modi basically committed to a 
very high level of development funding. My point here is, we're 
also regionalizing this effort so that it's not all carried by 
our taxpayers, by our soldiers.
    Probably the most difficult aspect of this and I would 
contest a few of the figures you gave me, Senator, but not all 
of them; you know, I think the theme is what you're driving 
at--progress and violence coexist in Afghanistan. And in that 
regard, the Taliban recognizes they cannot win at the ballot 
box, so they went to bombs. We anticipated it. We've stopped a 
large number of these attacks. But, you'll notice the attacks 
right now are addressed to soft targets, is what we'd call 
them, by and large. The reason is, they are being rebuffed by 
the Afghan forces and the coalition forces. And furthermore, 
they are trying to set a condition that would wear our patience 
thin. That's why they're going after the balloting and the 
election, the--where you sign up for elections, the 
registration sites. That's why they're going after high-
visibility efforts, here.
    So, our point right now is that, as we find more ability 
and we are going to find it, we're going to vet the troops that 
we are working with, we're not just going to send our troops 
out to work with people who have not been vetted but, as we 
find those units and we start having more NATO advisors with 
them mostly American, but other NATO countries, as well then we 
will end up with more capable units in the field. The American-
advised units, commandos and Special Forces, over the last 
several years have not been defeated in combat with the 
Taliban. Those that were not mentored by our units were being 
defeated, so that's why we realigned this approach.
    It's going to take a fighting season. This fighting season 
is underway. The number of enemy-initiated attacks, where they 
had the initiative, is down by 17 percent over last year. So, 
who's initiating the attack is as important as the number of 
attacks. Where we're ambushing them, where we're starting the 
fight that means we have the initiative.
    It's going to take time, Senator, and I don't refute that 
this has been a long fight. I first landed there in October--
excuse me--November of 2001. I recognize how long it's been. 
But, I think, too, as you look at what we stand for in this 
world, the idea that attacks on registration places for 
elections, that's not something that should drive us out of 
this fight, sir.
    Senator Shelby. Senator Alexander.

                         NUCLEAR POSTURE REVIEW

    Senator Alexander. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary, General, Mr. Norquist.
    Mr. Secretary, you and the General have spent most of your 
life in the service of your country, and I want to thank you 
for continuing to do so. I notice that, when you come to 
Capitol Hill, you're invited to speak to the Democratic Caucus 
as well as to the Republican Caucus, so we have a lot of 
confidence in you as a source of stability and good advice for 
us. And I think that is one major reason why the funding levels 
for this year and for next year are so much higher.
    I want to talk to you about the Nuclear Posture Review. The 
Department of Defense is the lead author for that. I voted for 
the New START Treaty in 2010 with Russia, which, in general, 
reduced the number of nuclear weapons in the world. I thought 
we had enough, if we made sure that the ones we continue to 
have work. And I'm chairman of the Subcommittee, Energy and 
Water, along with Senator Feinstein, that provides the money 
for modernization of our nuclear weapons. And over that period 
of time, we've kept our commitments to do that.
    I notice that the Nuclear Posture Review calls for the 
development of two low-yield nuclear weapons to be deployed on 
submarines. And I want to ask you about that. The idea would be 
to use $65 million to modify the remaining portion of the W76 
Warhead Life Extension Program. My questions are, Is this a new 
nuclear weapon? Is it--is that consistent with the direction 
we've been going over the last several years of reducing the 
number of nuclear weapons? Do you believe Russia has increased 
the role of its nuclear weapons over the last decade, in its 
doctrine and planning? Do you believe that our investing in our 
own low-yield nuclear weapons would help deter Russia from 
using nuclear weapons in certain instances? So, basically, 
what's the justification for developing two new low-yield 
nuclear weapons?
    Secretary Mattis. Senator Alexander, thank you for your 
mention of the bipartisan nature of the support we are getting 
in the Department of Defense. We recognize it, and we recognize 
the responsibility to maintain open communications across the 
House and the Senate. No reservations whatsoever. And we 
wouldn't be where we're at without, I would even call it, 
political courage in order to pass the omnibus. We recognize 
many took risk even on their reelection.
    In terms of the number of strategic weapons, there is no 
increase. The reason we want to reduce the yield of several of 
those weapons on the submarines is, frankly, the bellicose 
statements and cavalier statements coming out of Moscow, even 
to the point of talking about escalation to de-escalate. In 
other words, a conventional fight that they would initiate 
wouldn't be going well, so they would escalate to a low-yield 
nuclear weapon, knowing that our choice would be to either 
respond with a high-yield or surrender. In other words, 
frankly, suicide or surrender, because a nuclear exchange 
between Russia and the United States would be a disaster for 
this planet and certainly for our countries.
    So, there's no increase in the numbers. We need to make 
certain that we can checkmate any thought that they could 
escalate to de-escalate so these weapons are never used. And I 
think that we have seen and heard Russian talk about offensive 
actions, to include the video, the pre-election video by Mr. 
Putin that would show a degree of cavalier discussion about 
nuclear weapons that we would never have seen in his 
predecessors. And as such, we are responding to make certain 
our deterrent is fit for its time, not creating a warfighting 
capability. To me, it's got to be able to be used so it's never 
used, is our point.
    Senator Alexander. Okay.
    Secretary Mattis. So, I didn't see anything he said in that 
video, by the way, that changed my strategic calculus that 
would have me coming back, a month from now, asking to raise 
the number of strategic weapons.
    Senator Alexander. Thank you, Mr. Secretary.
    Mr. Secretary, I'm going to submit a question for the 
record involving a small defense contractor in Tennessee that's 
suddenly found in violation of the Barry amendment, because 
they source parts for the zippers they make in Tennessee from 
overseas. It's--we thought it was an incidental matter. For 16 
years, it hasn't been a problem. Suddenly, it's a problem and 
threatens to put a bunch of people out of work. So, I'll submit 
a letter on that.
    Secretary Mattis. Okay.

                         CONTINUING RESOLUTION

    Senator Alexander. My last question is this, and it goes to 
something--we have, here, the Chairman, we have the Democratic 
Whip, we have the Vice Chairman of the committee, and I've 
talked to Senator Schumer, Senator McConnell. They all--
everybody says that we're going to have an appropriations 
process this year. We're pledging to do it. We may have to 
train Senators as to how to do that, because it requires 
agreeing to allow Durbin to bring his amendment up, and not 
block the Alexander amendment, and that sort of thing. So, 
we've done one step, which is a 2-year budget agreement. But, 
the second--but, we still could be faced with continuing 
resolutions. And I wonder if you'd want to use this occasion to 
remind the committee, so we can remind our colleagues, of how 
damaging a continuing resolution would be this year if we 
didn't do the defense appropriation bill on time for the entire 
year.
    Secretary Mattis. Senator, as you know, we, over many years 
of combat and of reduced funding and continuing resolutions, 9 
of the last 10 years, we got ourselves into a position where we 
are losing or eroding our competitive edge. We still have the 
edge in land combat, in maritime combat, in air combat and 
elsewhere, but we are losing that edge, and it's largely due to 
the uncertainty and the budget unpredictability and the 
inability to reprogram large amounts of money to a dynamic 
security situation. We are not going to get out of the hole we 
were in, in a matter of a year or 18 months or 2 years. So, 
we're going to have to get back to regular order, with 
predictability so that we're spending the money wisely, we're 
not spending it on things we don't need, but prohibited from 
new starts of things that we do need. The research and 
engineering is underway. If we actually produce what looks like 
is going to work for us, the last thing we want to do is say, 
``But, we can't make the change right now because we're back 
under a continuing resolution.''
    So, this would be, financially, a disaster. It would reduce 
my ability to ensure that I spend all the money wisely, which 
is my obligation to you, who fund us. So, to me, this would be 
putting us right back where we were in the hole before, and it 
was exactly what you had to dig us out of with this bill this 
time around. So, I think we need to get back to regular order. 
And I think that the continuing resolution also puts this 
Congress into a spectator seat. They're watching what's 
happening. From our point of view, we want Congress in the 
driver's seat on the budget. And if I can't convince you to 
fund something, then we shouldn't get it. But, our intent is to 
make certain that, if we satisfy you, you tell us that you'll 
give us the money. Under the CR, of course, that doesn't 
happen.
    Senator Alexander. Thank you, Mr. Chairman.
    Senator Shelby. Senator Leahy.

                                 AUDIT

    Senator Leahy. Well, thank you, Mr. Chairman and Senator 
Durbin, for holding this hearing.
    Of course, I appreciate it when Secretary Mattis and 
General Dunford and those with them are here. I might just say, 
personally, I appreciate the fact that the Secretary and the 
General, every time I do have a question for them or reach out 
for--on a response, they've been there, and they've responded. 
And that makes it a lot easier.
    Now, Senator Durbin had talked about the budget for our 
national defense accounts as more than half of our Nation's 
discretionary spending. It's larger than any other country, by 
far. I said, when this subcommittee--and I voted for it--I 
said, when this subcommittee met with you last year, I'm 
grateful you understand the importance of both adequately 
funding our troops, our national defense programs, and the 
domestic and foreign assistance programs that support families, 
improve educational opportunities, promote diplomacy and 
democracy abroad, and fulfill our promise to our veterans.
    Now, Secretary Mattis, the Consolidated Appropriations Act, 
which we passed by bipartisan majorities in the Senate and the 
House, signed into law by the President, included $654 billion 
for defense, plus another $11 billion for military 
construction. It's a massive increase over what even the 
President had requested. You talked about rebuilding and 
improving readiness. And I could not agree more about that. 
But, I think--again, to follow up on what Senator Durbin has 
said--I want to ensure that the funding isn't only spent, but 
spent responsibly in these remaining 6 years. You--that audit 
that you've talked about in November, Mr. Secretary--I think 
you've answered this, but I want to make absolutely sure. It's 
easy to tell us the good news. Will you commit to tell us the 
bad news, if there is bad news in that audit?
    Secretary Mattis. Senator Leahy, I think we have an 
obligation to be even more forthcoming with the bad news, 
because you expect the good news, you expect us to do it right, 
and we're going to have to bring the bad news when the audit 
uncovers things, when our criminal investigators uncover 
things. We're going to have to bring that to you and not even 
wait on your questions. That's been my direction to the 
Department, to the service secretaries, the comptroller, and 
chief financial officer. But, we are going to be forthcoming 
with it, to the point that you can trust us that we're not 
sweeping something under the rug. We won't we will not enjoy 
it, I'm sure, but that's our obligation.

                            SOUTHWEST BORDER

    Senator Leahy. Well, and I think Mr. Norquist is very much 
in tune with that. And I know General Dunford is.
    The President's ordered additional National Guard personnel 
to the southwest border for security. He's raised the 
possibility of using Defense Department funds to pay for his 
border wall. Has he instructed you to use Defense Department 
funds to construct a wall on the southern border?
    Secretary Mattis. No, sir, he has not.
    Senator Leahy. And we didn't provide defense dollars in the 
omnibus to build this wall.
    Secretary Mattis. Senator Leahy, if I can correct myself, 
here.
    Senator Leahy. Sure.
    Secretary Mattis. There is a portion of a bombing range 
that is immediately adjacent to the border. And for years, 
we've tried to maintain the fencing or walling off of that so 
that no migrant illegal or whatever can get into and impact the 
range. And so, for that one area, Barry Goldwater Range, in--
down along the border----
    Senator Leahy. The border range.
    Secretary Mattis [continuing]. We do protect that range so 
that no one is inadvertently killed or wounded.
    Senator Leahy. That's a different thing. That's a----
    Secretary Mattis. Yes, sir.
    Senator Leahy [continuing]. Military installation.
    Secretary Mattis. That's the only place.
    Senator Leahy. You have a--cost estimates of $18 to $20 
billion. If you were asked to build the walls, there's a lot of 
things you'd have to cut out. Is that correct?
    Secretary Mattis. I don't have the authority to provide 
that money, sir.
    Senator Leahy. Good.
    Now, General Lengyel, last month, testified the National 
Guard would not have any direct contact with migrants unless 
they were explicitly authorized by the Department of Defense. 
I'm reluctant to see the National Guard in a law enforcement 
role. Are you planning to change the Guard's traditional role 
of supplanting--or of supporting civil authorities into a 
role--a law enforcement role?
    Secretary Mattis. Sir, right now we are not having any 
contact with migrants. I have not. I am in constant contact 
with Secretary Nielsen, and she has not asked for that support, 
and I have no plans to provide that support for any contact 
between the National Guard and the migrants.

                                  F-35

    Senator Leahy. I have watched with pride a lot of our 
National Guard units around the country, but they're not law 
enforcement units, and they're not trained for that, and should 
not be.
    General Dunford, you've heard me brag a lot about the--
Vermont's National Guard. It's a source of pride for the Green 
Mountain State. It's soon going to be the base for the Air 
Force's F-35A. The Air Force was in charge of the basing 
selection, but can you explain the overall strategic value to 
the national defense of basing this new jet in the Northeast, 
especially as that's an area seeing a decline in basing in the 
past few years?
    General Dunford. Senator, that platform, one, will be 
useful both when we make forward deployments as well as for 
homeland security. Incredible fifth-generation fighter, low-
observable, and a very significant improvement in our ability 
to share knowledge on a battlefield. So, the F-35 is very 
significant.
    With regard to its importance in the Northeast, the F-35 
and the Guard will contribute to homeland security by flying 
what we call combat air patrols over the United States to 
preclude a threat in any kind of circumstance. So, it is very 
important.

                      ARMY MOUNTAIN WARFARE SCHOOL

    Senator Leahy. Thank you. And then, would you provide us, 
for the record, a summary of the value of the Army and Marine 
Corps mountain warfare training that we've been doing at the 
Army Mountain Warfare School in Vermont--the value that has to 
the joint force?
    General Dunford. Senator, I'll do that. I've personally 
trained there two or three times, and be happy to provide that 
for the record.
    [The information follows:]

            army and marine corps mountain warfare training
    The skills taught at the Army Mountain Warfare School make Soldiers 
more resilient, mobile, and lethal in ground operations in mountainous 
terrain. Since 1983 the U.S. Army Mountain Warfare School in Jericho, 
Vermont, has trained Soldiers, Airmen, and Marines, both Regular Army 
and Reserve Components, in the specialized skills required for 
operating in mountainous terrain, under all climatic conditions, during 
both day and night. With 38 percent of the world's landmass classified 
as mountainous, the Total Force must be prepared to deter conflicts, 
resist coercion, and defeat aggression in mountains, and the Army 
Mountain Warfare School is responsible for providing that training. 
Trained (level 2) mountaineers must be able to advise the commander on 
any technical and movement considerations for mountain operations. They 
must be skilled in route planning and reconnaissance and understand how 
weather, altitude, and terrain will impact unit mobility, movement 
times, effectiveness of weapon systems, resupply operations, air 
assets, medevac, communication, synchronization, and command and 
control. The school is run by the Vermont ARNG and trains over 700 
students annually across five different courses including the Basic and 
Advanced Military Mountaineer Course, Mountain Planners Course, Rough 
Terrain Evacuation, and Mountain Rifleman's Course. Additionally, these 
courses cover the use of the High Angle Mountaineering Kits (HAMK) 
fielded for all Regular Army and Reserve Component Infantry Brigade 
Combat Teams.
    Throughout the course of history, military forces have been 
significantly affected by the requirement to fight in the mountains. 
With approximately 38 percent of the world's landmass classified as 
mountains, the United States Armed Forces must be prepared to deter 
conflicts, resist coercion, and defeat aggression in mountains as in 
other areas. The United States Army Mountain Warfare School (AMWS) 
located in the mountains of Jericho, Vermont at Camp Ethan Allen 
Training Site (CEATS), provides tactical and technical training for 
mountain warfare and cold weather operations. The training provided 
enable our forces to operate successfully using proven techniques 
derived from lessons learned by units currently engaged in mountain 
warfare. These courses teach our Joint Force how to use adverse terrain 
and weather conditions to their advantage as a combat multiplier. This 
aids in preserving the unit strength and combat power to achieve 
mission success. In the last three fiscal years, more than 3,120 
Marines and Sailors from units in Maine, New Hampshire, Massachusetts, 
New York, Pennsylvania, Oklahoma, Ohio, Michigan, Indiana and Tennessee 
have conducted training across all the warfighting functions, at the 
company, battalion and regimental levels. Specific planned training 
packages included: individual and crew-served weapons live-fire; 
command and control; demolitions; convoy operations; combat lifesaver; 
indirect fires and air coordination; helicopterborne assault 
procedures; radio, data, and satellite communications; vehicle 
maintenance; and cold weather environment training. The team of 
professionals at Camp Ethan Allen Training Site have contributed to the 
Joint Force by enabling Marines and Sailors to develop necessary 
occupational and leadership skills and maintain a level of tactical 
proficiency that has directly contributed to our military personnel 
that have mobilized in support of missions in United States European 
Command (EUCOM), Untied States Central Command (CENTCOM), United States 
Southern Command (SOUTHCOM) and United States Africa Command (AFRICOM).

    Senator Leahy. Obviously, it may sound somewhat parochial, 
but I'm awfully proud of the men and women who train there.
    Thank you, Mr. Chairman.
    Senator Shelby. Senator Murkowski.

                          RUSSIA/ARCTIC REGION

    Senator Murkowski. Thank you, Mr. Chairman.
    Gentlemen, thank you for your service and for appearing 
before the committee today.
    Secretary Mattis, you have appropriately noted that Russia, 
as well as China, but Russia is a strategic competitor, is the 
word that you use, seeking to create a world consistent with 
their authoritarian models and pursue veto power over other 
nations' economic, diplomatic, and security decisions. I think 
we see that very, very, very clearly up in the Arctic region. 
In the past 10 years, we have seen the Russians move 
dramatically and, actually, in the past year, even more so. And 
yet, our U.S. Arctic strategy has yet to evolve to this 
changing dynamic. And the concern that I have is that, rather 
than the Arctic being this place for commerce, a stable area 
with freedom of maneuver, that Russia is positioning themselves 
to control the Arctic, control its resources, control the sea 
lanes. And if the northern sea route becomes a major shipping 
lane, Russia is poised to be that sole power that could 
effectively sanction or threaten to coerce, project power. We 
have had many conversations about this. Last May, the Deputy 
Secretary of Defense, Bob Work, spoke about the Arctic not 
being a central concern in the 2014 National Defense Strategy. 
Now we've got the newly published 2018 strategy summary, and it 
also does not specifically highlight the Arctic region nor 
address how longstanding gaps in Arctic infrastructure will be 
addressed.
    So, I'm getting to this place--we have discussions about 
it, I raise the issue of the Arctic and what we're seeing up 
north--and again this is very dynamic area--but, I am 
reluctantly coming to the impression that the Department of 
Defense does not have a coherent vision for addressing 
America's defense interests in the changing Arctic at this 
point in time, and that the view is--is that it's going to be a 
problem someday, but that right now it's not a problem, and so 
we don't need to address it.
    So, I'd like to know if you think I'm wrong in that 
impression and if you can share with me what you believe the 
vision is and how we intend to resource it. Because things are 
changing quickly----
    Secretary Mattis. Right.
    Senator Murkowski [continuing]. In a dramatic way up there.
    Secretary Mattis. Well, I appreciate the strategic nature 
of your question, Senator. The first point I would make is, 
yes, there is a prioritization that goes on as we look at the 
strategy. What are the near and present threats, this sort of 
thing. But, I would also point out that the entire strategy is 
drawn with a by, with, and through approach. And why do I bring 
that up? The Arctic Council, as you no doubt are aware--
Denmark, Norway, Canada, the United States, and Russia and 
there are other observer nations; China is one, by the way, 
that's helping to fund Russia and their activities in the 
north--but, my point is that you can see that four of those 
five nations are democracies. So, if we look at our line of 
effort number two, about strengthening alliances and 
partnerships--and again, the United States, Canada, Norway, 
Denmark, all NATO allies--you can see that our approach is 
heavily involved with those allies, when you look at the Arctic 
Council makeup. So, the more that we work by, with, and through 
allies, including several--Denmark and Norway--that keep a very 
close eye on the north, we are, in effect, working in a 
coalition of sorts right now. Now, it's not a military 
coalition, but it is one.
    Senator Murkowski. And that was what I was going to----
    Secretary Mattis [continuing]. That allows----
    Senator Murkowski [continuing]. Interject, was that the 
Arctic Council specifically says that defense and defense 
strategies are not part of what they deal with.
    Secretary Mattis. That's correct. But, at the same time, 
Russia has to confront the claims; for example, Denmark and 
Norway, where they contradict Russian claims. So, I think 
there's still an advantage in the diplomatic realm of this 
competition that Russia's chosen. But, at the same time, you 
will see new icebreakers coming into the Coast Guard inventory. 
Those are being funded in the----
    Senator Murkowski. We have one funded, but we need to have 
a plan for the additional five. And I'd like to work with you 
all on that.
    Secretary Mattis. I couldn't agree more. I agree 100 
percent with you, Senator. Again, there's an effort to make 
certain that what we're doing with others so that we're not 
carrying the full financial or military costs. But, it is an 
area of increased concern, because, as the ice sheet melts 
backward, we've got waterways open that we didn't have to 
confront year round in the past. So, I think right now I hear 
your concern loud and clear. I think we're doing the right 
thing, but I cannot articulate, either, that full strategy 
you're looking for. And we are putting it together with other 
parts of the government.
    Anything else, Chairman?
    General Dunford. Senator, the only thing I'd add is, just 
speaking at it from a military perspective, you know, in the 
1990s, we actually developed regional strategies so they'd be 
focused on the Arctic, the Pacific, or the Atlantic. The global 
campaign plans that we've developed right now, which are 
classified, take a problem-set approach. So, we have a global 
campaign plan for Russia, which accounts for the military 
capabilities that they have postured in the Arctic. And so, our 
plans no longer focus specifically geographically. For example, 
in 1990s, we might have had a plan specifically focused on 
defending the Baltics. We now take a much broader approach to 
the full range of challenges that Russia provides. And so, I 
would argue, at least at the military level, the Arctic is 
fully included in our global campaign plan for Russia, 
specifically the military capabilities that they have postured 
in the Arctic and the threat that they pose.
    Senator Murkowski. Well, know that you will find me 
aggressively pushing on this to make sure that we do have that 
broader view.

                            WOMEN IN COMBAT

    Let me ask one additional short question, and I'll submit 
the rest for the record. This will be to you, General Dunford.
    And this is regarding how we have integrated women in 
combat. That formal process began in January of 2013. We've 
seen the integration of women into the front lines. Equipment 
requirements for women are lagging. Currently, only the Army 
has women-specific body armor, but quantities are so low that I 
understand it's only issued to women who are deploying and not 
during any initial entry or unit training. We--I had a 
conversation just yesterday with some of our women veterans, 
and this was an issue that they had raised to my attention. Can 
you tell me what actions are being taken to ensure that women 
are properly equipped for the combat roles?
    General Dunford. I can, Senator. And, to be honest, in 
2016, when I submitted my recommendation for integration, one 
of the areas that I identified was what we call tariff sizes. 
So, we knew in 2016 that the standard equipment, particularly 
as women began to occupy fields where they hadn't historically 
been, and they were wearing combat armor, packs, those kinds of 
things----
    Senator Murkowski. Rucksacks, yes.
    General Dunford [continuing]. Had been built for the 
average male and not the average female, and that we would have 
to adjust that. And we knew it would take some time. And so, I 
know that each of the services now has an initiative to change 
the tariff sizes to accommodate the different body types of 
women. But, it is taking some time, but I can assure you they 
are all attentive to it and--in fielding equipment. And, 
although you said only the Army has done it, I'm fairly 
certain--and I'll get back to you personally--I'm fairly 
certain that the other services have also been informed by 
integration of women into occupational fields where they hadn't 
historically served, and the needs to adjust equipment 
accordingly.
    Senator Murkowski. Well, certainly would hope that we would 
have it during training as well as deployment. So, thank you 
for that.
    Thank you, Mr. Chairman.
    Senator Shelby. Senator Schatz.

                              RUSSIA/CHINA

    Senator Schatz. Thank you, Mr. Chairman.
    Thank you all for being here.
    Secretary Mattis, the unclassified summary of the 2018 
National Defense Strategy noted that the Department's principal 
priorities over the long term are managing strategic 
competition with China and Russia. Can you walk us through how 
vital Hawaii and the forces in the State are to DOD's 
(Department of Defense) long-term efforts to countering China 
and Russia, and to our defense posture in the Pacific, 
specifically?
    Secretary Mattis. You know, Senator, it's probably the key 
outpost anywhere west of the West Coast. It is the fundamental 
anchor point for the fleet. It is the significant command-and-
control effort. I mean, we obviously have redundancies built in 
elsewhere, but this is our--I would just call it the home port 
for all things in the Pacific, and augmented, of course, by the 
other locations, from the West Coast to Alaska, Guam.

                                 INDIA

    Senator Schatz. Thank you. And I'd like you to take us on a 
tour of the Pacific AOR, excluding the countries and the 
alliances and the adversaries that we normally have. I'm 
particularly interested in our emerging relationship with India 
and the status of the Enhanced Defense Cooperation Agreement 
with the Philippines.
    Secretary Mattis. Let's start as far west with India. 
India, the world's most populous democracy, they've been very 
open, inviting for a stronger mil-to-mil relationship. They see 
it in their best interest. These two democracies have every 
reason to work together, because we want the same thing, 
basically. We don't have to search for common ground. We have 
common ground on respect for international law, territorial 
integrity, sovereignty, freedom of navigation. All these 
efforts are aligned. When we walk in, we can just go through 
our talking points and check them off, ``Okay, we all agree, 
now let's work about what we're going to do about it.''
    As you work further to the east, what you have is 
Australia, anchor point in the South Pacific, a steadfast ally 
through good times and bad. Goes back 100 years ``a 100 years 
of mateship,'' is what they call it. We're celebrating that 
this year. And further, I would just say they have launched 
many initiatives to maintain stability in the southern Pacific, 
with the island nations there that need a hand.
    New Zealand, as you know, one of the Five Eyes. Moving 
further up, we have got, with Indonesia, which is a fulcrum 
between the Indian and Pacific Ocean, fulcrum in the Indo-Pak 
area. We see a country that is trying to carve its own way 
forward. And that means to break out of its reliance on past 
purchases, for example, of Russian weapons, that sort of thing. 
Clearly, when you go over to Singapore, which has gone out of 
its way to help us, in terms of home porting U.S. Navy units, 
support to our folks out there, and they also, as you know, 
train in Idaho. And I can keep going like this. In the 
Philippines, we're maintaining a long-term view to maintain 
that relationship. And it goes right up to Japan and the 
strength they provide in the northern Pacific in our----

                             PALAU COMPACT

    Senator Schatz. And I'll ask one question for the record 
about the Compact of Free Association, the Palau Compact of 
Free Association kind of languishing, and the one for the 
Marshalls and FSM expiring in 2023. And I'd like, for the 
committee's understanding and for the whole Senate's 
understanding, to reinforce how essential that is for our 
defense strategy.

                          DON'T ASK DON'T TELL

    I'd like to change topics to the DOD's post-Don't Ask, 
Don't Tell discharge review policy. I just want to confirm that 
the DOD policy established in 2011 to review discharges due to 
sexual orientation is the same.
    Secretary Mattis. I'm not aware of any change. I haven't--I 
don't----
    Senator Schatz. It's not a trick question.
    Secretary Mattis [continuing]. Think we've initiated one.
    Senator Schatz. Yes. So, since 1970, roughly 43,000 
servicemembers were discharged due to sexual orientation. These 
are those who were discharged solely for what they call 
homosexual behavior, not any combination of so-called offenses. 
But, so far, only around 1,000 applications have been reviewed. 
I get that some of this may be a resource question, but more 
people need to know that this review is available to them. And 
it's highly technical, so it's not good enough to have good 
policy, you have to allow people to seek the kind of justice 
that they deserve. And not everybody knows how to do it. And 
so, will you work with me and others interested, in the Senate, 
to make sure that individuals separated under Don't Ask, Don't 
Tell or similar policy know that they have a way for their 
records to be reviewed, potentially upgraded and removed of any 
derogatory comments?
    Secretary Mattis. I will, Senator. First, I need to 
determine the problem, what is the holdup here, before I tell 
you exactly what I'm going to do. But, I have no problem 
working with you at all, sir. Absolutely.
    Senator Schatz. Sure. And one of the problems is that, 
before 1970, individuals were separated, sometimes, under 
ambiguous codes. They were euphemisms to sort of allow the 
servicemember to save face. So, they were discharged for what 
would have otherwise--post-1970 be considered homosexual 
behavior, but they--for instance, convenience to the 
government, unsuitability. These are really tough ones to get 
to, because you don't necessarily know what unsuitability means 
or convenience to the government. But, this conceals the real 
reason for discharge in some instances, and it's extremely 
difficult for these individuals, who have no other aggravating 
circumstances, to have their records reviewed. So, can we work 
together on especially the pre-1970 issue, but, more generally, 
making sure that the mechanics of this review process are clear 
and robust, and that former servicemembers who were discharged 
under either Don't Ask, Don't Tell or its--or what came before 
it----
    Secretary Mattis. Right.
    Senator Schatz [continuing]. Know that this is available to 
them? This is not an easy one, but this is a commitment we've 
all made in the Congress, and the Department has made it, and 
now we've got to execute.
    Secretary Mattis. I have no reservations on it, sir. I need 
to just make sure I don't run afoul of privacy concerns, 
frankly, by people who may not want to make that appeal. But, 
we're certainly willing to look at it. I mean, the law is the 
law, and no reservations on that. But, we have to find our way 
through. That's why I mean, are--you need to look at what the 
real problem is. And if they're shy about bringing it forward, 
I'm not sure how we would legally do it, and I'm not even real 
sure how we would do the review, ourselves, internally, if it 
was done in a way to look out for, at that time, the dignity 
the--that the person requested. So, let me look at it, Senator, 
and we'll work with you on it.
    Senator Schatz. Thank you.
    Secretary Mattis. Yes, sir.
    Senator Shelby. Senator Hoeven.

                         NUCLEAR MODERNIZATION

    Senator Hoeven. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here, and thank you for your 
service to our country.
    Secretary Mattis, in your prepared remarks, you said the 
modernization of our nuclear triad is ``the Department's top 
priority,'' which I completely agree with and would note you 
were able to fund this top priority for about 4 percent of your 
total request in fiscal year 2019. Yet, there are still critics 
that complain about the cost. So, would you agree that spending 
4 percent of the defense budget for nuclear modernization is 
both cost-effective and affordable? Can you also address how 
our nuclear deterrent helps form the foundation for the rest of 
our defense? And then, one more piece. Also, how is it 
important for our allies in Europe and East Asia, particularly 
in terms of them being confident that our nuclear forces are 
credible and effective?
    Secretary Mattis. Right. Senator, first, the nuclear 
deterrent is the basis. They must deter the use of those 
weapons. We don't ever want to see them used. I believe that 
the cost of 4 percent is absolutely affordable. Secondly, even 
though it grows in the out years there is a rise, just to be 
fully candid, here, because we've delayed this over some time; 
it was started by the last administration, the modernization 
program; it will rise up into the 6, I think 6.3 percent at its 
height but, I believe it is absolutely affordable as the basis 
for the defense of the country. Our allies, sir, I took the 
Nuclear Posture Review, in its draft forms, early forms, to 
Brussels. I briefed our NATO allies, who are critical. I've 
discussed this issue with the Republic of Korea and Japan, for 
example. And it has been welcomed by them. I was surprised when 
I actually rolled it out and went to Brussels in its final 
form. But, I think, because we had included them, they were 100 
percent aligned with us that this was the deterrent that was 
necessary. I've been asked, both in Seoul and Tokyo, doesn't 
that nuclear umbrella protect them? And we've assured them it 
does. What we're doing, in effect, is a nonproliferation 
effort. Because they trust us----
    Senator Hoeven. Right.
    Secretary Mattis [continuing]. We don't see more nuclear 
armed countries in the world. And that is critical if we're to 
try to keep on a track towards reducing these weapons overall.

             INTELLIGENCE, SURVEILLANCE, AND RECONNAISSANCE

    Senator Hoeven. That's an--I think that's an incredibly 
important point, that last point.
    Senator Murkowski brought up the Arctic region. My question 
in regard to the Arctic region: Do we have sufficient 
intelligence, surveillance, and reconnaissance capabilities in 
the Arctic to ensure that we know what's going on in the 
Arctic? And I would ask for General Dunford to follow up, as 
well. Are we making adequate use of unmanned assets, like 
Global Hawk, to do that?
    Secretary Mattis. Senator, let me let General Dunford get 
into some of the military aspects. I would just tell you, sir, 
we've had to make priorities on these scarce assets, what we 
call high-demand assets. And we engaged in the active 
operations we have going on in certain areas. We have 
prioritized that, where we have troops in harm's way. So, I 
don't believe we're doing everything we could be doing, or even 
should be, if we had unlimited assets in the Arctic. But, right 
now, I think we're making the prudent steps to grow our ISR 
(Intelligence, Surveillance, and Reconnaissance) forces that 
will allow us, in the future, to do a better job.
    But, General?
    General Dunford. Senator, I know you're aware that, for 
many years, we took our eye off the ball with regard to Russia. 
And about 2 years ago--it isn't just the intelligence, 
surveillance, reconnaissance platforms we have fielded every 
day, but it's the analytic effort, as well, to look at Russia--
and 2 years ago, we significantly increased our analytic effort 
towards Russia, and really dedicated a large portion of our 
Defense Intelligence Agency now to look specifically at Russia.
    Just to put it in perspective, we're meeting, overall, 
somewhere between 30 and 40 percent of each of the combatant 
commanders' demands. So, if you would talk to General 
Scaparotti and you would ask the question you just asked, he 
would say, ``No, I don't have adequate resources to keep an eye 
on Russia.'' And as the Secretary said, that's as a result of 
us balancing the global demand, which we have significantly 
shifted towards North Korea of late.
    And then with regard to unmanned resources, we are 
absolutely leveraging unmanned resources, and keeping our eye 
on Russia, and specifically the Arctic.

                       COUNTER-UAS/PILOT SHORTAGE

    Senator Hoeven. Well, in a broader context, that relates, 
again, both to the pilot shortage--and I would ask, again 
starting with the Secretary, do you see the pilot shortage as a 
critical issue highly addressing that?--and then the other 
aspect is counter-UAS (unmanned aircraft systems), counter-
drone. For example, my State, in Grand Forks, North Dakota, we 
have 900 miles of border responsibility. We have a military 
installation, Grand Forks, combined with the technology Park, 
combined with Customs and Border Protection, combined with our 
Guard that's all working with aviation assets, like UAS, to try 
to cover this border. So, both, again, pilot shortage, which is 
getting more acute, and then this counter-drone impact. What 
are you doing there? And how are we getting on top of those 
issues?
    General Dunford. Senator, I'll touch the pilot shortage. 
And I know the Secretary's given us all some very specific 
counter-UAS direction, so I'll let him speak to that.
    I think you know we do have a significant pilot shortage 
across all the services, 2,000 short in the Air Force alone. 
This obviously has the attention of all the service chiefs. 
General Goldfein, Admiral Richardson, General Neller, in 
particular, have all done some detailed research to find a--
figure out what it will take to incentivize people to stay and 
to recruit more pilots. This budget does address, in part, the 
shortage of pilots, to increase numbers of pilots and 
throughput. And part of it has been throughput, numbers of 
people that we can train at a single time, so we're increasing 
that. And General Goldfein's also met with industry, to include 
commercial pilots, because, as you know, the shortfall is not 
just in the U.S. military, it's in commercial aviation, as 
well.

                              COUNTER-UAS

    Senator Hoeven. Manned and unmanned. I mean, it----
    General Dunford. Manned and unmanned.
    Senator Hoeven. In almost every aspect of what we fly.
    General Dunford. And maintainers, as well, Senator.
    Secretary Mattis. Yes, sir. We're working the issue hard, 
sir. We're working each of the services, but we also have a 
departmental overview of this to make certain that we're not 
solving one problem and creating another.
    On the counter-UAS, this is becoming an increasing problem. 
We now track every overflight of our bases, ships, airfields. 
And I was surprised to see just how much of this is being dealt 
with. We are probably going to have to come in to the FAA 
(Federal Aviation Administration), and perhaps even to 
Congress, and ask for additional authorities.
    Senator Hoeven. That's what I thought.
    Secretary Mattis. We have the authority, as you know, over 
certain sensitive sites. You know some of them well. But, we do 
not have the authority to take these down over many other 
sites. The problem is, it's only a matter of time before the 
threat manifests in a violent way, so we're going to have to 
come in with a very clear statement of what we need from the 
Congress or the FAA, and then get that authority out, get the 
systems out to take them down and make certain we're not 
running afoul of any and we've got to be careful, again, that 
some of the things that we would take a UAV down with we don't 
want to take down a passenger jet, for example.
    Senator Hoeven. Right.
    Secretary Mattis. There's a reason it's got to be 
integrated. We're working this, and we're tracking every 
incursion now. Every single one, sir.
    Senator Hoeven. Good. Thank you. Appreciate it.
    Senator Shelby. Senator Murray.

                             SEXUAL ASSAULT

    Senator Murray. Well, thank you very much, Mr. Chairman.
    Thank you all to--for your service.
    Secretary Mattis, I wanted to ask you, because I was deeply 
disturbed by a March 2018 Associated Press investigation that 
revealed a massive failure of DOD officials to protect children 
who are sexually assaulted on our military bases. The AP 
documented nearly 600 sexual assault cases that have occurred 
on bases since 2007, including, actually, more than 30 reports 
in my home State of Washington. And, just recently, the Army 
released information on 86 additional cases. Even more 
shocking, it appears that these children and their families 
have no recourse.
    So, almost 2 months ago, I wrote to you about this issue, 
asking for some straightforward questions about the scope of 
the problem and the Department's response. The DOD education 
activity had an initial conversation with my staff, but I am 
still waiting for answers to those questions, and many that I 
have. So, I'm concerned that the Department is not taking this 
seriously, and wanted to ask you if you can tell me today with 
certainty how many juveniles have experienced sexual violence 
or harassment on a military base in the last 10 years.
    Secretary Mattis. Senator, first of all, you'll have an 
answer within the week. I was----
    Senator Murray. Thank you.
    Secretary Mattis [continuing]. Unaware of that, but thank 
you for bringing it up.
    You know, Senator, I accept that we're going to have 
casualties on battlefields. It's part of the military's role. 
We're not a life insurance corporation. Our young troops sign 
up, and they sign a blank check, carry out their mission on the 
battlefield. I do not accept a single casualty in the 
Department of Defense out of sexual assault. That is 
intolerable. That, to me, is something that must be rooted out. 
It's important we stand up and say what we stand for. On this 
one, it's even more important we say what we will not tolerate. 
So, I don't know how different this is from the civilian 
society, so I don't know if it's a unique problem to us. But, 
obviously, we've got to look at it and see if it's because of 
what we're bringing into our ranks. And how do we stop it, is 
the bottom line. More importantly, do we have the Federal 
authority----
    Senator Murray. Well, that's--I wanted to ask you, who has 
legal jurisdiction over military children on the military 
installations, both here and abroad?
    Secretary Mattis. Let me get back to you specifically, 
because I think it's also different, depending on where it's 
located----
    Senator Murray. Okay.
    Secretary Mattis [continuing]. And I may have to break this 
out. But, we will get back to you with a full answer.
    Is all of it in your letter, the--what you need to know?
    Senator Murray. Yes. And we'll make sure--if you can get us 
the answers back to that----
    Secretary Mattis. Yes.
    Senator Murray  [continuing]. And what specific steps the 
Army and others have taken.
    Secretary Mattis. Let me get back to you, Senator. 7 days 
from now, you'll have an answer.
    [The information follows:]

  legal jurisdiction over military children on military installations
    With regard to your question of legal authority over military 
children on military installations, the Department has no authority to, 
and is in fact constitutionally prohibited from, prosecuting crimes 
allegedly committed by civilians, including juveniles, on military 
installations. Within the United States and U.S. territories, the 
authority to prosecute such crimes rests with the Department of Justice 
and/or local and State prosecutors. Overseas, the authority to 
prosecute such crimes in the U.S. justice system rests solely with the 
Department of Justice.

    Senator Murray. I appreciate that very much.
    Secretary Mattis. Yes.
    Senator Murray. Thank you.

                               IRAN DEAL

    Let me go back to the Iran deal. As you know, President 
Trump announced he's going to begin steps to pull us out. That 
deal wasn't perfect, and Iran's other aggression in the area--
region has to be addressed. But, based on everything I've 
heard, according to the IAEA (International Atomic Energy 
Agency) and our Intelligence Committee, the deal was holding, 
Iran was meeting its commitments, and I haven't seen any 
evidence from President Trump to the contrary. So, I'm 
concerned that this is going to be a destabilizing move that 
under--in addition, undermines our credibility. And I'm 
concerned it dramatically raises the risk of a military 
confrontation.
    Now, in his remarks yesterday, the President made several 
veiled threats towards Iran. And I wanted to ask you, has the 
Department been asked to develop military options against Iran?
    Secretary Mattis. Ma'am, we maintain--Senator, we maintain 
military options because of Iran's bellicose statements and 
threats, ``Death to America.'' We have maintained those. As you 
know, I had some experience in Central Command, in my past----
    Senator Murray. Yes.
    Secretary Mattis [continuing]. Life, and those plans remain 
operant.
    Senator Murray. Okay. So, I understood from his statement 
yesterday that he was going to ask you to develop plans. 
You're--just have plans in place, nothing new is going to be 
developed as a result of this?
    Secretary Mattis. Senator, we are always updating those 
plans. It's a constant. I don't want to tell you it's frozen in 
time. The plans are updated as rapidly as needed and, if a need 
is not seen, or actually on a required update----
    Senator Murray. Okay.
    Secretary Mattis [continuing]. So that they can't languish.
    Senator Murray. Well, okay. I would just ask that you 
regularly update this commitment--committee on any new plans 
that you are developing in response to this.
    Okay. Let me ask a different question. The Department's 
Nuclear Posture Review calls for developing two new 
capabilities for delivering low-yield nuclear weapons. The 
Department claims these systems will make the use of nuclear 
weapons less likely, but that can only be true if we are more 
willing to use those weapons. The administration has yet to 
convince me why this is a good use of our defense dollars 
instead of investing in critically needed conventional systems 
or training our personnel. Why is the combination of our 
current nuclear deterrent and significant conventional weapons 
capabilities insufficient?
    Secretary Mattis. Yes. Senator, what we have found as we 
listened to the President of Russia is an increased willingness 
out of Moscow to discuss the use of nuclear weapons; 
specifically, escalate to de-escalate, which means they're in a 
conventional fight, it's not going well, so they escalate. The 
de-escalation is based on their success. What we need to do is 
make it very clear, ``You cannot escalate to a low-yield 
nuclear weapon and confront us.'' We only have two choices, to 
use high-yield weapons, which means we would in--now be 
escalating the fight, or do nothing, which would mean 
surrender. Basically, from our perspective, we would 
characterize it as ``suicide or surrender.'' So, by having the 
low-yield, we are attempting to checkmate their thinking that 
they could employ, deter them from employing even a low-yield 
nuclear weapon. It is the adaptation of the nuclear deterrent 
to the dynamic threat, the changing threat, so it's not frozen 
in a Cold War mentality, where we were willing to go high-yield 
immediately against a high-yield attack. Once they start 
talking about low-yield as a way to escalate a conventional 
fight, we need to adapt our deterrent.

                       MILITARY SPOUSE EMPLOYMENT

    Senator Murray. Okay. And I am out of time, but I did want 
to bring to your attention the issue of spouse employment for 
our military. I've talked to a number of spouses recently who 
can't get a job around their base where they live. I've 
actually heard from military spouses in our home State who face 
this challenge and actually told me that they hide their 
military affiliation--these are the spouses--because employers 
don't call them back if they know that they're going to leave 
again or don't have long-term commitments. So, this is a huge 
question, and I'd love to--I wanted to bring it to your 
attention, but love to talk to you more about it, at some other 
time, about how we can make sure that we remove the obstacles, 
because this is a challenge for recruitment, it's a challenge 
for retention, it's a challenge for these families, 
economically, and I really believe we need to take some steps 
to address it.
    Secretary Mattis. Okay. Got it.
    Senator Shelby. Senator Moran.

                             CYBERSECURITY

    Senator Moran. Mr. Chairman, thank you very much.
    Secretary Mattis, let me begin a discussion of cyberspace. 
You requested $8.6 billion in fiscal year 2019 to build cyber 
capabilities and perform missions to defend the Department 
networks, weapon systems, and information. I think when we 
think of cybersecurity, we often think of our defensive 
capabilities as part of the 133 cyber mission force teams 
you're developing. I want to draw your attention to cyber teams 
that specialize in threat analysis or emulation. I'm referring 
to the work of NSA-certified cyber red teams, which are the 
only cyber red teams authorized to operate DOD networks and 
capable of simulating cyberattacks on DOD systems or major 
weapon systems. They're there to determine if there are 
vulnerabilities that compromise our system or our weapons that 
are being tested.
    The 2006 Defense Authorization Act mandated that cyber red-
team testing on each major weapon system and to develop 
strategies to mitigate the risks of cyber vulnerabilities 
identified in those evaluations. It's referred to as 
adversarial assessments. And they're primarily managed by the 
Director of Operation, Test, and Evaluations, DOT&E. Mr. 
Secretary, there's only a handful of NSA-certified red teams 
authorized to conduct those assessments, and I'm concerned that 
DOD is not addressing what DOT&E has described as a chronic 
red-team shortfall to meet the demands of cyberthreat testing.
    Cyber funding has increased roughly 36 percent since 2016, 
and that lends me to these kinds of questions. Will the 
Department allocate cyber funds toward increasing NSA-certified 
red teams? Are any of the 133 total cyber mission force teams--
are you developing--you are developing--are there--plan to be 
NSA-certified red teams that conduct those adversarial 
assessments?
    The point here is that I want to understand how the 
Department is approaching cyber red teams. And when we do the 
assessments, then what's the result of those assessments in 
ending or reducing the vulnerabilities that those red teams 
have determined exist? Maybe the shortcut of that is that I'm 
worried that we're underemphasizing the value of those red 
teams in assessing the challenge and determining the 
vulnerabilities, so we need more red teams. And then, secondly, 
once the red team determines the vulnerability, what is the 
Department's reaction and response to end those 
vulnerabilities?
    Secretary Mattis. As you know, Senator, right now we're in 
the midst of coming up with our Cyber Posture Review. You've 
heard talk earlier about the Nuclear Posture Review. We're 
doing a similar effort with a Cyber Posture Review. I'm a 
strong believer in red teams. I use CIA's (Central Intelligence 
Agency) red team all the time on policies, on what if, you 
know, this sort of thing, on everything we do. As far as what 
we have to do, I think about $3.4 billion is going into test, 
evaluation. That's part of the budget of the cyber effort. And 
in there will be cyber red team, not just creating a robust 
capability, but also how do we follow up and track it to make 
certain we've corrected the deficiency.
    But, it has been a problem. I will tell you, I found a 
number of IG (Inspector General) reports, some of which, not 
many, but some of which dealt with cyber vulnerabilities. And 
the number of them that had not been--and this goes back 10 
years--that had not been corrected, the vulnerabilities shown, 
struck me.
    So, this is an effort by Deputy Secretary Shanahan right 
now. It sets a priority that we've raised it up to my number-
two, because it cuts across all the services, it cuts across 
all parts of DOD, from nuclear to conventional. So, this is an 
area where, after I get done the Cyber Posture Review, which I 
expect within--we've got a new lieutenant general, just 
promoted to general, took over, General Nakasone, out at Cyber 
Command, and I expect to have this within months right now.
    But, we will work this forward. You don't have to sell me 
on red teams, sir. I'm a believer. And we will find a way to 
get them built up to whatever level is needed. Better we find 
our problems than the enemy finds them.
    Senator Moran. I appreciate your response. Perhaps the 
Deputy Secretary would be willing to have a conversation with 
us about this topic.
    Secretary Mattis. Absolutely.

                              AFGHANISTAN

    Senator Moran. I appreciate that. And I'd--it seems to me 
that it's important that we not miss this opportunity, and that 
red teams have, as you indicated, great value. And I wanted to 
make sure that you had an awareness of this and the Department 
was taking this aspect of cybersecurity seriously.
    While I started my questions by talking about 
cybersecurity, I'll say this, it--I'll say it in passing, and I 
don't know that there's a question here, but I'm--I also have 
concern that, in the focus on cybersecurity, the focus on 
Russia, the focus on China, we need to make certain we don't 
forget the men and women who are serving in Afghanistan. I know 
that you responded to a question from Senator Durbin in regard 
to Afghanistan, but I would not want to not take this 
opportunity to highlight--I visited Afghanistan a few months 
back with then-Acting Secretary of the Army Ryan McCarthy. I 
saw things that were impressive to me. But, we have so many 
challenges in the world that I don't want us to forget the 
young men and women and their circumstances in Afghanistan. I 
know I don't have to tell you or General Dunford these things, 
but I want to make certain that I don't miss the opportunity of 
highlighting, in this setting, the value of our continued 
support for our military men and women.
    Secretary Mattis. And grateful you brought them up. They're 
never out of our minds, sir. But, thank you.
    Senator Moran. I have no doubt that, sir.
    My--I don't know that I can ask this question in 31 
seconds, so, Mr. Chairman, thank you for the opportunity to 
question the Secretary and the Chief, and I will submit a 
couple of questions in writing.
    Senator Shelby. Senator Tester.

                              AFGHANISTAN

    Senator Tester. Thank you, Mr. Chairman.
    And I want to echo the comments of so many people on this 
panel--in fact, everybody on this panel--appreciation for you, 
Secretary Mattis, and you, General Dunford, and the work that 
you do. I can't thank you enough, and the people that serve 
under you. Thank you.
    It's a complicated world. And I don't need to tell you 
that. And Afghanistan is incredibly complicated. This goes off 
of what Durbin mentioned earlier, and that Moran had 
referenced. A year ago, we had about 8,400 troops in 
Afghanistan. Last fall, the last report we got, there was about 
15,000. The Wall Street Journal--and correct me if they're 
wrong, because they could be--but, they're reporting that the 
number of Afghan army and police personnel decreased by about 
36,000 people last year. It looks to me that our presence is 
going up while their presence, the people within the country, 
which I think is critically important, is going down. You've 
requested about $5.2 billion for Afghan Security Forces in this 
budget. Number one, we've put about $78 billion into it 
already. Are we making headway? Look, I mean, I don't--I'm not 
indicating that I think that this isn't a valiant effort. It 
is. But, Afghanistan's been around, and we've seen a lot of 
turmoil for decades and decades and decades around that 
country. Can you give me any sort of assurance that there's an 
end?
    Secretary Mattis. Senator Tester, since the Russian 
invasion in 1979, that society has been turned upside-down. And 
since 2001, we've been there. I think the most difficult point 
to convey today--and we just heard from a Senator who just 
visited there in the last few months--progress and violence 
coexist in Afghanistan. The Taliban are turning to blowing up 
the registration stations, and they're doing that because they 
recognize they can't win at the ballot box, so they're trying 
to win with bombs. They've turned away from attacking many of 
the Afghan forces, because we're now mentoring more.
    And in that regard, I would just point out that we are 
going with more attention to the quality of those Afghan 
forces. So, in some cases, what we've done is, due to better 
accounting, we've made certain there's no ghost soldiers. In 
other words, we're paying for a soldier who's not really there. 
There's a stricter accountability for who's getting paid, to 
make certain they exist. And we're going to expand the size of 
the elite forces. And there will be a reduction overall in the 
number of forces, because----
    Senator Tester. Okay.
    Secretary Mattis [continuing]. We know the mentored, 
mentored by the NATO forces supported by NATO, those forces 
always win against the enemy. And so, ones that were not are 
some of those that have been reduced in size.
    Senator Tester. So, the reporting that the Wall Street 
Journal talked about, you believe is more of an accounting 
issue than it is a real body issue?
    Secretary Mattis. It may be real bodies, in the sense, 
Senator, that, where we--for example, if a kandak, a battalion 
of regular army, is not going to be mentored----
    Senator Tester. Yes.
    Secretary Mattis [continuing]. And we're building up a 
commando battalion, a commando kandak, that may be a smaller 
kandak, but it's going to be more effective. So----
    Senator Tester. I got it.
    Secretary Mattis [continuing]. It's more a quality, not 
quantity on that.
    Chairman, can you give any background on this?
    General Dunford. I can.
    Senator, part of it is also casualties, the Afghans. And if 
I could just address the idea that we've been doing the same 
thing over and again for 17 years, and just maybe put in 
context our current strategy, relative to what we've been 
doing. In my judgment, from 2001 to 2013, we did the fighting 
in Afghanistan, and we somewhat pejoratively talked about an 
Afghan face on coalition capability from 2001 to 2013. In June 
of 2013, we actually said to the Afghans, ``Okay, you have, 
now, responsibility for your country.'' And when we said that, 
we had over 100,000 coalition forces in Afghanistan. From 2013 
to 2017, we drew down to the 8,000-plus that you spoke about.
    I think there's really three phases in Afghanistan. There's 
the phase where we fought, there's the phase where we drew 
down--that was our primary mission between 2013 and 2017; you 
can't come from ``I have 140,000 down to 8,000'' without 
singularly focusing on logistics and the challenge associated 
with drawdown. I really did believe that, this year, in 
conjunction with the South Asia Strategy, this is the first 
time we are providing the Afghans with the capabilities they 
need and the advisory effort they need to actually fight the 
counterinsurgency themselves. Are there challenges? Absolutely. 
And I think that, with the numbers question you asked 
specifically, Senator, what we expect to see--one of the things 
we expect to see because of the strategy we've implemented is a 
reduction in Afghan casualties and a commensurate increase in 
the numbers of Afghans that might be willing to serve. It is a 
volunteer service.
    Senator Tester. Okay. Thank you.

                   JOINT COMPREHENSIVE PLAN OF ACTION

    I want to talk--I'm going to approach this a little 
differently than what Senator Murray did on the JCPOA (Joint 
Comprehensive Plan of Action). When you drafted this budget, 
Secretary Mattis, did you have in mind that the President may 
be pulling out of the JCPOA? And the reason I ask that is 
that--are there any budgetary impacts with the pullout of the 
JCPOA? In other words, are you anticipating you're going to 
have to invest more dollars militarily than you are now because 
of that withdrawal of the JCPOA?
    Secretary Mattis. I do not anticipate asking for more 
dollars. Now, should Iran do something----
    Senator Tester. Yes, yes, it's a different story.
    Secretary Mattis [continuing]. That's a different issue. 
But, no, I'm not coming to you with a--with an additional 
supplemental funding request.
    Senator Tester. So, you're confident that the budget will 
reflect the realities, even with our removal from the JCPOA.
    Secretary Mattis. I am confident, Senator.
    Senator Tester. Thank you.

                         MENTAL HEALTH/SUICIDE

    Just want to talk about mental health for a second. I only 
got 45 seconds. You guys know all the figures. But, we've got a 
problem in our Active components. We have a worse problem in 
our Reserves and our National Guard. Can you tell me, within 
this budget, if there is any prioritization of resources to 
deal with the Guard and Reserve components' ability to address 
the suicide problem, epidemic, whatever you want to call it?
    Secretary Mattis. I'm going to have to get back to you.
    David, do you know this one?
    General Dunford. I do not.
    Secretary Mattis. No, we're going to have to take that one 
for the record, Senator. We'll get you an answer very quickly.
    Senator Tester. Appreciate it.
    [The information follows:]

                            suicide problem
    The National Guard does prioritize funding for multiple programs 
across the Army National Guard (ARNG), Air National Guard (ANG) and 
throughout the 54 States, Territories and the District of Columbia to 
mitigate suicides and encourage individuals to seek help. National 
Guard Bureau (NGB) requests funding through the Defense budget process 
for Psychological Health Coordinators, Directors of Psychological 
Health (DPH), a Resiliency Program, and Behavioral Health Officers in 
the states and uses this prioritization to optimize placement of 
resources based on need. The Air National Guard (ANG) has at least one 
DPH at each of its 90 Wings, and is requesting funds for an additional 
15 DPHs to assist with ``high interest'' units. The Army National Guard 
(ARNG) has Behavioral Health Officers throughout the country and 
maintains at least one Applied Suicide Intervention Skills Training 
(ASIST) Soldier at each unit. The ARNG's Unit Risk Inventory, a risk 
management tool used by unit Commanders, allows leaders to focus on 
Soldiers experiencing behavioral health issues. In addition to 
established mental health programs and services, NGB continues to look 
for solutions to ensure these multiple lines of effort are outcome-
focused, high quality, measurable, and leverage evidence-based 
practices, that service members and families have appropriate access to 
resources and care, and that a positive culture exists that supports 
help-seeking behavior and reduces stigma. The Chief of the National 
Guard Bureau recently directed the establishment of the new Program on 
Warrior Resilience and Fitness, which aims to develop a more holistic 
and consistent approach to resilience and prevention programs by 
synchronizing efforts across the ARNG, ANG and each of the 54 States & 
Territories. The program will leverage a Total Force Fitness (TFF) 
approach as the framework to improve Service member fitness and 
resilience across multiple domains including psychological, physical, 
social, and spiritual behavioral, nutritional, environmental, medical, 
and behavioral fitness. While not a stand-alone program or specific 
training class, the National Guard Bureau views this new approach as a 
cultural shift in defining fitness in a more comprehensive manner and 
will be woven into existing programs to ensure greater consistency 
across the force.
    Though we do not determine there to be a suicide epidemic in the 
Navy and Marine Corps Reserve, every single suicide is a tragic event 
that has a significant and immeasurable impact on force readiness, our 
department, and our Nation. We will continue to prioritize the 
necessary time, energy, and resources to prevent and eliminate suicide 
within the military. The President signed Executive Order 13822 of 
January, 9 2018, ``Supporting Our Veterans During Their Transition from 
Uniformed Service to Civilian Life,'' designed to improve mental 
healthcare and access to suicide prevention resources available to 
veterans, particularly during the critical 1-year period following the 
transition from uniformed service to civilian life. This Executive 
Order (EO) is applicable to all service members and veterans, including 
members of Reserve component. OSD is currently staffing courses of 
action to implement EO 13822. Both Navy and Marine Corps have robust 
suicide prevention programs and service member support services to 
combat this issue such as the Navy's Sailor Assistance and Intercept 
for Life (SAIL) and the Marine Corps toll-free Peer-to-Peer Support and 
Outreach service. The Reserve Component's psychological health needs 
are in part managed, monitored, intervened and referred through the 
Navy Bureau of Medicine and Surgery's (BUMED) Psychological Health 
Outreach Program (PHOP). BUMED funds approximately $3 million per year 
with Defense Health Program (DHP) dollars for the PHOP program and 
demonstrates the Navy's focused commitment to tackling this issue.

    Senator Tester. And once again, thank you, gentlemen, for 
the job you do. I appreciate it.
    Senator Shelby. Senator Blunt.

                          B-21 AND FACILITIES

    Senator Blunt. Thank you, Chairman.
    Let me start by thanking you for three specific things that 
particularly, General Dunford and Secretary Mattis, you've 
worked on. One is supporting the National Geospatial transfer 
from St. Louis, from the facility they've been in for 70 years 
to a new facility. Also, I think this is the first time I 
recall that the Super Hornets, which this committee's always 
been very supportive of, made the regular budget, as opposed to 
the budget you'd like to have and always, in the Super Hornet 
category, got. But, a multiyear procurement request there helps 
keep that line open. And then, we've all talked about this 
before, but your willingness to both work for and now implement 
the Military Family Stability Act that was in the Defense 
Authorization Act that time. That would not have happened if 
both of you hadn't understood the importance of it happening. 
And we want to continue to work on those things.
    B-21 basing decision, looking first at current bases is the 
logical way to do this and the way you have approached it. But, 
to the degree you can discuss it, the B-21 issues, whatever you 
can discuss here, can you elaborate on the efficiencies and 
savings generated by using existing bases, and then your view 
of what kind of commitment we're going to need to make, moving 
forward, to facilities to deal with the addition of the B-21 to 
the force?
    Secretary Mattis. Senator, every new type model aircraft 
brings with it a certain logistical requirement. So, we'll have 
to address the maturation of the basing locations. And while we 
would always be looking at existing bases, and of course, 
dispersal points for them, we also have to look at the changing 
world situation and make certain those existing bases, where we 
have strategic aircraft now, are the right locations for them 
in the future, and any modification to those bases. So, I don't 
want to say absolutely they're going to the same base. I can't 
tell you that right now. Clearly, they would have a leg up----
    Senator Blunt. Right.
    Secretary Mattis [continuing]. Unless there's a strategic 
reason to shift them elsewhere.
    Senator Blunt. Well, and I think what we'll need to look at 
there, too--and as soon as we do have a sense of where they're 
going to do is what the military construction needs might be, 
what we ought to be thinking about as we think about adding 
that to our future defense posture.
    I want to talk a little bit about Korea. I was on some news 
program the other day, and asked: In Korea, what would you see 
as the line that would be non-negotiable? Now, my view, which, 
if anybody could persuade me that my view was wrong, the two of 
you at the table might be able to do that, but my view was 
that, for the foreseeable future, our presence in Korea, not a 
negotiable issue. The South Koreans have really stepped up with 
money they've invested in the new basing for us as well as the 
other assistance that we get from them to be there. I know this 
is an ongoing discussion. I know, General Mattis, you have 
discussed it recently. What do you see as the importance of our 
presence, not only in the Korean Peninsula, but also our 
regional presence and the advantages we would have with the new 
base there and the South Korean support that we gain--that we 
get for our regional presence there, and what kind of 
negotiating item that may or may not be?
    Secretary Mattis. Senator, Korea--the red line, I would 
say, is the verifiable, irreversible nuclear-free Korean 
Peninsula. This is the policy of the United States, of South 
Korea, of Japan, China, and Russia. It's the same policy for 
all. I think it's why you've seen three unanimous U.N. Security 
Council resolutions in the last little over a year, imposing 
sanctions on Korea--on DPRK, North Korea. And I think that that 
stands as the goal of the negotiation that we're entering into 
that's underway, actually, right now, as Senator--or Secretary 
Pompeo having just left there, having done more of the 
preparation work.
    The presence of our forces there--and as you're aware, sir, 
the 90 percent of the cost of that new base is borne by 
Republic of Korea--the presence of our forces there is a 
stabilizing presence. When--if we had no one there, and we 
moved in that many troops, that could actually have a 
destabilizing effect. In other words, the fact that they're 
there, everything's stable, the Americans are committed, and 
this, I would just say, resonates among allies, and not just in 
Japan and Korea, because those forces are in the northwest 
Pacific, but also around the world, when they see that, when 
trouble looms, we don't walk away. Now, if, during the 
negotiation, this issue was to come up between our allies and 
us that would be one thing between two allies, not a matter of 
the negotiation with DPRK, for example. That is a sovereign 
decision of the people and the government of the ROK (Republic 
of Korea) and the people and the government of the United 
States. That's not something that would be on the table in the 
initial negotiation.
    Senator Blunt. And the move to the new base, when do you 
anticipate that will happen? And when would it be completed? 
General Dunford, is it----
    General Dunford. Senator, I was there probably 3 or 4 
months ago, and it's actually ongoing.
    Senator Blunt. Right. And when do you think that move will 
be completed?
    General Dunford. I'll get back to you to confirm it, but my 
understanding was, it'll be complete in this calendar year.
    [Information follows:]

                                new base
    Although all of the major Headquarters Staff, including USFK, will 
be completed with the move to Camp Humphreys this summer, the military 
hospital, and several other secure facilities, will not be formally 
moved until fiscal year 2019 or fiscal year 2020--pending on completion 
of new facilities.

    Senator Blunt. Thank you.
    Thank you, Chairman.
    Senator Shelby. Senator Udall.
    Senator Udall. Thank you, Chairman Shelby.

                             IRAN AGREEMENT

    And thank you all for your service. And we're really lucky, 
I think, to have you.
    I agree with Senator Durbin's earlier comments on Iran and 
withdrawing from the Iran agreement. This is a big mistake. It 
splits us from our allies, and it puts us on a path to war with 
Iran. And Mr. Secretary, I really appreciate your advocacy and 
outspokenness on this issue.
    We understand the President has made his decision and is 
going to withdraw and reimpose sanctions. If Iran were to 
restart its nuclear weapons program, do you believe the 
President can order a unilateral attack to stop that program? 
And if so, under what authority?
    Secretary Mattis. Senator, I'd prefer not to talk about a 
hypothetical case like that. I think that this is an issue that 
we've seen discussed here on the Hill. Certainly, we've looked 
at the AUMF (Authorization to Use Military Force) authority in 
another venue. We've looked at--the War Powers Act was a 
previous--a generation-ago effort to come to grips with this 
issue. But, I would say, right now everything that we are 
doing--and you can see it with Korea, you can see it with how 
long it took for us to make the decision on this issue--we're 
diplomatically led on this. We're not talking about any default 
to war as the binary choice. We're going back into working with 
allies, working with the international community, United 
Nations, with Ambassador Haley, and working this issue forward.
    Senator Udall. Yes. Well, I--I'm very pleased to hear that, 
of considering the diplomatic options, but I think it's pretty 
clear--and I won't get you into the hypothetical, but, unless 
there's an imminent threat, I don't think the President can 
order that. I think he has to come to the Congress.
    The President's National Security--and this is what 
concerns me, is--I'm going to talk a little bit about some of 
the people that are--surround him--President's National 
Security Advisor, John Bolton, published an op-ed in the New 
York Times just over 3 years ago, titled, ``To Stop Iran's 
Bomb, Bomb Iran.'' If the U.S. were to use force to stop an 
Iranian nuclear weapons program, we must consider the most 
likely second- and third-order impacts, how Iran and other 
nations would respond to such escalation, or how such attack 
could lead to other actions in the region. Following the 
experience in Iraq, can the Department of Defense be confident 
that such an action would be limited to airstrikes and avoid 
another ground war involving U.S. troops in the Middle East?
    Secretary Mattis. Senator, I have had numerous 
conversations in the last 2 or 3 weeks with Mr. Bolton. This 
issue, as characterized by his article that you quoted there, 
has not even arisen. There is, as we all recognize, a sobering 
aspect of being in the positions that he and I occupy.
    Senator Udall. Yes. Thank you.
    The National Security Advisor Bolton's 2015 op-ed also 
advocated a U.S. policy of regime change for Iran. Rudolph 
Giuliani is now the President's attorney and recently made 
public remarks in support of regime change for Iran. Does the 
United States have a policy of regime change for Iran? And if 
so, what actions does the President intend to take to implement 
that policy?
    Secretary Mattis. Senator, as you know, our problem with 
Iran is not with the Iranian people, it is with the regime that 
holds them captive, basically, to the activities they've 
conducted. But, I would let Mr. Bolton and Mr. Giuliani speak 
for themselves, sir. I'd prefer not to comment on that. Let 
them speak for themselves.
    Senator Udall. Thank you.

                                  AUMF

    The Senate Foreign Relations Committee may meet this month 
to debate and update the AUMF to replace the 9/11 AUMF and the 
Iraq War AUMF. I hope that your team has compared the new 
Senate language, which Chairman Corker released last month, 
with the existing authorities. My reading of the new AUMF is 
that it authorizes force against al Qaeda and ISIL (Islamic 
State of Iraq and the Levant) and some named associate forces, 
but it does not authorize force against the Syrian government 
or against the Iranian government. Do you agree with that 
reading? Would you commit to providing the Department of 
Defense--a Department of Defense analysis of the proposed 
updated AUMF prior to the committee markup, which may occur in 
2 weeks? We'd really appreciate having your input into this, 
seeing how important it is.
    Secretary Mattis. Senator, I've worked with the two 
Senators who were involved with this, and the White House is 
working with them. We have been, I think, heard well. But, 
I'll--let me get back to the White House and see where the 
interagency is on this. State Department's important, 
obviously, in an event like--or in an issue like this, because 
we try to keep the U.S. military and the Defense Department in 
a reinforcing role to State Department's lead on foreign 
policy, where we belong and where I think we're strongest. But, 
we'll get back to you, Senator, on this.
    Senator Udall. Yes.
    The important thing--and I think we have emphasized this 
with Chairman Corker--is that, if he's going to go forward with 
a markup of the proposal that's out there, before we do that, 
that we actually have a hearing, where we can hear from all the 
individuals you talked about and in addition, have another 
panel, which would be outside experts, to talk about what this 
means. It seems that, if we're going to really head down the 
road of a new and updated AUMF, that the administration needs 
to take a strong position where they are on it, and in 
addition, outside experts look at it.
    And I notice--and I'll put this one in for the record--but, 
the administration, as you know--the last administration, when 
it was going to bomb in Syria, asked for Congress's permission 
to do so, and they didn't get it. And does this administration 
consider the use of chemical weapons anywhere in the world as a 
legal basis for U.S. military force without a vote in Congress? 
It seems to me this is a big issue, difference in 
administrations. And so, I'll put it for the record. I know, 
Secretary Mattis, how thoughtful you are, and you really think 
these things out. And so, I'd appreciate a good, thoughtful 
answer on that one.
    Thank you very much.
    [The information follows:]

                                  amuf
    While the use of chemical weapons anywhere is a serious issue, it 
is not the sole consideration for the use of military force. The 
President may direct such military action pursuant to his Article II 
constitutional authority to conduct foreign relations and as Commander 
in Chief and Chief Executive. The President determined that the April 
13, 2018, strikes against Syrian chemical weapons-related facilities 
were in support of the vital national security and foreign policy 
interests of the United States to promote the stability of the region, 
to deter the use and proliferation of chemical weapons, and to avert a 
worsening of the region's current humanitarian catastrophe. In 
response, the United States, the United Kingdom, and France conducted 
successful strikes on April 13, 2018, against Syrian chemical weapons-
related facilities to degrade the Syrian military's ability to conduct 
further chemical weapons attacks and to deter the Syrian government 
from any further use of chemical weapons. The President notified 
Congress of this military action on April 15, 2018, in an effort to 
keep the Congress fully informed, consistent with the War Powers 
Resolution (Public Law 93-148).

    Senator Shelby. Senator Daines.
    Senator Daines. Thank you, Mr. Chairman.

            UH-60 BLACK HAWK/H-64 APACHE FOR NATIONAL GUARD

    And I'm honored to be here with you, Secretary Mattis, 
General Dunford.
    I am very pleased to see that President Trump's budget 
submissions are strategy-based. They establish a foundation for 
rebuilding the U.S. military into a more capable, a more 
lethal, and a ready joint force. It's very clear to me that our 
Department of Defense is focused on what matters most, and 
that's keeping Americans safe. And I want to thank you for your 
leadership in that regard.
    And having spent a fair amount of time over in Asia, worked 
over there in a previous life, and just in the last 30 days, 
some meetings there with some of our allies. The peace-through-
strength doctrine that I really think you've brought back here 
from the days of President Reagan, it's working. And by keeping 
all options on the table, as you have regarding North Korea, we 
have a window of opportunity now that we've not seen, arguably, 
in a generation. And I want to thank you for your leadership. 
It's remarkable to hear the news this morning that three 
American detainees are on their way home. That's not by 
accident. And you ought to be commended for the important work 
the U.S. military has done by keeping all options on the table 
to drive Kim Jong-un, to a reasonable outcome in this dilemma, 
here, which is the denuclearization of the Korean Peninsula.
    Earlier this year, the Department of Defense released its 
updated National Defense Strategy, which acknowledges the 
reemergence of long-term strategic competition. After years of 
focused attention on conflicts abroad, the strategy is 
distinct, in that it prioritizes defense of the homeland.
    Secretary Mattis, defense of the homeland is a core 
competency for our National Guard. What measures is the 
Department taking to address some critical readiness shortfalls 
that we see in our Guard, such as the UH-60 Black Hawk, the H-
64 Apache?
    Secretary Mattis. Senator, I think I'm going to have to 
take that for the record. I know that we are upgrading and 
we're shifting airframes in certain places, but I'd better----
    Do you have it with you, David?
    General Dunford. I don't have the specific----
    Secretary Mattis. All right. Yes, let us take that for the 
record so we can be specific.
    [The information follows:]

                  uh-60 black hawk and the h-64 apache
    The Army has discussed this issue with the National Guard and 
believes that current quantities are sufficient and thus there aren't 
any critical shortfalls. The fiscal year 2018 President's Budget (PB) 
requested funding for both the UH-60 Blackhawk and AH-64 Apache. UH-60 
Blackhawk--PB requested 48 aircraft for $938 million; Congress added 8 
more for $108 million. AH-64 Apache--PB requested 63 aircraft at $374 
million; Congress added 17 more at $577 million. The fiscal year 2019 
PB requested 56 Blackhawks at $1.2 billion and $80 Apaches at $1.9 
billion.

    Secretary Mattis. If it's those two helicopters you're 
concerned with, we can probably get you an answer, I'd say, 
within the week.

                                 CHINA

    Senator Daines. Okay, thank you. Appreciate that.
    I just recently returned from leading a CODEL to China. In 
fact, I brought four U.S. Senators with me, the last 30 days, 
where we were assessing the threats as well as the 
opportunities of our engagement with China. It was readily 
apparent to the delegation, after spending a week there. This 
leads me to believe the very real threats that China poses to 
our national security, and that they need to be addressed 
directly. Whether it's their military investments, the economic 
development via force technology transfers, outright theft, or 
China's rapidly developing and innovative tech sector, the time 
is past where the U.S. can be complacent.
    Secretary Mattis, how can we best impose effective export 
controls and other means to protect U.S. interests and our 
innovation while not unduly impeding foreign direct investment 
for both our friends and our allies?
    Secretary Mattis. Right. And that's the rub, right there, 
that last phrase, sir. I think right now what Senator Cornyn is 
leading in terms of the CFIUS (Committee on Foreign Investment 
in the U.S.) and the--how do we protect certain industries here 
in the country, certain research and development, that truly 
are critical to what we need for national defense, that is part 
of it, but we don't want to do this in a way that basically 
takes a sledge hammer to handle something that's got to be more 
delicately addressed, more directly fine-tuned. So, we're going 
to have to work closely with you, because there are some areas 
that I see democracies, from Australia to Europe, Canada, all 
working to protect. And it's interesting that the nations 
taking the most active role in this are some of the most 
populous democracies right now. And so, we all recognize that 
intellectual property theft is an issue that China's going to 
have to address if they want to be treated as an equal, in 
terms of foreign investment in other firms. I think one of the 
reasons why we're looking at certain sanctions right now, 
certain tariffs and all, are as a result of this very issue.
    So, we're looking at it with a host of different 
initiatives, but they've got to be done with a fair degree of 
fidelity or we're going to actually run afoul of that last 
point, where we're penalizing ourselves rather than protecting 
ourselves.
    Senator Daines. Yes, absolutely. I think you look at 
virtually every, probably, Fortune 100 Company or Fortune 500 
Company has the growth in China. And our ability to supply 
those opportunities is an important part of our overall growth 
for our American businesses. At the same time, it's become more 
and more clear to me that China is a fierce competitor in the 
development of artificial intelligence, quantum computing, and 
biotechnology. And that's of course, the walk of wisdom it's 
going to take here as we sort that out.
    Despite this, I tell you, I'm confident the Department 
recognizes those challenges. I hear it from you, and it's a 
very thoughtful response, and that you're moving aggressively 
to maintain our competitive edge, as well, both from a 
commercial viewpoint and importantly, from a military 
viewpoint. Nonetheless, one area the Chinese are outpacing us 
is actually in the mining of critical materials and critical 
minerals. I understand these minerals are the building blocks 
for most of our military equipment. And without access to them, 
our most advanced weapon systems would be rendered useless. 
Additionally, Defense News recently published that our 
dependence on China as a sole provider for at least 20 of these 
minerals makes this a strategic vulnerability that poses a 
significant risk to our country's national security.
    Secretary Mattis, do you share any thoughts, or could you 
elaborate, on what the Department of Defense is doing to 
mitigate the strategic vulnerability caused by our dependence 
on China for critical minerals which are used in our most 
advanced weapon systems?
    Secretary Mattis. Yes, sir. Senator, what we've got going 
on right now at the interagency effort with Department of 
Defense at the main table there, Under Secretary Ellen Lord and 
one of her key subordinates who focuses on nothing but this 
issue, working with Department of Commerce, Department of 
Treasury, Department of State, as we look at, How do we solve 
the problem? In other words, identify the problem, solve it. 
There's a number of different efforts underway. We're looking 
at putting together a program, a strategy, basically, that 
addresses all these vulnerabilities. In some cases, technology 
can lessen our dependence on certain key elements. In other 
cases, there are other locations which are perhaps more costly 
for extraction, but they would work as a reserve. Certainly, we 
can look at a strategic stockpile, as well, for certain things.
    So, there is a process underway. I can tell you that. I 
can't give you the output right now. And I don't think, even if 
I had the work that they've done, I can give you full answers, 
but I will assure you that this is getting full attention.
    Senator Daines. I'm out of time, Mr. Secretary, but I just 
want to let you know, please let this committee know how 
Congress might assist you in that effort----
    Secretary Mattis. Okay.
    Senator Daines [continuing]. As you develop the strategy 
and next steps. This is playing the long game, here, but it's 
the important strategy we need to lay out, here, as it relates 
to ensuring that we keep the homeland safe.
    Thank you.
    Secretary Mattis. Well, there's 1,800 reports a year that 
I'm required to submit. I may just add one to it, sir, and 
report this back to you about where we're at on this issue.
    [The information follows:]

                      china for critical minerals
    United States Geological Survey (USGS) reports that the U.S. is 
import dependent: greater than 50 percent on approximately 50 minerals 
and is 100 percent import dependent on 21. While China dominates the 
supply of many, China is not the sole producer of any of these 21 
minerals. DoD's overall strategy for reducing mined critical minerals 
risk is to rely on free and fair trade, and diverse and sufficiently 
reliable domestic and foreign sources of supply. DoD's strategy also 
includes relying on globally competitive markets and market-based 
responses including innovation, substitution, recycling, and 
conservation as well as private investment in maintaining, modernizing 
or expanding productive capacity. DoD monitors over 100 materials 
essential to U.S. defense and civilian demand. In collaboration with 
interagency partners, DoD undertakes a large number of comprehensive 
assessments of postulated wartime material shortfalls of critical mined 
minerals and related materials for essential U.S. defense and civilian 
demands. DoD's strategy for mitigating postulated wartime shortfalls, 
as well as other risks to supply include a broad set of DoD 
authorities, related resources, and public-private partnerships:
  --Government stockpiling of strategic and critical materials.
  --Title III of the Defense Production Act (DPA) and other related DoD 
        authorities (e.g., ManTech and the Industrial Base Sustainment 
        Fund) to help finance private sector development, modernization 
        and expansion of domestic production capacity and material 
        supply. Additional DoD programs invest in similar areas of 
        domestic industry materials and processing innovation, 
        substitution, and recycling (e.g., SBIR, RIF and R&D BAAs).
  --International defense industrial base and supply chain 
        collaboration with U.S. allies and other partner countries 
        including prioritizing acquisition of materials for urgent 
        needs. o Securing reliable sources of supply through domestic 
        and certain foreign sourcing preferences including the Buy 
        America Act (e.g., steel) and Specialty Metals clause.
  --Leveraging DPA Title VII to reduce the risk of foreign acquisition 
        of U.S. critical material producers.
  --The fiscal year 2018 Omnibus Bill added $30 million (for a total of 
        $67 million) to for DPA. As DoD works on the further 
        development of its strategies and next steps in areas of 
        critical minerals and related downstream materials and 
        production, it welcomes the assistance of Congress.

    Senator Daines. Thank you.
    Secretary Mattis. Yes, sir.
    Senator Shelby. Senator Baldwin.
    Senator Baldwin. Thank you, Mr. Chairman.

                         IRAN NUCLEAR AGREEMENT

    And thank you, Mr. Secretary and General, for your service 
and for being here as we have this year's hearing on the 
Defense Department budget.
    General Dunford, as part of last year's hearing on the 
Defense Department budget, I asked you, for the record, whether 
it was in the U.S. interest to continue implementing the Iran 
nuclear agreement and what were the risks to the U.S. and our 
national security and our allies' security if the agreement 
were scrapped. You responded, in July of 2017, saying--and here 
I will quote--``I believe it is in the national--in the 
Nation's interest to continue implementing the Iran nuclear 
agreement. Militarily, the JCPOA remains the most durable means 
of preventing Iran from acquiring a nuclear weapons capability. 
If the United States scraps the deal, Iran could respond by 
restarting its quest for nuclear weapons. A nuclear-armed Iran 
would further destabilize the entire Middle East and could 
precipitate a regional nuclear-arms race or regional war.''
    Your response was, and remains, consistent with the 
positions of other U.S. military and intelligence leaders, 
including the consensus that Iran is in compliance with the 
agreement. For example, last month you told the House Armed 
Services Committee that you were not aware of any violations.
    General Dunford, is your response from July 2017 still your 
professional military judgment?
    General Dunford. Senator, I think you probably--as you 
understand, my job really is to support the policy. So, the 
President has changed the policy. Iran has a nuclear challenge 
and as the Secretary outlined earlier, a maritime challenge, a 
cyber challenge, the support of proxies in the region, as well. 
And so, my job now is to adjust to that reality and make sure 
that I'm supporting the President's policy in the development 
or potential development of nuclear weapons by Iran.
    Senator Baldwin. And--but, I think it's also true that your 
job involves giving us your best--and the President--your best 
professional military judgment. Has your judgment changed since 
you wrote that response?
    Secretary Mattis. Senator, if I could, in the civilian-
control-of-the-military point here, this took us over a year as 
we dealt with it on the interagency. You saw it was not a hasty 
decision immediately after inauguration. And I can assure you 
that the Chairman and I were given full hearing. It was a 
rigorous debate. It went over many, many months. And you've 
seen it in the news as certain affirmations had to be made to 
the Congress by the President. And he got to a point where he 
just did not see that this was in our best interest to 
continue. It had to do with all the other things that Iran is 
certainly doing, from supporting Assad to supporting proxies, 
attacking Saudi Arabia, and fomenting the problem down in 
Yemen. So, all of this had to be mixed together. And to 
separate out what the Chairman's or my advice was on our area, 
it had to be leavened with foreign policy concerns out of 
State, Intel assessments of where they're at today and where 
they're going. So, I just want to be completely candid with you 
on that.

                         CHINA INDUSTRIAL BASE

    Senator Baldwin. No, I understand. And you know, there's--
whether you base it on violations, which I don't think any of 
our leaders identified, or the interests of the Nation, I want 
to understand whether the professional military judgment has 
changed since last year.
    But, let me move on to a different topic. Secretary Mattis 
and General Dunford, to meet the strategic challenge posed by 
China, we need to ensure that our national security policies 
also strengthen our economic security. In the DOD context, this 
means strengthening our defense industrial base. Like President 
Trump, I believe it is best accomplished through robust Buy 
America policies. For example, earlier this month, I introduced 
the Made in America Shipbuilding Act, which requires that all 
ships purchased by the Federal Government, regardless of the 
agency or class, be made in America with U.S. materials and 
U.S. shipboard components. This bill will strengthen the 
industrial base, level the playing field for suppliers, and 
grow a--skilled manufacturing jobs. But, it will also help 
secure defense supply chains at a time of increased global 
insecurity and instability by eliminating U.S. reliance on 
foreign corporations and components.
    Can both of you provide your views on the importance of Buy 
America policies to our defense industrial base, the national 
security implications of not having reliable access to critical 
supplies in the--and after-market support, and the dangers 
posed by counterfeit parts and adversarial nations using DOD 
supply chains for industrial espionage and technology transfer?
    Secretary Mattis. Yes, Senator. The defense industrial base 
has shrunk over the years since the Cold War. We all recognize 
it. But, there comes a point where preservation of it is 
critical. You cannot barter it away there is no more room to 
reduce it at a certain point. And I think the Made in America 
effort is a very valid national security concern. Now, at the 
same time, if there's allies that are as committed to defense 
of democracy and we're in alliances with them, there may be 
some room for back-and-forth. We've done that before. As you 
know, the Marine Harrier jet came out of England when it was 
first started. But, I think, too, the critical supplies and 
certainly having faulty or counterfeit parts, these two 
actually go hand-in-hand, these two issues. And this is why I 
think the earlier question about, how do we protect 
intellectual property? How do we look at what other nations 
should be allowed to invest in? I think it's an appropriate 
issue for the Congress to take in hand, and I think it's 
appropriate for you to ask us at what point do we see problems, 
strategic vulnerabilities. And we can provide that information 
to you. Again, Under Secretary Ellen Lord is leading this 
effort, but we've got a lot of other people helping. And she 
has some members of her staff who do nothing but this issue, so 
we can give any kind of further detail. But, I would just say, 
I'm completely aligned with the themes, as you outlined them.
    Senator Baldwin. Thank you.
    General Dunford.
    General Dunford. Senator, in my opening remarks, I spoke 
about competitive advantage, and I said that I have confidence 
today that we have a competitive advantage over any potential 
adversary. And I don't think you can understate the importance 
of the industrial base in the United States to that competitive 
advantage. So, I think what you're alluding to are both the 
qualitative implications of leveraging the U.S. industrial 
base--we are always in front of everybody else; in part, 
because of our education system and the quality of our 
workers--and then the other important point you pointed out was 
the security. Obviously our relationships with nations that 
fall under laws within the United States makes it much easier 
for us to protect intellectual property and make sure that we 
do maintain that competitive advantage.
    Senator Baldwin. Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Shelby. Mr. Secretary and General Dunford, we 
appreciate your appearance before the committee today. Other 
Senators may submit additional written questions to you. And if 
they do, I hope you will be able to respond to them within 30 
days.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Questions Submitted to Hon. James N. Mattis
             Questions Submitted by Senator Mitch McConnell
         support for fort campbell servicemembers and families
    Question. As you know, servicemembers at Fort Campbell have been on 
a near-constant cycle of deployment in support of the Global War on 
Terror, and many servicemembers at Fort Campbell have been deployed 
multiple times. It is critical that in these circumstances DoD provide 
adequate support for spouses and families of servicemembers. What 
resources, specifically, does DoD provide to support spouses and 
families of servicemembers at Fort Campbell, as well as other military 
installations, while servicemembers are deployed and when they return 
home? Additionally, what programs are in place within DoD to help 
servicemembers successfully transition back into civilian life? Does 
DoD require additional authority from Congress to help support military 
spouses and families?
    Answer. The Department remains committed to ensuring that our 
military families are prepared for the challenges that are associated 
with military life. In order for our Service members to be mission 
ready, our families must be ready as well. Each installation has 
numerous support systems in place to support military spouses and their 
families. These support systems include Service member and Family 
Support Centers that provide the best local, face-to-face support. The 
DoD augments these support systems through programs such as Military 
OneSource (MOS), the Non-Medical Counseling (NMC) program, the Military 
Family Life Consultants (MFLC) and the Spouse Education and Career 
Opportunities program (SECO). DoD provides 24/7 support to spouses and 
families of Service members at Fort Campbell, and all military 
installations, through MOS. MOS is a DoD-funded program that is both a 
call center and a website providing comprehensive information, 
resources and assistance on every aspect of military life, including 
transitioning from the military. DoD also provides confidential non-
medical counseling through the Military and Family Life Counseling 
Program, whose military and family life counselors and child and youth 
behavioral counselors provide in-person support at installation family 
support centers, child development centers, schools and within military 
units. Additionally, DoD offers education and career support to 
military spouses through SECO. This program provides military spouses 
with expert education and career guidance and offers comprehensive 
information, tools and resources to support career exploration, 
education, training, and licensing, employment readiness, and career 
connections. The virtually-delivered SECO augments the efforts of the 
Military Services' Employment Readiness Programs which provide face-to-
face support to military spouses on installations around the world. 
SECO is accessed through the 24/7/365 Service member and family support 
website, Military One Source (www.militaryonesource.mil). The 
Department of Defense also has several other programs in place to 
assist Service members, to include the National Guard, Reservists, and 
their families with a successful transition into civilian life. Three 
programs--the Transition Assistance Program (TAP), the Office of 
Reintegration Program's Yellow Ribbon Reintegration Program (YRRP), and 
the Employer Support of the Guard and Reserve (ESGR)--provide programs, 
resources and services to those separating, retiring, or being released 
from Active Duty. TAP provides information and training to ensure 
Service members leaving Active Duty are prepared for their next step in 
life, whether to pursue additional education, find employment, or start 
their own business. All transitioning Service members must participate 
in the TAP. YRRP provides resources for National Guard and Reserve 
Service members that assist them in their reintegration from serving in 
a Title 10, Active Duty status, back to their traditional drilling 
status, their families, civilian employment, and their communities. 
YRRP works with the Service and family member throughout the entire 
deployment cycle. ESGR works to build supportive civilian work 
environments for Reserve Component (RC) members and transitioning 
Active Component Service members. Through employer outreach at the 
national, State, and local level, ESGR educates employers about the 
knowledge, skills, and character traits that make RC members and 
veterans the best hires.
                     fort campbell aviation assets
    Question. I understand that Fort Campbell currently houses a third 
of the aviation assets that it had 10 years ago. What plans does DoD 
have to help restore aviation capability to the 101st Airborne 
Division--particularly its ability to move a brigade combat team during 
one period of darkness--and ensure that the units at Fort Campbell can 
safely and adequately execute air assault missions?
    Answer. The 101st Airborne Division has approximately 50 percent of 
the aviation assets it had 10 years ago. At this time the Army has no 
formal plans to add aviation capability to the 101st Airborne Division; 
however, if required to conduct a brigade combat team level air 
assault, the Army would task organize the required aviation resources 
under the 101st Airborne Division to accomplish the mission. The Army 
continually evaluates required capabilities, force structure, and 
training to ensure it appropriately contributes to the National Defense 
Strategy and can meet combatant commander requirements. Through Army 
analysis, if an increased air assault capability is required, the 
appropriate force structure will be built to meet this requirement.
                     fort campbell facility updates
    Question. Given the ongoing sacrifices that servicemembers 
stationed at Fort Campbell make in support of our Nation's defense, it 
is important their facilities are modern, safe, and efficient. I was 
encouraged to see funding requested in the President's fiscal year 2019 
budget for a number of Fort Campbell facilities, including the Vehicle 
Maintenance Shop, Special Operations Forces facilities, and the Fort 
Campbell Middle School, however, the need for further facility upgrades 
remains. What plans does DoD have to update other Fort Campbell 
facilities, including, but not limited to, the Logistics Readiness 
Center, the Sabre Army Airfield access control point, and the Korean 
War-era barracks? Does DoD have any plans to expand Division 
headquarters to enable a Joint Operations Center?
    Answer. There is currently $63.4 million programmed across the 
Future Years Defense Program for military construction at Fort 
Campbell:
  --PN 69347--General Purpose Maintenance Shop, $53.0 million;
  --PN 71725--Automated Infantry Platoon Battle Course, $7.1 million; 
        and
  --PN 78217--Easements, Purchased, $3.2 million.
    The other projects you mention will compete with other Army 
Military Construction requirements during the Army's annual Integrated 
Planning Team prioritization process. Furthermore, in addition to the 
normal operation and maintenance allocation for Fort Campbell, $5.4 
million in funding has been approved for high priority infrastructure 
improvements in fiscal year 2018.
                  fort knox ireland army health clinic
    Question. Please provide an update on the new Ireland Army Health 
Clinic, which will replace the Ireland Army Community Hospital at Fort 
Knox. In past communications with DoD about this facility, it was 
communicated to my office that this facility would serve the active 
duty and retiree populations in the Fort Knox community. As this new 
facility is stood up, will you please share how DoD intends to keep its 
commitment to serving the health needs of our servicemembers, their 
families, and military retirees of the Fort Knox community? Will you 
also share what expansion opportunities the facility may be able to 
pursue in order to help ensure the health needs of these populations 
are adequately met?
    Answer. Occupation of the new Ireland Army Health Clinic remains on 
track for January 2020. This 102,000 sf. facility replaces the existing 
464,000 sf. facility scheduled for demolition upon completion. The 
current facility supports an enrolled population of 20,361; down from a 
high of 35,693 in 2010 when Ft. Knox was home to the Armor School. The 
fiscal year 2016 NDAA (Section 2407) authorized the 102,000 sf 
ambulatory care clinic to replace the existing hospital; the new 
facility will only have the enrollment capacity for the Active Duty and 
Active Duty Family Member populations, approximately 12,000 
beneficiaries. In concert with Ireland's network partners, enrollment 
for retiree beneficiaries will transfer to a network facility that best 
supports the beneficiary's needs. Recognizing the sensitivity of 
acquiring a new healthcare provider, the Ireland leadership established 
the Beneficiary Transition Cell (BTC). The BTC ensures patient safety 
and quality of care, as they actively assist retiree beneficiaries 
through the transfer process. Following a clinical review of the 
beneficiary's medical record, the BTC: identifies local network 
providers that best align to the needs of the patient; assists in 
scheduling initial appointments; facilitates medical record transfers; 
and, conducts periodic follow-ups assessing quality and access 
standards. Throughout the process, the BTC reminds beneficiaries that 
they will have access to Ireland's ancillary services such as lab, 
pharmacy and radiology on a space available basis. Adjacent to the new 
Ireland facility, projected to open in November of 2019, the VA will 
construct an 18,000 sf. Community Based Outpatient Clinic. As many as 
2,500 of Ireland's retirees qualify for enrollment into this new VA 
facility. The commander is currently exploring agreement opportunities 
whereby Ireland provides the VA clinical space within its existing 
facility in order to establish the capability and capacity that will 
eventually move into the new VA facility. Overall, the resultant 
capacity meets the needs of the current and projected beneficiary 
population in the Fort Knox area. Expansion of the new facility, which 
would require legislative authorization, would not be efficient. 
Expansion into existing structures would prove costly and potentially 
unsafe. With this in mind, we have every intent to honor our commitment 
to all beneficiaries today, tomorrow and well into the future for the 
Fort Knox community.
                    fort knox energy savings program
    Question. Fort Knox maintains a highly-recognized energy savings 
program that allows the post to manage energy expenditures and be 
energy self-sufficient for up to 90 days. Will you please provide an 
update on Fort Knox's extraction, use, and storage of natural gas under 
the installation and advise on any potential barriers the post may face 
in continuing or expanding this successful program?
    Answer. Extraction of Fort Knox's known natural gas reserves 
dramatically increase the installation's energy security and resilience 
while reducing its cost of energy. The Army's contract to produce 
natural gas could be halted before its expiration date as the 
Department of the Interior has questioned the Army's authority to 
extract natural gas at Fort Knox. The Army remains optimistic that the 
Fort Knox energy savings program will continue through a long-term 
administrative or legislative solution.
 chemical agent and munitions destruction at the blue grass army depot
    Question. Will you please provide an update on the chemical agent 
and munitions destruction activities at the Blue Grass Army Depot 
(BGAD) as well as a timeline for the project's completion? What steps 
are being taken by DoD to ensure the safety of facility personnel and 
Madison County residents during testing and operation of the 
facilities?
    Answer. The Blue Grass Chemical Agent-Destruction Pilot Plant 
(BGCAPP) will destroy 523 tons of chemical nerve and mustard agents in 
101,764 M55 rockets and 155mm and 8-inch projectiles currently stored 
at Blue Grass Army Depot (BGAD). The nerve agent munitions will be 
destroyed using neutralization. An explosive destruction technology, a 
Static Detonation Chamber (SDC), will augment the main plant by 
destroying approximately 15,000 mustard-filled 155mm munitions, which 
are unsuited for main plant processing. Construction of the BGCAPP main 
plant was substantially completed in July 2015. The systemization 
(testing) phase is ongoing. Both the main plant and SDC are expected to 
start operations in 2019 and complete operations by December 31, 2023. 
The Chemical Stockpile Emergency Preparedness Program (CSEPP) was 
established to provide for the protection of the general public in the 
event of a chemical weapons stockpile accident. The Army CSEPP office 
works in partnership with: the Department of Homeland Security/Federal 
Emergency Management Agency (FEMA), the Commonwealth of Kentucky, the 
BGAD, the Blue Grass Chemical Activity (BGCA) and the ten counties 
surrounding BGAD, since 1989 to enhance the emergency preparedness and 
capability of the communities and the depot surrounding the Kentucky 
chemical weapons storage site. In addition, FEMA, the Army CSEPP 
Office, Commonwealth of Kentucky, BGAD, BGCA and the ten counties 
surrounding BGAD formed an Integrated Process Team (IPT) that meets 
face-to-face every other month and has conference calls on the 
alternating month. The IPT works to develop and execute CSEPP 
requirements, priorities, and coordinated plans. CSEPP support provided 
to the communities and the depot include: technical expertise, alert 
and notification equipment, coordinated plans, enhanced communication, 
training, and annual joint exercises. To date, CSEPP funding totaling 
$258.48 million has been provided through FEMA grants to the 
Commonwealth of Kentucky.
                blue grass army depot (bgad) operations
    Question. Will you please provide an update on all of the 
traditional depot operations of BGAD, including storage and maintenance 
of conventional munitions and chemical defense equipment? I have heard 
reports that BGAD may transition to an archive depot in fiscal year 
2019 to store ammunition. Will you please provide information on this 
decision and what it means for the workforce and current operations at 
BGAD? What are DoD's long-term plans for the conventional operations of 
BGAD, and does DoD have any plans to bring new operations to the 
facility?
    Answer. The decision was made to convert BGAD to a strategic 
reserve munitions site. The term ``archive site,'' used in earlier 
briefings and BGAD town halls, did not depict the accurate nature of 
the mission and therefore, BGAD will be termed a ``Strategic Reserve 
site.'' The permanent workforce will remain stable in the foreseeable 
future, and there will not be a RIF as a result of this conversion. The 
term and temp employees will serve their contract times based on 
current and projected workloads. The decision was made based upon a 
process model that AMC used to determine the most efficient and 
effective way to deliver munitions to the warfighter. Variables in the 
model included transportation economies, outload and storage 
requirements, critical/unique production capabilities and 
demilitarization capabilities. Missions that will continue at BGAD will 
include storing/inspecting/maintaining conventional ammunition, storage 
and outload of non-standard ammunition for special operations forces, 
chemical defense equipment, 105mm X-ray, 30 mm Air Force can repair, 
confidence clip, International Organization for Standardization (ISO) 
container repair, force provider care of supplies in storage (COSIS), 
and ammunition demilitarization. BGAD will continue to seek public-
private partnerships (PPPs) for the installation. BGAD has many factors 
for attracting PPPs--it's a secure facility, well-maintained and near 
transportation infrastructure/hubs.
                                opioids
    Question. As you may be aware, the opioid and heroin epidemics have 
hit Kentucky particularly hard. What programs have been implemented by 
DoD to treat substance use disorders, and particularly opioid abuse, in 
the military? What programs have been most effective in providing 
successful treatment to servicemembers?
    Answer. DoD's opioid safety strategy acknowledges the critical role 
that quality pain management plays in addressing one of the major root 
causes of the national opioid epidemic. To combat opioid overuse and 
misuse, DoD is addressing the problem through implementation of 
improved pain management strategies, efforts to improve DoD prescriber 
and beneficiary education, prescription monitoring and safeguards, and 
substance use disorders treatment and emergency response systems. In 
taking comprehensive steps to reduce addiction, DoD has found these 
efforts effective. We have improved controlled substance prescriber 
safety training: over 80 percent of DoD-controlled substance 
prescribers have now completed our mandatory training. We have also 
partnered with the Department of Veterans Affairs to improve how well 
Federal clinicians understand and address pain management by adopting 
the stepped care model. In 2016, we codified the Drug Take Back Program 
in policy, with the intention to remove all addictive medications from 
circulation that have potential use for suicide or suicide attempts, 
misuse, diversion, or accidental poisoning. Also, DoD published a 
change to TRICARE regulations to greatly expand coverage for Medication 
Assisted Treatment (MAT) for Opioid Use Disorder.
                             sexual assault
    Question. What action is DoD taking to prevent sexual assault and 
misconduct in the military? What systems are in place to encourage 
reporting of sexual assault and to ensure that victims do not face 
retaliation for reporting?
    Answer. Reporting of sexual assaults among active duty Service 
members increased by nearly 10 percent in fiscal year 2017. This 
increase in reporting is an indicator that Service members are gaining 
confidence in the Department's sexual assault response system. 
Conversely, between fiscal year 2012 and fiscal year 2016 the estimated 
prevalence (occurrence of the crime) of sexual assault showed a 
decrease by an estimated 50 percent for men and 30 percent for women. 
Taken together, the increase in reporting and the decrease in 
prevalence of sexual assaults provides substantial evidence that the 
Department is making progress to eliminate this crime from the 
military. Further, the Department provides high-quality services and 
support to military victims of sexual assault. Our new and novel 
programs, such as the Special Victims Counsel/Victims Legal Counsel 
Programs, provide victims with personal legal counsel to ensure that 
military survivors receive the protections to which they are entitled, 
the privacy they desire, and the care they deserve. The Department 
continues to emphasize the following initiatives to further its sexual 
assault prevention and response efforts in support of the needs of 
Service members: Focus our prevention efforts through the development 
of the Prevention Plan of Action; Expand response initiatives by 
implementing the Plan to Prevent and Respond to the Sexual Assault of 
Military Men; Execute the tasks outlined in the DoD Retaliation 
Prevention and Response Strategy Implementation Plan; and Update the 
2018 Workplace and Gender Relations Survey of Active Component Members. 
No one should fear retaliation for reporting a crime. Our Retaliation 
Prevention and Response Strategy standardizes protections for Service 
members, witnesses, Sexual Assault Response Coordinators, victim 
advocates, and other first responders who perceive retaliation. The 
Retaliation Prevention and Response Strategy improves data collection 
and further empowers response personnel to assist with cases. We've 
been working with the Military Services to implement the Department 
strategy. We will continue to work with the DoD Inspector General and 
the Military Services to effectively implement these reforms, and 
ensure that everyone who wishes to report a crime is able to do so 
without fear of reprisal or any other form of retaliatory behavior.
                             mental health
    Question. Mental health issues such as post-traumatic stress 
disorder (PTSD) and traumatic brain injury (TBI) continue to affect a 
large number of our Nation's servicemembers. What programs are in place 
to assist and support servicemembers with these issues? Is DoD focusing 
on strategies for prevention as well as treatment? Are there any 
additional resources or authorities that DoD needs from Congress in 
order to provide effective treatment and care to servicemembers with 
mental health issues?
    Answer. The Department of Defense (DoD) is committed to providing 
Service members and their families access to quality mental healthcare, 
as well as resources and programs for all mental health conditions, 
including post-traumatic stress disorder (PTSD) and traumatic brain 
injury (TBI). Current DoD efforts address mental health issues across 
the continuum of care, from prevention to treatment, and ensure care is 
available and accessible to all service members and their families--
even in rural and remote locations. DoD's combat and operational stress 
control programs provide ongoing health promotion and stress reduction 
training. DoD funds research along the continuum of care for mental 
health issues, including TBI and PTSD. Since 9/11, with the support of 
Congress, DoD has roughly tripled the mental healthcare provided to 
service members and their families. DoD focuses on the prevention and 
treatment of TBI. DoD conducts prevention campaigns targeted to promote 
education, awareness, and reduction of TBI. Public awareness and 
prevention campaigns, such as the Real Warriors Campaign, serve to 
increase psychological health literacy and reduce stigma. Critical to 
intervention efforts is the early identification of service members 
with suspected mild TBI. DoD's mandatory screening programs are 
triggered by a Service member's involvement in a potentially concussive 
event. Continued support from Congress enables DoD to provide effective 
treatment for and care of service members with mental health issues and 
TBI. Such support comes from funding evidenced-based research and 
continuing the training and education of individuals involved in care 
of service members with mental health issues, including TBI and PTSD.
                         military commissaries
    Question. On April 27, 2018, DoD informed Congress that it had 
approved the sale of beer and wine in military commissaries, but did 
not include the sale of spirits. Will you please provide additional 
information on the beverage alcohol sale policy on military 
installations prior to this announcement, and the decision to exclude 
the sale of spirits at commissaries?
    Answer. Prior to the decision to sell beer and wine in military 
commissaries, military exchanges managed the sale of packaged alcoholic 
beverages on military installations, and military exchanges will 
continue to be the primary outlet for the full selection of alcoholic 
beverages. DoDI 1330.21 ``Armed Services Exchange Regulations,'' 
governs the sale of alcoholic beverages on DoD installations and 
supports the Department's alcohol deglamorization policies, programs, 
and procedures for the responsible use of alcohol. The DoDI addresses 
patron age requirements for purchase, labeling requirements, 
establishment of package stores on the installation, advertisement, 
promotions, requirements for purchase, and the pricing of alcoholic 
beverages. In addition, the Military Departments, Services, and 
installation commanders can, and often do, impose additional 
restrictions on the sale of packaged alcoholic beverages, to include 
location, hours of operations, and placement within the stores. Such 
restrictions would also apply to the sale of beer and wine in 
commissary stores. The Department took a very conservative and measured 
approach when deciding to allow beer and wine sales in commissary 
stores. The decision to sell beer and wine in commissary stores was 
predicated on commissary stores selling a very limited selection of 
these products to: avoid displacement of primary grocery items; provide 
customers a shopping experience similar to commercial grocery stores; 
and align with the Department's alcohol deglamorization programs. Since 
commissary store display space is very limited, and because beer and 
wine products are commonly available in commercial grocery stores in 
nearly every State, the Department determined that limiting the product 
selection to a small number of beer and wine products would be 
appropriate. The Department's decision was not intended to replace the 
exchange package store as the primary location for a full selection of 
alcoholic beverage sales (to include distilled spirits) nor adversely 
impact military exchange earnings which financially support Service 
morale, welfare, and recreation programs. For these reasons, the 
Department decided against authorizing the sale of distilled spirits in 
commissary stores.
                                 ______
                                 
             Questions Submitted by Senator Lamar Alexander
    defense logistics agency's interpretation of the berry amendment
    Question. Dunlap Industries is a small subprime defense contractor 
based in Tennessee that has been manufacturing zippers and zipper 
components for Department of Defense since 2000. The Defense Logistics 
Agency (DLA) determined that Dunlap Industries is in violation of the 
Berry Amendment because they source their zipper sub-components from 
overseas. Dunlap Industries is also in a Historically Underutilized 
Business Zone (HUB Zone) outside Chattanooga. My staff and I believe 
this interpretation is beyond the Congressional intent of the Berry 
Amendment, and DLA's interpretation will cause Dunlap to significantly 
reduce their business. Senator Corker and I sent a letter to DLA 
regarding Dunlap Industries last year, but that did not resolve the 
issue. We are asking the Under Secretary for Acquisition and 
Sustainment to clarify this matter. Secretary Mattis will you: Ask 
Under Secretary Lord and her staff to work with mine and Senator 
Corker's staff to clarify the regulations for DLA? If legislative 
review of the Berry Amendment is necessary, are you willing to work 
with my staff to address outstanding issues?
    Answer. Senator Alexander stated he plans to submit QFR requesting 
DoD to review Tennessee small business (Dunlap Industries) that has 
been found in violation of Berry amendment for sourcing zippers from 
overseas location. Dunlap Industries (Dunlap) is a HUB-zone small 
business located in Dunlap, TN. Dunlap has 90 employees and has 
manufactured zippers since 1966. Dunlap is a supplier of zippers; it is 
not a prime contractor to DLA Troop Support. Approximately half of 
Dunlap's sales are for Government use. In August of 2017, DLA Troop 
Support received information from a Department of Justice contracting 
officer of a potential Berry Amendment violation on Dunlap's zippers. 
Upon review, DLA Troop Support determined that Dunlap's zippers were 
not compliant with the Berry Amendment because not all of the zipper's 
components were being produced domestically. Dunlap believed that the 
Berry Amendment applied only to the assembly or manufacturing of a 
textile component; Dunlap did not consider the Berry Amendment to apply 
to the components of a textile component, such as a slide fastener. 
Based on that erroneous understanding, Dunlap provided Certificates of 
Conformance to the prime contractors, who were not aware that Dunlap's 
zippers were non-conforming. DLA Troop Support contacted its prime 
contractors and identified 16 contracts to include items such as Army 
Combat Uniforms and physical fitness uniforms as containing Dunlap 
zippers. All vendors have transitioned over to Berry Amendment-
compliant zippers. Dunlap is not currently supplying zippers to DLA 
prime contractors because it has not yet transitioned its production to 
be compliant with the Berry Amendment.
Berry Amendment Interpretation
    The Berry Amendment requires that all clothing purchased by the 
Department of Defense be ``. . . produced in the United States.'' As a 
result of an amendment to the Berry Amendment in Section 833 of the 
National Defense Authorization Act for fiscal year 2006, Public Law 
109-163, this requirement extends to ``clothing and the materials and 
components thereof.'' For the purpose of the Berry Amendment, DLA 
considers zippers to be components of clothing items. In the DFARS 
implementation of the Berry Amendment, the term ``component'' is 
defined as ``any item supplied to the Government as part of an end 
product or of another component.'' This definition is included in 
contracts for Berry-covered items, and has been in effect since 2002. 
In accordance with this DoD regulation, DLA interprets the Berry 
Amendment to require that metallic and non-metallic components of the 
zippers be formed, forged, stamped or cast and assembled in the United 
States. This interpretation is consistent with both DoD regulations and 
public DPAP guidance on the application of the Berry Amendment.
Engagement With Dunlap/Ensuring Compliance
    DLA Troop Support conducted numerous engagements with Dunlap in an 
effort to address the issue of compliance with the Berry Amendment, 
including a meeting with Dunlap's management on October 27, 2017, and 
providing written responses to questions. DLA Troop Support conducted 
site visits at two other domestic zipper manufacturers, YKK (Marietta, 
GA) and Ideal Fastener Corp (Oxford, NC). Following a review of YKK and 
Ideal's manufacturing process and invoices, we determined that all 
components of zippers being supplied to DLA contracts contained 
domestic components and were compliant.
Conference Call With Congressional Staffers
    On April 19th, DLA conducted a conference call with Staffers from 
Senator Corker, Senator Alexander and Rep. DesJarlais. The Staffers 
stated that they may request that Ms. Lord conduct a review of the 
Department's interpretation of the Berry Amendment because the Staffers 
believe that DLA's position that the statute applies to subcomponents 
is unduly restrictive and is adversely impacting Dunlap Industries, 
which had supplied zippers to the Government for many years.
                                 ______
                                 
            Questions Submitted by Senator Susan M. Collins
                   public shipyard optimization plan
    Question. Maine is home to Portsmouth Naval Shipyard, a public 
shipyard that has been called the gold standard by which the government 
should measure shipyards due to its efficient, high-quality work, for 
more than 200 years. At Portsmouth Naval Shipyard and the other three 
public shipyards, dry dock infrastructure and modernization 
improvements are needed to conduct the ship repair availabilities 
necessary to improve and maintain fleet readiness over the next 30 
years. The Navy's $21 billion Shipyard Optimization Plan is very much a 
step in the right direction, and I am particularly supportive of the 
more mature Dry Dock Revitalization portion of the plan, which would 
restore 67 of 68 deferred maintenance availabilities over 20 years--a 
great return on investment for the Navy. I was pleased to see that the 
fiscal year 2019 budget request includes $110 million for a Dry Dock 
Superflood Basin improvement at Portsmouth, which was called for in the 
Optimization Plan. How will the Department prioritize public shipyard 
infrastructure in order to make sure there is not a shortfall in 
maintenance capacity? How is the Department analyzing and prioritizing 
its public shipyard infrastructure and dry dock capacity given that the 
size of the fleet may be larger than the plan's initial assumptions?
    Answer. The Fleet and the Naval Shipyards (NSY) work together to 
plan each availability and develop a schedule that is closely tracked. 
Infrastructure projects are timed between availabilities and 
prioritized to address the maintenance capabilities needed in time for 
the work. This planning process will encompass shipyard optimization 
investments to ensure that the Navy continues to execute availabilities 
successfully with minimal disruption. Prioritization of projects for 
the optimization of the shipyards will take into account the mission 
need and timing of fleet support requirements. The force structure 
increase to 355 ships resulting in additional submarines and carriers 
will continuously be evaluated as those requirements are defined 
against the available capacity within the naval shipyards.
               european deterrence initiative/montenegro
    Question. I was pleased to see Montenegro become the 29th member of 
the NATO alliance last summer. The Maine National Guard has been a 
long-time partner of Montenegro through the Guard's State Partnership 
Program. I am extremely proud of the work performed by all of the Maine 
Guardsmen as part of that important collaboration and I hope DoD 
continues to see the value in the Guard's Partnership Program. The 
DoD's fiscal year 2019 budget submission requests $6.5 billion in 
European Deterrence Initiative (EDI) funding, a significant increase 
from the fiscal year 2018 request of $4.78 billion. How will the 
funding in the budget request for EDI ensure our allies, especially 
smaller allies like Montenegro, have the confidence to stand against 
Russian aggression, both now and in the future?
    Answer. The European Deterrence Initiative (EDI) is a distinctive 
set of activities focused primarily on increasing the capability and 
readiness of U.S. forces in Europe; the initiative also benefits the 
capability of Allies to have the confidence to stand against Russian 
aggression. The purpose of the 2019 EDI request is to expand the 
prepositioning of stocks and munitions in theater; improve key 
infrastructure for theater logistics; enhance the integrated air and 
missile defense system; and expand exercises and training that increase 
our air, sea, and land forces' responsiveness and interoperability with 
Allied forces. EDI support to U.S. forces in Europe, and to combined 
training and theater security cooperation with Allies and partners, 
simultaneously increases U.S. European Command's warfighting 
capabilities as well as those of our Allies. This ultimately 
demonstrates the strong shared defense commitment and capability of all 
NATO Allies. The targeted upgrades to host nation facilities and 
training sites completed with EDI funds, which are accomplished in 
close coordination with host-nation Allies, benefit both nations while 
making U.S. operations more efficient and reducing costs in the long-
term. Moreover, elements of EDI funding help NATO Allies and partners 
to build capacity for their own defense and regional crisis responses. 
In this respect, EDI is complemented by various assistance programs and 
authorities that help partners and smaller Allies stand against Russian 
aggression. Ultimately, the ability of U.S. and Allied forces to act 
together in the European theater is vital in order to deter Russia.
             precision guided missile stockpiles and israel
    Question. Earlier this week, the Israel Defense Forces (IDF) opened 
its shelters in the north of Israel in anticipation of a possible 
Iranian attack. I am proud of the work this Committee has done to 
support Israel's missile defense programs, which provide Israel with 
crucial defense capabilities against such attacks. These defenses, 
however, are not sufficient to fully defend Israel from the thousands 
of rockets and missiles which can be launched against her. Israel also 
requires significant capability in the form of precision guided 
munitions to strike threats before they are launched. Given the more 
than 100,000 rockets and missiles deployed against Israel in Lebanon 
and Syria, do you believe that the United States should consider 
helping Israel augment its stocks? Should we, for example, consider 
positioning U.S. precision guided munitions in our War Reserves Stock 
Allies program in Israel?
    Answer. Classified.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
         svlas report--removal of the phrase ``climate change''
    Question. It is a known fact that global temperatures are warming; 
every day I see or hear about the impact that these changes have on my 
home State of Alaska. In particular, the U.S. Arctic has been 
experiencing the impacts of climate change at an alarming rate. Record 
low extents of Arctic sea ice over the past decade have focused 
national attention on links to global climate change and projected ice-
free seasons in the U.S. Arctic. These changes in climate threaten 
national security in the U.S. Arctic, and drastically shape the 
environment in which the DoD operates and the missions they are 
required to do. Climate change is a serious problem and, in order for 
our Nation to prepare for and respond to these changes, we have to be 
willing to openly discuss its impact. This is why I am concerned with 
the DoD's decision to remove references to the phrase climate change in 
its January 2018 ``Climate-Related Risk to DoD Infrastructure Initial 
Vulnerability Assessment Survey (SLVAS) Report''. The phrase climate 
change was not mentioned throughout the SLVAS Report. Furthermore the 
Arctic, the region many experts might argue is the most impacted by 
climate change, was only mentioned twice. My concern is that, by 
excluding the phrase climate change and only briefly mentioning the 
Arctic in this report, the DoD's SLVAS was unable to meet its 
objectives in Alaska-- assess coastal erosion and potential flooding 
risks in the siting of proposed military construction projects. What 
was the intent behind eliminating the phrase climate change and why was 
the U.S. Arctic only briefly mentioned in the SVLAS Report? How is the 
SVLAS Report able to meet its objective of assessing DoD installation 
vulnerabilities to climate-related security risks without acknowledging 
climate change?
    Answer. The January 2018 Screening Level Vulnerability Assessment 
Survey (SLVAS) Report met the objectives required by Congress. 
Specifically, the SLVAS provided an initial, qualitative assessment of 
vulnerabilities to climate-related risks including flooding, wind, 
temperature, drought, wildfires, etc. While the Services continue to 
build upon and use the SLVAS data, the survey itself was intended as an 
initial look relying on data of documented events for each climate 
category without speculation on future events. Since the scope of the 
survey included over 3,500 primary installations worldwide, we reported 
on findings in general categories of environmental effects on military 
installations while highlighting specific cases, to include Alaska and 
the Arctic. In the end, our policy on climate impacts, is clear: 
climate and other environmental effects are a national security issue 
and we are taking action to ensure readiness through infrastructure 
resiliency, addressing identified vulnerabilities project-by-project.
            svlas report--to evaluate climate related risks
    Question. As we continue to invest in the resources needed to grow 
the military's strategic presence in Alaska and the U.S. Arctic, it is 
important that we properly mitigate the risks associated with climate 
to the DoD mission and its installations. It is my understanding that 
the DoD looks at climate change through the lens of its missions, to 
better understand how changes in climate could impact national 
security. How can the SVLAS Report properly evaluate the security 
implications of climate-related risks to proposed military construction 
projects in Alaska when it fails to acknowledge the changes to Alaska 
and the Arctic brought about by warming temperatures?
    Answer. The January 2018 Screening Level Vulnerability Assessment 
Survey (SLVAS) Report provided an initial, qualitative assessment based 
on the impacts often associated with severe weather events (flooding, 
wind, temperature, drought, wildfires). The survey was completed in 
2014-2015 for all of the Department's over 3,500 primary installations 
and associated sites worldwide, including sites in Alaska. Our report 
relies on data of documented events for each climate category. Our 
policy on climate impacts, including those in the Arctic, remains 
clear: climate and other environmental effects are a national security 
issue and we are taking action to ensure readiness through 
infrastructure resiliency, addressing identified vulnerabilities 
project-by-project.
                                 ______
                                 
               Question Submitted by Senator Steve Daines
                        national guard readiness
    Question. Earlier this year the Department of Defense released its 
updated National Defense Strategy, which acknowledges the reemergence 
of long-term strategic competition. After years of focused attention on 
conflicts abroad, this strategy is distinct in that it prioritizes 
defense of the homeland. Secretary Mattis, defense of the homeland is a 
core competency for our National Guard. What measures is the Department 
taking to address critical readiness shortfalls in our Guard, such as 
the UH-60 Blackhawk and the AH-64 Apache.
    Answer. The Army has discussed this issue with the National Guard 
and believes that current quantities are sufficient and thus there 
aren't any critical shortfalls. The fiscal year 2018 President's Budget 
requested funding for both the UH-60 Blackhawk and AH-64 Apache. UH:60 
Blackhawk--PB requested 48 aircraft for $938 million; Congress added 8 
more for $108 million. AH-64 Apache--PB requested 63 aircraft at $374 
million; Congress added 17 more at $577 million. The fiscal year 2019 
PB requested 56 Blackhawks at $1.2 billion and $80 Apaches at $1.9 
billion.
                                 ______
                                 
               Questions Submitted by Senator John Hoeven
                uss frank e. evans, vietnam war memorial
    Question. On June 3, 1969, 74 sailors serving in the Vietnam War 
lost their lives in a tragic accident between the USS Frank E. Evans 
and the HMAS Melbourne during a joint exercise in the South China Sea. 
Previous administrations have concluded that because the accident 
occurred outside the Vietnam combat zone, the 74 sailors cannot be 
listed on the Vietnam Wall. Does the current administration have 
thoughts on appropriate ways to honor the service of these heroes, 
including whether the names of these individuals should be added to the 
Wall?
    Answer. The Vietnam Veterans Memorial Wall (The Wall) was built by 
a private foundation to honor Service members of the Vietnam War who 
died during the conflict. It is not a DoD Memorial. The 74 Sailors are 
not eligible for inclusion on The Wall per DoDI 1300.18, ``Department 
of Defense (DoD) Personnel Casualty Matters Policies, and Procedures,'' 
which states that the Service member must have died in the defined 
combat zone or died as a result of wounds (combat or hostile-related) 
sustained in the combat zone. This policy is consistent with DoD's 
longstanding doctrine--dating back to World War II--for defining a 
combat casualty for many purposes (e.g., awards, benefits). In 2016, 
the Department completed an extensive review of the tragic EVANS 
incident to determine the best options for memorializing the 74 
crewmembers; one option included inscription of their names on The 
Wall. The Department concluded that the most appropriate way to 
memorialize these Sailors and their service was to inscribe their names 
on a panel in the Education Center approved for construction at or near 
The Wall. The Department of Interior supports this decision. This 
decision was made for the following reasons: The EVANS was not 
operating in the defined combat zone of Vietnam at the time of the 
accident; thus, her fallen Sailors do not meet the established criteria 
for the inscription on The Wall. A review of historical records 
indicated 16 EVANS crewmembers never served in the defined combat zone 
during any portion of their careers. The lack of available space 
remaining on The Wall renders it impossible to inscribe even the 58 
EVANS fallen who had previously served in the defined combat zone 
without modifying the approved nomenclature for inscribing names on The 
Wall. Moreover, the names could not be placed chronologically on The 
Wall.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
                                 syria
    Question. When Syria was accused of using chemical weapons, the 
last Administration sought Congressional authorization for force, which 
it did not receive. The Trump Administration has now launched two 
rounds of missile strikes on Syrian government targets following 
chemical weapons allegations. Putting aside the question of whether 
this strategy is effective, I do not believe there is any clear 
authorization from Congress to conduct these strikes. The public 
rationale has been vague. My understanding is that there is an attempt 
to justify these actions legally, but it is classified. Do you believe 
that the Administration should make public its full legal justification 
for these acts of war? Does the Administration consider the use of 
chemical weapons anywhere in the world as a legal basis for U.S. 
military force without a vote in Congress?
    Answer. While the use of chemical weapons anywhere is a serious 
issue, it is not the sole consideration for the use of military force. 
The President may direct such military action pursuant to his Article 
II constitutional authority to conduct foreign relations and as 
Commander in Chief and Chief Executive. The President determined that 
the April 13, 2018, strikes against Syrian chemical weapons-related 
facilities were in support of the vital national security and foreign 
policy interests of the United States to promote the stability of the 
region, to deter the use and proliferation of chemical weapons, and to 
avert a worsening of the region's current humanitarian catastrophe. In 
response, the United States, the United Kingdom, and France conducted 
successful strikes on April 13, 2018, against Syrian chemical weapons-
related facilities to degrade the Syrian military's ability to conduct 
further chemical weapons attacks and to deter the Syrian government 
from any further use of chemical weapons. The President notified 
Congress of this military action on April 15, 2018, in an effort to 
keep the Congress fully informed, consistent with the War Powers 
Resolution (Public Law 93-148).
                        healthcare and education
    Question. The fiscal year 2019 budget is a strong budget for the 
military and for those serving in our armed forces today. But I believe 
the 2019 budget does not take the long view, and I am not talking 
specifically about the defense budget. The fiscal year 2019 budget 
includes cuts for a lot of programs that benefit American families, 
including some families serving in the military today. And perhaps more 
significantly, cuts to the families who will eventually need to provide 
the manpower to the Department of Defense. Mr. Secretary, you have 
written about the growing civilian/military divide. And there have been 
numerous studies about the dearth of Americans that now meet the 
minimum criteria for service in the armed forces. Even inside the 
Pentagon, there is increased discussion about the need for States to 
improve their education systems--because DoD sees an adverse impact on 
retention of military members with families when they are transferred 
to bases near failing schools. Are you concerned that cutting funds to 
healthcare and education may be undercutting the very base of the 
American military--its people?
    Answer. Military families bear an extraordinary burden for our 
freedom and the availability of quality education options and 
healthcare are critical quality of life factor. The Department of 
Defense is mindful of the importance of education and quality 
healthcare, and the roles they play in the stability, readiness, and 
retention of our Service members and their families and continues to 
ensure the availability of quality benefits for all military families, 
while balancing cost. Regarding education opportunities, the majority 
of military-connected children attend local public schools in the 
United States. As such, the school districts in these communities rely 
on the U.S. Department of Education Federal Impact Aid Program. Federal 
Impact Aid provides funding to school districts due to the loss of 
local tax revenue as a result of the presence of Federal tax-exempt 
land, such as military installations, and increased expenditures due to 
the enrollment of children from military families. School districts use 
Impact Aid to hire and train teachers and staff, invest in technology, 
purchase classroom equipment, and provide educational programming, 
including support for students with disabilities. Healthcare spending 
in the DoD budget is actually growing slowly. The proposed fiscal year 
2019 Defense Health Program budget is up about 1.6 percent over the 
fiscal year 2018 estimate and a total of 3.1 percent since fiscal year 
2017. A key driver of lower growth is internal reforms that have 
generated significant savings and will generate additional savings in 
the future. For example, the fiscal year 2019 proposal includes $500 
million in projected savings driven by lower administration costs for 
TRICARE contracts. Where possible the Defense Health Program strives to 
keep spending growth under control while maintaining quality medical 
care for DoD beneficiaries.
                               space rco
    Question. The new Space Rapid Capabilities Office at Kirtland Air 
Force Base will need additional funds to get off the ground running, 
and to get our assets into orbit to meet DoD's requirements to reduce 
the time to launch national security assets into space. I would like to 
note that I strongly support additional funding for this line in order 
to support increased manning and other costs that may come up as Space 
RCO is stood up this year. There is no time to waste and we should give 
Space RCO the maximum amount of flexibility to meet our space 
requirements and to improve its partnerships with commercial entities. 
Once Space RCO identifies some of its initial requirements, including 
additional manpower and military construction, will you work with the 
Appropriations Committee to ensure that there is adequate funding to 
move this program forward quickly?
    Answer. The Department stood up a Space Rapid Capabilities Office 
Tiger Team to implement certain provisions of section 1601 of the 
National Defense Authorization Act for fiscal year 2018. The Space 
Rapid Capabilities Office Tiger Team has been working over the last few 
months to transition the Operationally Responsive Space Office to the 
newly designated Space Rapid Capabilities Office (RCO). The Department 
looks forward to working with the Appropriations Committee to ensure 
that the Space Rapid Capabilities Office is adequately resourced as 
identified in the President's Budget.
                              total force
    Question. The Department of Defense established new policies for 
maternity leave as part of the ``Force of the Future'' initiative in 
2016--authorizing 12 weeks fully paid maternity leave after normal 
pregnancy and childbirth. However, this does not take the Total Force 
into consideration. Under the current law, reserve component members in 
reserve training status are required to attend unit training assemblies 
or ``weekend drill'' to receive points towards creditable military 
service. If a female service member does not perform duty within the 
allotted timeframe, the service member is in jeopardy of not receiving 
credit for their military service and points towards retirement. The 
Mothers of Military Service Leave Act or MOMs Act would ensure that 
mothers in the reserve component receive points for 6 unit training 
assemblies towards retirement after normal pregnancy and childbirth. 
There are approximately 153,802 women in the National Guard and 
Reserves who are currently not entitled to be paid maternity leave. The 
National Guard Association of the U.S. has given full support to fix 
this problem. And the Chief of the National Guard Bureau recently 
testified in favor of this proposal to this committee. Yet, I have 
received pushback from the Department of Defense. Stating in essence 
that this proposal is too expensive. This is outrageous considering the 
record amount of money this committee has approved for the DoD in 
recent years. Are you aware of any issues with the legislation that 
would cause DoD to object to Congress advancing it this year? Would you 
agree that taking care of our female service members after childbirth 
is an important effort to ensure retention of female reservists and 
guards members? And also an important job for any leader? Can I count 
on your support to address this issue and help make this legislative 
fix?
    Answer. In the National Defense Authorization Act for fiscal year 
2017, Congress expanded maternity leave by creating Primary and 
Secondary Caregiver Leave (Public Law 114-328, sec. 521). In expanding 
this entitlement, Congress specifically authorized this benefit only to 
Reserve Component members who are either performing Active Guard 
Reserve (AGR) duty or who are serving on active duty for a period in 
excess of 12 months. As a result, these members of the Reserve 
Component, serving generally in a full-time capacity, are entitled to 
the same parental leave benefits as Active Component members. Members 
of the Reserve Component, when serving in a part-time capacity, are not 
eligible to accrue leave and specifically are not entitled to the 
parental leave benefits authorized by Congress. To care for our Reserve 
Component members who give birth, the Department provides them 
additional flexibility. It routinely excuses these members from 
Inactive Duty Training (IDT) but does not pay them for these excused/
missed IDT periods. However, in most, if not all, cases, these members 
are offered an opportunity to make up these missed IDT periods either 
before or after the birth, thus ensuring they receive both the pay and 
retirement points for performing duty. Few, if any, members would fail 
to earn a satisfactory year towards retirement as a result being unable 
to perform or make up IDT periods because of giving birth. A member 
must earn a minimum of 50 points per year to earn a satisfactory year 
toward retirement. In a year, a typical member would be eligible to 
earn 78 points (48 points from IDT, 12-15 points from annual training, 
and 15 points for participation). Even without the 12 points (6 unit 
training assemblies), the member could still obtain approximately 66 
points, which would be enough to earn a satisfactory year. There are 
approximately 6,500 female Reserve Component members who give birth per 
year. Paying for 12 IDT periods, such as provided for in the Mothers of 
Military Service Leave Act, for each of these members would cost 
approximately $8.9 million per year in lost manpower. That is, members 
who give birth and may have previously been excused and did not make up 
the missed IDT periods would now be paid directly for those periods. 
Providing a benefit, such as that in the Mothers of Military Service 
Leave Act, would provide an inequitable leave entitlement to only a 
portion of the force that is serving in a part-time capacity. As a 
result, the Department of Defense does not support the proposed 
legislation.
                                 ______
                                 
              Questions Submitted by Senator Tammy Baldwin
                             syria strategy
    Question. Secretary Mattis, what does long-term success in Syria 
look like to you? More importantly, what is the strategy to achieve it, 
how do we measure progress, and what is your plan to prevent the type 
of escalation President Trump has said he wants to avoid?
    Answer. In conjunction with our Coalition partners, the United 
States is committed to the lasting defeat of ISIS. Additionally, the 
United States seeks a unified and territorially whole Syria where 
transnational terrorist groups and Iranian-backed terrorist groups and 
militias cannot threaten the United States, our citizens or interests, 
or our regional partners. This objective is served by not only by our 
military efforts to destroy the physical caliphate, but also by U.S. 
support for the United Nations-led Geneva political process established 
by U.N. Security Council Resolution (UNSCR) 2254, in which the United 
States believes strongly that representatives of all Syrians should 
fully participate. Additionally, the United States is focused on 
deterring the production, proliferation, or use of chemical weapons; 
mitigating human suffering and enabling safe and voluntary refugee 
returns; and defending allies and partners from threats emanating from 
Syria. To avoid escalation of the conflict, the United States supports 
genuine de-escalation initiatives, including in areas where local 
populations can pursue local governance and security. Additionally, the 
United States continues to utilize and uphold de-confliction channels 
with Russia to avoid inadvertent conflict with Russian military forces 
in Syria.
                retirement credit for distance learning
    Question. It is my understanding that an ambiguity in current law 
(Section 12732(a) of Title 10) regarding the awarding of retirement 
points has resulted in inconsistencies across the Services related to 
the treatment of distance learning. The specific language in question 
entitles a servicemember to one retirement point for each day ``while 
attending a prescribed course of instruction at a school designated as 
a service school by law or by the Secretary concerned.'' It is my 
further understanding that individual Services are interpreting this 
language differently in regard to whether distance learning qualifies. 
Adding to the confusion, I have heard that there may exist a 2013 DoD 
Instruction that prohibits the awarding of retirement points for 
distance learning. Such a prohibition disproportionately harms members 
of the reserve components who hold civilian jobs and cannot attend 
military-related educational programs in-residence. I will soon be 
introducing a bill to address this uneven treatment of distance 
learning and give the Secretaries of the Military Department clear 
statutory authority to award retirement points for distance learning. 
My multipart question for both Secretary Mattis and General Dunford is: 
Do you support awarding retirement points for approved distance 
learning? Which Services currently award retirement points for approved 
distance learning? For those that do, under what statutory authority 
and under what DoD and Service regulatory authority? For those that do 
not, what statute or policy prohibit them from doing so?
    Answer. Yes, the Department supports providing compensation for 
Reserve Component (RC) members completing distance learning in 
accordance with 37 U.S.C., Sec. 206. No Services currently award 
retirement points for approved distance learning. At this time, 37 
U.S.C., Sec. 206 and 10 U.S.C. Sec. 12732(a)(2) do not permit the 
awarding of retirement points for Reserve Component Service members who 
complete correspondence courses that do not meet the statutory 
requirements.

                          SUBCOMMITTEE RECESS

    Senator Shelby. And subject to all that, the Defense 
Subcommittee will reconvene on Tuesday, May 15, at 10 a.m. to 
receive testimony from the United States Army.
    Thank you, gentlemen.
    The subcommittee stands in recess.
    [Whereupon, at 12:05 p.m., Wednesday, May 9, the 
subcommittee was recessed, to reconvene at 10 a.m., Tuesday, 
May 15.]
</pre></body></html>
